<html>
<title> - INVASIVE SPECIES MANAGEMENT ON FEDERAL LANDS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
             INVASIVE SPECIES MANAGEMENT ON FEDERAL LANDS
=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         Thursday, May 16, 2013

                               __________

                           Serial No. 113-18

                               __________

       Printed for the use of the Committee on Natural Resources


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov







___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b2c3b240b283e383f232e273b6528242665">[email&#160;protected]</a>  







                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Niki Tsongas, MA
Doug Lamborn, CO                     Rush Holt, NJ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Scott R. Tipton, CO                  Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 Colleen W. Hanabusa, HI
Mark E. Amodei, NV                   Steven A. Horsford, NV
Chris Stewart, UT                    Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 16, 2013...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     2
    Horsford, Hon. Steven A., a Representative in Congress from 
      the State of Nevada........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Beck, Dr. K. George, Professor of Weed Science, Colorado 
      State University...........................................    10
        Prepared statement of....................................    12
        Questions submitted to...................................    25
    Dye, Randy C., West Virginia State Forester, President, 
      National Association of State Foresters....................    28
        Prepared statement of....................................    29
        Questions submitted to...................................    32
    Fearneyhough, Jason, Director, State of Wyoming, Department 
      of Agriculture.............................................    34
        Prepared statement of....................................    36
        Questions submitted to...................................    38
    Hughes, Debra, Executive Director, New Mexico Association of 
      Conservation Districts.....................................    40
        Prepared statement of....................................    42
    Ogsbury, James D., Executive Director, Western Governors' 
      Association................................................    43
        Prepared statement of....................................    45
    Ries, Paul, Associate Deputy Chief, State and Private 
      Forestry, U.S. Forest Service, U.S. Department of 
      Agriculture................................................     4
        Prepared statement of....................................     6

Additional materials submitted for the record:
    FY09 National Invasive Species Council Invasive Species 
      Expenditures Compilation...................................    16
    The Idaho Invasive Species Strategic Palan 2012-2016.........    50
    The Nature Conservancy, Letter Submitted for the Record......    64
    Western Governors' Association Policy Resolution 10-4........    48
                                     



 OVERSIGHT HEARING ON ``INVASIVE SPECIES MANAGEMENT ON FEDERAL LANDS''

                              ----------                              


                         Thursday, May 16, 2013

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 1334, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Lummis, Stewart, Cramer, 
Holt, Horsford, and Garcia.
    Mr. Bishop. Noticing that there is a presence of a quorum, 
the Subcommittee on Public Lands and Environmental Regulation 
is meeting today to hear testimony on the invasive species 
management on Federal lands.
    So, under the rules, only the Ranking Member and the 
Chairman are allowed opening statements, but I ask unanimous 
consent to include any Member's opening statement in the 
hearing record if submitted to the clerk by the close of 
business today. And hearing no objections, it will be so 
ordered.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. This morning the Subcommittee is exercising its 
role in good government by taking a look at a growing issue 
facing our Federal lands. The proliferation of invasive species 
on our public lands is impacting the health, the landscape, and 
it is increasing the risk of wildfire, affecting wildlife 
habitat, impacting the viability of land for multiple use, and 
perhaps most troubling, it is undermining the efforts of their 
neighboring land owners, who, unlike the Federal Government, 
are often taking proactive steps to reduce the threat of 
invasive species on their lands.
    This hearing is intended to take a first look at this 
issue. We are going to hear from the Forest Service about their 
efforts to tackle the growing threats to the 193 million acres 
that it manages. The Department of the Interior, unfortunately, 
chose not to talk to us about the 400 million acres that they 
manage.
    We will also hear from other stakeholders about what they 
think is and is not working, and how scarce public resources 
can be better utilized.
    Invasive species management is a complex and difficult 
issue. And, from my perspective, there are certainly more 
questions than answers as to what is being done, and what could 
be done better. Many, who will be represented by our panel, 
have raised concerns with Federal funds actually reaching the 
on-ground effort to eradicate the invasive species, and have 
asserted a fact that became a common theme with land 
management, that actually State and local and private entities 
are superior to their Federal counterparts when it comes to 
managing lands and resources.
    Therefore, this hearing is a much-needed fact-finding 
mission to hear from experts on how the Federal Government can 
operate more effectively to work with those who are willing and 
able partners to start catching up with the invasive species 
that have invaded our land since the late 1700s and are 
impacting State and private property at the same time.
    We thank our witnesses for being here. We look forward to 
hearing about their efforts to try and make sure that the money 
that we are spending on invasive species actually gets on the 
ground so it does what it was intended to do. And I look 
forward to your testimony.
    [The prepared statement of Mr. Bishop follows:]
Prepared Statement of The Honorable Rob Bishop, Chairman, Subcommittee 
              on Public Lands and Environmental Regulation
    This morning the Subcommittee is exercising its role in good 
government by taking a look at a growing issue facing our Federal 
lands. The proliferation of invasive species on our public lands is 
impacting the health of the landscape, increasing the risk of wildfire, 
affecting wildlife habitat, impacting the viability of the land for 
multiple-use, and finally--perhaps most troubling--undermining the 
efforts of neighboring landowners who, unlike the Federal Government, 
are often taking proactive steps to reduce the threat of invasive 
species on their land.
    This hearing is intended to take a first look at this issue. We 
will hear from the Forest Service about their efforts to tackle the 
growing threats to the 193 million acres it manages, the Department of 
the Interior unfortunately could not join us to talk about the other 
400 million acres. We will also hear from other stakeholders about what 
they think is and is not working, and how scarce public resources can 
be better utilized.
    Invasive species management is a complex and difficult issue, and 
from my perspective there are certainly more questions than answers as 
to what is being done and what can be done better. Many--represented by 
our panel--have raised concerns with Federal funds actually reaching 
the on-the-ground efforts to eradicate invasive species, and have also 
asserted a fact that has been frequently heard by this Subcommittee 
that States are better situated to utilize funding to implement more 
effective control measures.
    Therefore, this hearing is a much-needed fact finding mission to 
hear from experts on how the Federal Government can operate more 
efficiently and work with these willing and able partners to start 
catching up with the invasive species that are invading Federal lands 
and impacting State and private property.
                                 ______
                                 
    Mr. Bishop. So I would now like to recognize the Ranking 
Member, Mr. Horsford, for 5 minutes for any opening statement 
he wishes to give. Actually, you've got as much time as you 
want for an opening statement.

 STATEMENT OF THE HON. STEVEN A. HORSFORD, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Horsford. Thank you, Mr. Chairman, members of the 
Committee, and witnesses. I am pleased to be standing in for 
Mr. Grijalva today, and I thank you all for participating in 
this hearing.
    I think we can agree on a number of things. Invasive 
species are a growing problem across millions of acres of 
Federal land. The spread of invasive species costs billions of 
dollars and negatively impacts agriculture, commerce, water 
quality, and wildlife habitat. Invasive species monitoring 
control and eradication is time-consuming and expensive. And we 
can probably use our resources better.
    In my home State of Nevada, we have a massive invasive 
species issue. My congressional district, covering both a rural 
part of the State, one of our worst is the invasion of the 
Quagga Mussel, cheatgrass, and other noxious weeds, are 
increasing fire risk and impacting sage grouse habitat. So this 
has been our experience in Nevada, my experience in our 
congressional district. And I look forward to hearing from the 
Healthy Habitat Coalition, which, unfortunately, does not 
include any Nevada representation, but I hope to learn more 
about how your efforts on noxious weed might help translate to 
some of our concerns, as well.
    Thank you, Mr. Chairman, and I look forward to hearing from 
our expert panel this morning.
    [The prepared statement of Mr. Horsford follows:]
       Prepared Statement of the Honorable Steven A. Horsford, a 
          Representative in Congress From the State of Nevada
    Mr. Chairman, Members of the Committee, and witnesses. Thank you 
for participating in this hearing today.
    I think we can agree on a number of things.

     Invasive species are a growing problem across millions of acres of 
Federal land.
     The spread of invasive species is costing billions of dollars and 
negatively impacts agriculture, commerce, water quality, and wildlife 
habitat.
     Invasive species monitoring, control, and eradication is time 
consuming and expensive.
     We can probably use our resources better.

    In my home State of Nevada, we have massive invasive species 
issues, the worst being the invasion of the quagga mussel. Cheatgrass 
and other noxious weeds are also increasing fire risk and impacting 
sage grouse habitat.
    This is my experience. I look forward to hearing from the Healthy 
Habitat Coalition, which unfortunately does not include any Nevada 
representation, to learn more about how their efforts on noxious weeds 
might translate to our concerns.
    Thank you again.
                                 ______
                                 
    Mr. Bishop. Thank you. We welcome the panel that we have up 
here in front of us. Let me introduce just--I hope from left to 
right--Mr. Paul Ries, who is the Associate Deputy Chief from 
the Forest Service and the Agriculture Department; Dr. George 
Beck from Colorado State University, part of the Healthy 
Habitats Coalition; Randy Dye, who is President of the National 
Association of State Foresters; Jason Fearneyhough--I hope I 
said that right--who is the Director of the Wyoming Department 
of Agriculture; Debra Hughes, the Executive Director of the New 
Mexico Association of Conservation Districts; and James 
Ogsbury, who is the Executive Director of the Western 
Governors' Association.
    Before we ask you to testify, I would like to ask Mrs. 
Lummis if she would have a desire to introduce Mr. 
Fearneyhough, who happens to be one of her constituents.
    Mrs. Lummis. I definitely would, Mr. Chairman. Thank you. 
And thank you, Ranking Member, for holding this hearing.
    Director Fearneyhough has been the director of Wyoming's 
Department of Agriculture for the past 4 years, which means as 
an appointee, and a political appointee at that, he has served 
both for a Democrat Governor and a Republican Governor. And I 
think that speaks volumes to how he is received and thought of. 
He is very, very well respected in Wyoming--not only in 
Wyoming, but also among his fellow directors of agriculture, 
because he is also the current Chairman for the National 
Association of State Departments of Agriculture.
    We have known each other for a long time. He is a committed 
partner with Federal agencies in tackling invasive species. And 
as we all know in our Western States, the Federal presence is 
so significant, so commingled with private and State land, that 
we have to have these partnerships in order to make things 
work. He knows their policies, he knows what works well, and he 
knows what doesn't work well. And he has got an extensive pool 
of experience.
    Invasive species, like cheatgrass, have great implications 
for wild fires and Wyoming's efforts to prevent the listing of 
the sage grouse, a huge issue for us right now. So, any 
solution in a State like Wyoming, and more so with yours, Mr. 
Chairman and Mr. Ranking Member, because of the tremendous 
amount of Federal land ownership, has to involve an effective 
Federal commitment, which we need more of.
    So thank you very much, Mr. Chairman, Mr. Ranking Member. 
And welcome, Mr. Fearneyhough; we are delighted to have you 
here.
    Mr. Bishop. Thank you, Representative. To all the others, 
we would have equal kind of introductions, but you are not from 
Nevada or Utah.
    [Laughter.]
    Mr. Bishop. So screw it, you know, you are just real 
people. But I appreciate it.
    I am assuming--many of you have been here before--you 
understand the system. Your written testimony is already part 
of the record. We would ask you to add to it in your oral 
testimony. The clock you see in front of you starts ticking 
down at 5 minutes. When it goes yellow, that means you have a 
minute left, so please hurry up. And when it is red, we wish 
you to stop, even in mid-sentence.
    So, you each have 5 minutes. Let me turn, first of all, to 
Mr. Ries. We thank you for being here. Make sure you pull the 
mic as close to you--and have it on. And we would recognize you 
for 5 minutes for your testimony, please.
    That is why you need to have it really closer to you.
    Mr. Ries. Is that better?
    Mr. Bishop. A little bit.
    Mr. Ries. How is that?
    Mr. Bishop. Good enough for government work, yes. Go ahead.

  STATEMENT OF PAUL RIES, ASSOCIATE DEPUTY CHIEF, U.S. FOREST 
            SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Ries. Thank you, Mr. Chairman and members of the 
Subcommittee, thank you for the opportunity to testify before 
you today on the role of the Forest Service in protecting 
forest and grasslands from invasive species. The work that we 
do is accomplished with and through partners. Those partners 
include States, counties, communities, conservation districts, 
and weed boards. They also include our Federal agencies, 
colleges and universities, and non-profits. We, the collective 
we, together, deliver a comprehensive, integrated program 
across the land, in our waterways, from the air, and even 
overseas. We, together, implement that program across Federal, 
State, private, and tribal lands.
    Our program, like all comprehensive invasives programs 
today, includes four universal components of invasive species 
management. One is prevention. Two is early detection and rapid 
response. Three is control and management. Four is restoration. 
So I will talk briefly about each one of those and provide an 
example or two.
    First, prevention. The most cost-effective action that any 
of us can take in invasive species management is to prevent 
species from ever getting here. We are heavily involved in 
prevention. We use our research branch, our international 
program authorities, and our relationships to work with foreign 
countries to stop invasives at their source. As an example, we 
have been successful in establishing science-based treatment of 
wood-based packing materials to avoid them becoming a vector 
for invasive species introductions.
    We have also been successful working with foreign countries 
such as Korea and even China, and having those standards 
implemented to eliminate invasives before they leave their 
countries of origin. Prevention has kept the Asian Gypsy Moth 
out of the Western United States. Prevention has kept Sudden 
Oak Death out of the Eastern Hardwood Forest.
    Number two is early detection combined with a rapid 
response. When prevention fails, early detection and a rapid 
response is the second most cost-effective action you can take 
to control invasive species. We are continually looking for 
more effective ways to detect invasives early, when populations 
are small, so that they can be effectively eliminated through a 
rapid response.
    Since most invasives do not initially become established on 
Federal lands, we use our State and private forestry 
authorities to implement successful early detection rapid 
response programs on private lands. Early detection with rapid 
response eliminated Asian Longhorn Beetle in Chicago, and 
Sacramento, and, as was announced yesterday, in Manhattan. An 
early effort in Maryland successfully eradicated one of the 
first Emerald Ash Borer populations found on the east coast. We 
are currently working with the Nature Conservancy in 
Chattanooga, Los Angeles, and New York, to jointly develop 
better systems for early detection. We want to find new pests 
in the United States and detect known pests in new locations.
    When prevention and early detection/rapid response fail us, 
then we move into the third program element: control and 
management. Again, we use our collected researchers, 
entomologists and pathologists, to develop the most effective 
control and management measures. In some cases, we even license 
and pay for the manufacturing costs of pesticides in order to 
make them available for use across all ownerships. One such 
agent, BT, Bacillus Thuringiensis, has been extremely effective 
in slowing the spread of gypsy moth in the East. We estimate 
100 million acres have been kept free of gypsy moth, as a 
result of Slow the Spread.
    We work to locate and introduce biological control agents, 
often by bringing them from their home countries of origin. 
Bio-control agents, for example, have been very effective and 
significant in reducing the stranglehold that Musk Thistle and 
Knapweed have on many of our range lands. We have been 
successful enough in some cases that we can spend our funds on 
restoration, rather than on control. We are currently working 
on bio-control agents for cheatgrass, Emerald Ash Borer, Rush 
Skeletonweed, and a host of other invasives.
    Education and science are a big part of each of these 
elements. We work to educate boat owners about the dangers of 
Quagga and Zebra Mussels to our waterways. Our scientists work 
to determine the right cleansing agents and hot water 
temperatures that are needed to keep mussels from being 
transported. We have helped fund washing stations and boat 
inspections. We have worked to develop policies around weed-
free hay, and we have helped develop dozens of cooperative weed 
management areas across the West. And that is why it is not 
uncommon to see county trucks spraying weeds on national 
forests, or Forest Service crews spraying weeds along State and 
county roads.
    In closing, I will say that I realize I am out of time. 
Thank you for letting me join you.
    [The prepared statement of Mr. Ries follows:]
  Prepared Statement of Paul Ries, Associate Deputy Chief, State and 
 Private Forestry, U.S. Forest Service, U.S. Department of Agriculture
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify before you today on the role of the Forest 
Service in protecting forests and grasslands from invasive species. The 
Forest Service is committed to the prevention, detection, control, 
management and eradication of invasive species, and to restoring the 
structure and function of affected aquatic and terrestrial ecosystems 
on all lands.
Background
    Invasive species are among the most significant environmental and 
economic threats facing our Nation. Aquatic and terrestrial invasive 
plants, pathogens, vertebrates, invertebrates, algae, and fungi have 
become established on millions of acres across North America. These 
infestations are degrading watershed condition and ecosystem 
functionality, reducing forest and rangeland productivity, increasing 
the risk of wildfire and soil erosion, causing declines in recreational 
use and enjoyment, negatively impacting human health and safety, 
threatening native fish and wildlife populations and their associated 
habitats, causing declines in property values, and undermining the 
economy at all levels. Invasive species cause billions of dollars in 
damage each year in the United States. Pimentel et al. (2001) estimated 
damage from invasive species world-wide totaled at more than $1.4 
trillion per year.
    Burgeoning global trade and transportation have facilitated the 
spread of many species among continents well beyond their native range. 
With the number of people living in, enjoying, and using forests, 
grasslands, and water resources continually increasing, the likelihood 
of invasive species spreading through transportation and recreational 
activities is also rising. As a result, many species of invasive 
plants, pathogens, vertebrates, invertebrates, and other harmful exotic 
species have been introduced to our Nation's aquatic and terrestrial 
ecosystems. Many of these have become established within these 
ecosystems.
Responsibilities and Capabilities of the Forest Service
    The Forest Service plays an important role in the Nation's efforts 
to address the threat of invasive species across the landscape through 
our National Forest System, State and Private Forestry, Research and 
Development, and International program areas. In this testimony we will 
explore how individually and collectively these programs work together 
to address invasive species threats.
    With internationally recognized land management and scientific 
expertise, the Forest Service is well suited to address the many 
challenges of invasive species. The Forest Service continues to play an 
important national and international leadership role in advancing the 
understanding of the invasive species problem. The wide ranging 
authorities of the Forest Service allow us to work with partners to 
combat invasive species across all lands, public and private. We also 
develop methods, tools, and approaches, through which these harmful 
exotic species can be detected, prevented, controlled, and eradicated.
    At the national, regional, State and local levels the Forest 
Service works extensively with county, State, tribal, Federal, and 
private stakeholders to proactively implement invasive species 
management activities across the broader landscape. Through an ``all 
lands approach'' the Forest Service provides a wide range of technical 
and financial assistance to help manage invasive species. The Forest 
Service works closely with State forestry agencies to implement State 
Forest Action Plans to protect forest from threats.
    The Forest Service has also been a major financial supporter for 
the establishment of Cooperative Weed Management Areas (CWMAs) and 
Cooperative Invasive Species Management Areas (CISMAs) for nearly two 
decades, under the National Fish and Wildlife Foundation's ``Pulling 
Together Initiative'' grant program. This Federal grant program lead to 
the establishment and sustainability of dozens of CWMA and CISMA areas 
across the Nation to expand public and private partnerships against 
invasive species.
    In each region of the country, the Forest Service is also a partner 
in implementing priority invasive species management actions identified 
in State invasive species management plans, supporting the 
implementation of the invasive species components of State Wildlife 
Action Plans, helping to develop local and regional invasive species 
management strategies, and providing local support to prevent the 
spread of invasive species. As an example, the Forest Service plays 
several important roles in implementing the USDA obligations and 
priorities under the national Quagga-Zebra Mussel Action Plan (QZAP), 
developed through the interagency Aquatic Nuisance Species Task Force 
to prevent and control the spread of these high-risk invasive mussels 
across the United States. These partnerships help achieve our agency 
watershed restoration and protection goals.
    The Forest Service also provides interagency leadership and support 
as a member of the Federal Interagency Committee for the Management of 
Noxious and Exotic Weeds (FICMNEW), and the Federal Interagency 
Committee for the Management of Invasive Terrestrial Animals and 
Pathogens (ITAP). In addition, the Forest Service serves as an active 
member of the Invasive Species Committee of the Association of Fish and 
Wildlife Agencies (AFWA). Through these partnerships the Forest Service 
continues to expand national and State efforts to address the invasive 
species threat.
FOREST SERVICE INVASIVE SPECIES MANAGEMENT ACTIVITIES
    As one of the largest Federal land management agencies in the 
country, the Forest Service has the responsibility for the stewardship 
of over 193 million acres of public lands within the National Forest 
System. This vast and nationally significant system extends from Alaska 
to the Caribbean, and includes examples of nearly every type of aquatic 
and terrestrial ecosystem in North America. These lands and waters are 
under tremendous pressures from aquatic and terrestrial invasive 
plants, algae, pathogens, fungi, vertebrates, and invertebrates. 
Effective management of these harmful exotic species which threaten the 
National Forest System and all lands is a critical part of the agency's 
land stewardship responsibility.
    The recognition that national forests and grasslands play a key 
role in the local, regional, and national battle against aquatic and 
terrestrial invasive species is reflected by the annual expansion of 
on-the-ground management efforts to address a wide range of invasive 
species challenges. To accelerate this expansion, a new national 
Invasive Species Management Policy for the National Forest System was 
issued to the field in late 2011. It is viewed as a comprehensive 
national policy for invasive species management in the Federal land 
management sector. The new policy defines and clarifies the 
authorities, scope, roles, and responsibilities associated with 
National Forest System management activities against aquatic and 
terrestrial invasive species.
    Forest Service invasive species management performance is outcome 
driven, with a focus on treating and restoring priority areas to 
improve watershed condition and reduce the long-term impacts of 
invasive species. To achieve this, national forests and grasslands 
typically treat nearly 400,000 acres of priority aquatic and 
terrestrial invasive species infestations annually using an integrated 
management approach. Since 2007, more than 2 million acres of lands and 
waters have been restored to protect against aquatic and terrestrial 
invasive species across National Forest System lands and waters.
    Forest Service State and Private Forestry programs provide a wide 
range of assistance to States, tribes, and others to better manage 
private and other public natural resources. The Forest Service provides 
technical and financial assistance to State natural resource and 
agricultural agencies, tribal governments, and other Federal land 
management agencies to respond to and manage forest pests that threaten 
the Nation's 851 million acres of rural and urban forests of all 
ownerships. The Urban and Community Forestry Program works with 
community partners in the detection, monitoring, containment, and when 
possible, eradication of invasive species and provides funding and 
technical assistance to States to support canopy restoration and 
management.
    We also work closely with sister USDA agencies to coordinate 
prevention and management of invasive species across all lands. USDA 
has the largest Federal role in invasive species management because of 
its responsibility to (1) conduct port-of-entry inspections and offer 
technical assistance to responsible agencies who quarantine goods 
coming into the country, (2) manage more than 192 million acres of 
national forests and grasslands, (3) conduct research, and (4) provide 
technical assistance to the private sector and in large agricultural 
pest control projects.
    The U.S. Department of Agriculture (USDA), Agricultural Research 
Service (ARS) conducts research in extremely diverse areas involving 
prevention, control and management of invasive species. For example, 
ARS provides research in support of action agencies such as the Animal 
and Plant Health Inspection Service (APHIS), to reduce the rate of 
introduction of invasive species, and to rapidly detect, identify and 
eradicate incipient species.
    The Animal and Plant Health Inspection Service (APHIS) is a multi-
faceted Agency with a broad mission area that includes protecting and 
promoting U.S. agricultural health, regulating genetically engineered 
organisms, administering the Animal Welfare Act and carrying out 
wildlife damage management activities. APHIS' mission has expanded over 
the years to include protection of public health and safety as well as 
natural resources that are vulnerable to invasive pests and pathogens.
    The Natural Resource Conservation Service (NRCS) has become a 
conservation leader for all natural resources, ensuring private lands 
are conserved, restored, and more resilient to environmental challenge. 
NRCS helps private landowners tackle invasive species problems in four 
major ways: (1) technical and financial assistance to manage invasive 
species and pests; (2) conservation initiatives that work at a 
landscape scale to address natural resource concerns, including 
invasive species; (3) Conservation Innovation Grants with partner 
entities to support development and implementation of innovative 
approaches and strategies to address invasive species; and (4) Plant 
Materials Center research geared toward invasive species management and 
restoring areas where invasive species have been removed.
    The Forest Service Forest Health Protection programs direct and 
implement measures to prevent, detect, contain, and suppress unwanted 
native and invasive insects, pathogens, and plants affecting trees and 
forests. In FY 2012, State and Private Forestry programs provided $1.4 
million in essential matching funds and technical assistance to State 
governments to combat economically significant weed threats to State 
and private forest lands.
    Forest Health Protection and partners from cooperating States 
conduct an annual collaborative forest pest survey on over 400 million 
acres of forest land. We recently completed high resolution maps for 
over 250 forest tree species in the United States that will be used to 
guide these surveys in the future. Additionally, we have developed a 
program called the ``Forest Disturbance Mapper,'' a near real-time web 
portal that uses remote sensing to detect disturbances caused by forest 
pests, and an interagency database to detect and track thousand cankers 
disease of walnut and other pests.
    In FY 2012, Forest Service Research and Development delivered 169 
invasive species tools including the identification of key pathways for 
invasion by new forest pests; methods for detecting, monitoring, and 
controlling the walnut twig beetle; release and recovery guidelines for 
biological control agents for emerald ash borer; and an assessment of 
the potential impacts of hemlock woolly adelgid predators.
    The Forest Service International Programs also work to protect our 
forests from invasive species damage. For example, the program works 
with Chinese counterparts who have partnered with us to address one of 
the most destructive invasive forest pests, the emerald ash borer 
(EAB). The Forest Service continues to work with the USDA Agricultural 
Research Service (ARS) to better understand why the borer is so 
resilient and pervasive. This will help predict and prevent potential 
future outbreaks by related wood boring beetles. With an aim of 
identifying biocontrol mechanisms, a partnership was formed between the 
Forest Service's Northern Research Station, the ARS and counterparts in 
China. With support from International Programs, the team is working to 
find natural enemies of EAB in its native range.
Strategic Approach to Invasive Species Management
    To ensure the continued production of needed goods, services, and 
values from our Nation's terrestrial and aquatic ecosystems, the Forest 
Service takes a strategic approach for managing invasive species across 
all program areas. This approach includes four main elements: (1) 
prevention, (2) detection, (3) control and management, and (4) 
restoration and rehabilitation.
Prevention
    The most effective strategy to protect forests, waterways, and 
grasslands from invasive species is to prevent invasive species 
introduction and establishment. Containing known infestations is also 
important for blocking the spread of invasive species from infested 
lands to surrounding areas. We coordinate with Federal and State 
regulatory agencies to understand pathways for introductions, implement 
quarantine regulations, survey for invasive species, and educate the 
public about invasive pest threats and how to prevent the spread of 
invasive species.
    Forest Service researchers in partnership with APHIS are working 
with industry partners to reduce the introduction of invasives into the 
United States through shipments of wood products and packaging and the 
live plant trade. Additionally, Forest Service scientists and managers 
at the Eastern and Western Threat Centers are working closely with 
domestic and international partners to develop a comprehensive database 
for prediction, prevention, and proactive management of invasive 
plants. A public education campaign developed by the Forest Service in 
partnership with Wildlife Forever recruits hunters, anglers, and 
recreational boaters to help prevent the spread of aquatic invasive 
species such as quagga and zebra mussels and Eurasian milfoil.
Detection
    The Forest Service develops and implements efficient survey and 
monitoring tools and technologies to facilitate early detection of 
invasive species, including in urban areas, and rapidly assess their 
potential impact on forest and grassland health. As necessary and 
appropriate, the Forest Service coordinates these activities with 
Federal and non-Federal cooperators across all lands.
    The Forest Service has supported development of a mapping system 
used nationally by cooperating agencies and weed management 
organizations to document distribution of invasive weeds. Additionally, 
Forest Service scientists developed a test capable of detecting the 
fungal pathogen that causes white-nose syndrome (WNS) in bats. The test 
is being used to identify infested caves, so that Forest Service and 
other land managers might selectively restrict access to those caves 
and mines to help slow the spread of WNS.
Control and Management
    The Forest Service directly intervenes to manage populations of 
invasive species that threaten forest and grassland health and 
sustainability. Rapid response following early detection is used to 
eradicate new infestations. If eradication is not feasible, Integrated 
Pest Management (IPM) and adaptive management techniques are 
implemented to help maintain ecosystem function. This includes research 
and management to increase the resilience of threatened ecosystems to 
mitigate the impacts of pests. In cooperation with external 
stakeholders, the Forest Service conducts research to characterize 
infestations, to identify factors conducive to infestations, and to 
develop tools and techniques to cost-effectively eradicate or manage 
priority invasive species.
    For example, the Jackson and Buffalo Ranger Districts of the 
Bridger-Teton National Forest in Wyoming include the majority of the 
land within the Jackson Hole Weed Management Association, where the 
Forest Service identified approximately 7,000 priority acres for 
detection and immediate eradication efforts. In total, the Forest 
Service successfully eradicated 15 priority species from those 7,000 
acres. Since 2000, the Forest Service, working in partnership with 
States and other Federal agencies, has implemented a national Slow the 
Spread (STS) strategy to minimize the rate at which gypsy moth spreads 
into uninfested areas. The STS program has reduced the spread of gypsy 
moth more than 60 percent from the historical level of 13 miles per 
year. In only 12 years, this program has prevented impacts on more than 
100 million acres. When oak trees started dying in the San Francisco 
Bay Region, the Forest Service Pacific Southwest Research Station 
developed a collaborative research response that helped identify the 
cause--a water mold previously unknown to science. The combined efforts 
of the Forest Service with APHIS and numerous partners via the 
California Oak Mortality Task Force have reduced the human-assisted 
spread of Sudden Oak Death and helped communities in the 14 infested 
coastal counties in California and Oregon deal with the infestation.
Restoration and Rehabilitation
    Restoring landscapes that have been impacted by invasive species or 
associated management activities is necessary for improving ecosystem 
integrity and function and may reduce vulnerability to invasive species 
establishment in the future. Restoring and maintaining the health, 
functions, and productivity of areas affected by invasive species is 
consistent with management guidance on restoring national forests and 
the effective use of native species.
    For example, In order to restore cutthroat trout populations to 
streams, non-native trout are replaced with genetically pure cutthroat 
populations. After a decade of restoration efforts, Cherry Creek, on 
the Gallatin National Forest, now contains the largest genetically pure 
population of this cutthroat trout subspecies in the upper Missouri 
River drainage area.
Conclusion
    In conclusion, the invasive species issue is considered a high 
priority by all program areas of the U.S. Forest Service. We believe 
the Forest Service collaborative approach to invasive species 
management enhances our ability to work together by building on each 
other's strengths and authorities. In addition, our Forest Service 
personnel works with local, county, and State governments; Cooperative 
Weed Management Areas; Cooperative Invasive Species Management Areas; 
our departmental partners NRCS, ARS and APHIS; and other organizations 
in the public and private sectors to promote a collaborative approach 
to mitigate, manage, and if necessary, adapt to invasive species 
threats across the landscape.
    I would like to thank the committee members for their interest in 
invasive species management, and I welcome any questions you may have 
for me at this time.
                                 ______
                                 
    Mr. Bishop. No, thank you. I appreciate your testimony, 
looking forward to asking questions. And how you managed to get 
the bagpipes as background music was truly--that was a master 
stroke. I don't know how you did it, but congratulations.
    [Laughter.]
    Mr. Bishop. Next to Dr. George Beck from the Colorado State 
University on the Healthy something Habitat.
    Dr. Beck. Coalition.
    Mr. Bishop. Whatever it is. Happy to have you here, and you 
are recognized for 5 minutes.

  STATEMENT OF DR. K. GEORGE BECK, PROFESSOR OF WEED SCIENCE, 
     COLORADO STATE UNIVERSITY, HEALTHY HABITATS COALITION

    Dr. Beck. Thank you, Mr. Chairman. Chairman Bishop, Ranking 
Member Horsford, members of the Subcommittee, thank you for the 
opportunity to testify before you today. My name is Dr. George 
Beck, and I am a professor of weed science at Colorado State 
University. Today I represent the Healthy Habitats Coalition. 
We are a diverse coalition dedicated to improving invasive 
species management in our country.
    In spite of almost three decades of effort by many 
organizations working to persuade the Federal Government to do 
a better job controlling and managing invasive species, little 
progress has been made. The list of invasive species is long, 
but quite manageable.
    The Healthy Habitats Coalition collective experience is 
with invasive weeds, and I will focus on them to show the need 
for substantial improvement by the Federal Government.
    The data on this particular slide show the number of 
infested acres in 2009, acreage treated and restored and the 
increase of infested acres for six Federal agencies that have a 
responsibility to manage invasive species. Only 3.2 percent of 
existing infested acres were treated and restored in 2009. Weed 
scientists indicate that invasive weeds typically spread at a 
rate of 12 to 16 percent annually. Treating and restoring only 
3.2 percent of infested acres annually, coupled with a 12 
percent increase, indicates that Federal infested acres will 
double by 2017 and will surpass 100 million acres at that time.
    Federal agencies are acquiring about three-and-a-half times 
more acres of invasive weeds annually than they are treating 
and restoring. This plan decidedly will never be successful and 
will continuously produce more and more infested acres, thus 
preventing realization of land management goals and objectives. 
Just as importantly, however, these ever-expanding acres of 
invasive weeds on federally managed lands will serve as a 
constant source of propagules to disperse to new locations.
    These data show the National Invasive Species Council 
budget, which is assembled by asking the agencies for what they 
have done, and putting those figures into one of these seven 
budget categories. The Federal Government spent $1.563 billion 
in fiscal year 2009 on invasive species management, stating 
that $642 million was spent on control and management. HHC 
members have years of experience designing weed management 
plans, and our calculations differ substantially from the 
Federal data.
    Agencies indicated they treated and restored 1,603,805 
acres in 2009. Our calculations suggest the following when 
early detection/rapid response is budgeted at $1,000 per acre, 
restoration at $300 per acre, and controlled herbicide at $100 
per acre. As you can see, our calculations indicate that far 
less appears to have been spent on control and management than 
that stated by the Federal agencies.
    This figure shows our recalculated budget, and there 
remains about $305 million that cannot be readily placed into 
one of the next budget categories. It appears, then, that 
agencies are spending more money per acre to control invasive 
weeds than is necessary.
    The Healthy Habitat Coalition recommends that Federal 
agencies must treat and restore at least 15 percent of infested 
acres annually to overcome this management deficit. The data in 
this table show that within 10 years, 19.2 million acres would 
be treated and restored using this plan, which represents a 39 
percent decrease of infested acres, as opposed to over 120 
percent increase using their current approach over the same 
time period.
    In addition to treating and restoring many more acres 
annually than Federal agencies currently do, they also must be 
more efficient and effective with taxpayer dollars. Many 
university extension professors have spent considerable effort 
over the past 25 years educating and training Federal personnel 
about invasive weeds and their management. The inadequate 
Federal performance in spite of this extensive educational 
effort by so many also suggests, then, that their efforts are 
likely insufficient. We, as a Nation, are digressing, rather 
than progressing, on invasive species management.
    Chairman Bishop, Ranking Member Horsford, and members of 
the Subcommittee, thank you again for the opportunity to 
testify at today's hearing and presenting the facts related to 
invasive species. I will be happy to answer any questions.
    [The prepared statement of Dr. Beck follows:]
 Prepared Statement of Dr. K. George Beck, Professor of Weed Science, 
                       Colorado State University
    Chairman Bishop, Ranking Member Grijalva, members of the 
Subcommittee, thank you for the opportunity to testify before you 
today. My name is Dr. George Beck and I am a professor of weed science 
at Colorado State University. I am appearing before you today 
representing the Healthy Habitats Coalition, a diverse coalition of 
land managers, conservation organizations, private companies, and 
academics such as myself, focused on how local management is the best 
practice for natural resources management including invasive species. I 
would like to walk you through the growing problem related to invasive 
species as well as some of the research HHC has conducted on dollars 
spent to control and manage invasive species.
Invasive Species Overview and Situation to Date
    Invasive species is an insidious and occasionally sinister economic 
and environmental issue--it is not new. Canada thistle, for example, 
was first declared noxious in the United States in 1795 in Vermont. A 
little overgrazing by one user, in this instance, opened the door for 
invasion of the common area by Canada thistle, which in turn decreased 
everyone else's ability to raise the sustenance needed to survive. It 
was the tragedy of the commons where one person's use of the 
environment influenced the next person's use and invasive species 
continue to plague us in this fashion to this day.
    In the 1980s, many Western States public and private land managers 
were highly dissatisfied with how Federal land management agencies were 
managing noxious and invasive weeds. The Intermountain Noxious Weed 
Advisory Council (INWAC) was formed in 1987. INWAC was a grass roots 
organization whose goal was to educate Federal agency decision makers 
and Congress about the problems associated with noxious and invasive 
weeds and the need for much enhanced management by Federal agencies in 
particular. In 1990, INWAC helped write and secure passage of section 
2814 of the Federal Noxious Weed Act, which requires all Federal 
agencies to manage noxious weeds in cooperation with State and local 
governments. Furthermore, the law specifically requires that any 
National Environmental Policy Act (NEPA) assessment that must be 
produced be completed within 1 year and section 2814 presently remains 
the law of the land. Some Federal agencies have not yet complied with 
section 2814.
    In 1996, INWAC along with several noted invasive species scientists 
from across the United States met with President Bill Clinton's Science 
Advisors to voice their dissatisfaction with the management of invasive 
species by Federal agencies. The Administration at that time disagreed 
but a letter of protest about invasive species management in the United 
States signed by 500 scientists was an outcome of that meeting and 
found its way to the highest Administrative offices. As a result, 
Executive Order 13112 was issued by President Clinton in 1999. The 
National Invasive Species Council (NISC) was formed, which was 
comprised of eight of the President's Cabinet Secretaries and co-
chaired by the Secretaries of Agriculture, Commerce, and Interior. E.O. 
13112 created the Invasive Species Advisory Committee (ISAC) which 
along with NISC staff created all the National Invasive Species 
Management Plans over the past 13 years. ISAC also wrote and published 
a guidance paper for all Federal agencies clearly defining what 
constitutes an invasive species--i.e., what is, and just as 
importantly, what is not an invasive species (see Addendum).
    The National Invasive Weed Awareness week in Washington, D.C. 
started in 2001 and evolved recently into the National Invasive Species 
Awareness Week. The goal was to heighten the awareness about invasive 
species among Federal agency decision makers and Members of Congress. 
We were successful and our elected leaders in particular understand 
that invasive species indeed is an insidious issue albeit, a competing 
priority that has fallen short of the action that is clearly needed.
Current Status and Necessary Steps To Take
    In spite almost three decades of work with the Federal Government 
to control and manage invasive species, little progress has been made 
and what progress that has occurred is grossly insufficient on a 
national scale. A multitude of taxa require our immediate management 
attention; zebra and quagga mussels, New Zealand mudsnails, Burmese 
pythons, feral hogs, emerald ash borers, gypsy moths, Asian carp, 
snakehead fish--the list of invasive species is long but manageable. 
The Healthy Habitat Coalition's collective experience, however, is with 
invasive weeds and we will focus on the continued growth of various 
weed species and the need for better control and management measures on 
lands and waterways throughout the country. The data in Table 1 outline 
the amount of infested acres, the amount of acres treated, and the 
increase of infested acres for the six major Federal Agencies who have 
jurisdiction over invasive species.

                                     Table 1.--Magnitude of Federal Agency Invasive Weed Management Fiscal Year 2009
                                      [Data provided to Healthy Habitats Coalition directly from Federal Agencies]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Treated &                         New Acres        Total Net
                          Agency  (Big 6)                             Infested Acres   restored acres    Percent  T&R     Annually * *    Infested Acres
--------------------------------------------------------------------------------------------------------------------------------------------------------
BLM................................................................      35,000,000          375,000             1.1%        4,155,000       38,780,555
USFS...............................................................       7,000,000          390,000             5.6%          793,200        7,403,200
NPS................................................................       2,600,000           66,000             2.5%          304,080        2,838,080
DOD *..............................................................       2,500,000          200,000               8%          276,000        2,576,000
APHIS..............................................................          81,709           27,805              34%            6,469           60,372
FWS................................................................       2,300,000          345,000              15%          234,600        2,189,600
Others.............................................................             Not          200,000              Not              Not                -
                                                                          available                         available        available
                                                                    ------------------------------------------------------------------------------------
    Totals.........................................................      49,481,709        1,603,805             3.2%        5,769,349       53,847,807
--------------------------------------------------------------------------------------------------------------------------------------------------------

    These data clearly show that only 3.2 percent of existing acres 
infested with invasive weeds were treated and restored in 2009. Weed 
scientists indicate that a typical rate of spread for weeds is 12 to 16 
percent annually (Duncan and Clark 2005). Treating and restoring only 
3.2 percent of infested acres annually coupled with a 12 percent 
increase indicates that the FY09 infested acres on Federally managed 
lands will double by 2017 and will surpass 100 million acres by 2018 
(Table 2). Because the rate of invasive weed spread apparently is not 
recognized or at least accounted for, Federal agencies are acquiring 
3.5 times more acres of invasive weeds annually than they are treating 
and restoring. This is a plan that decidedly will never be successful 
and will continuously produce more and more infested acres thus, 
preventing realization of land management goals and objectives. Just as 
importantly, these ever-expanding acres of invasive weeds on federally 
managed lands will serve as a constant source of propagules to disperse 
to neighboring lands and those distant to the infested site! HHC 
recommends that Federal agencies treat and restore at least 15 percent 
of their infested acres annually to successfully decrease acres of 
invasive weeds on lands they manage on behalf of the American public. 
Additionally, our Nation must create a borderless collaboration among 
Federal agencies, States and their land management agencies, private 
enterprise, and private land owners and land managers for invasive 
species management. Invasive species do not recognize political borders 
and we must overcome the barriers that prevent borderless collaboration 
to be successful.

                         Table 2.--Performance Assessment of Invasive Weed Management by Federal Agencies Over a 10-Year Period
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      Acres Treated &
                                                                        Beginning      Restored (3.2    Infested Acres     12 Percent        Year End
                       Year                          Elapsed Years    Infested Acres     percent of    After Treatment  Annual Increase   Infested Acres
                                                                                           Begin)
--------------------------------------------------------------------------------------------------------------------------------------------------------
2009..............................................               1            49.48            -1.60          = 47.88           + 5.75          = 53.63
2010..............................................               2            53.63            -1.74          = 51.89           + 6.23          = 58.12
2011..............................................               3            58.12            -1.89          = 56.23           + 6.75          = 62.98
2012..............................................               4            62.98            -2.04          = 60.94           + 7.31          = 68.25
2013..............................................               5            68.25            -2.21          = 66.04           + 7.92          = 73.96
2014..............................................               6            73.96            -2.40          = 71.56           + 8.59          = 80.15
2015..............................................               7            80.15            -2.60          = 77.55           + 9.31          = 86.86
2016..............................................               8            86.86            -2.81          = 84.05          + 10.09          = 94.14
2017..............................................               9            94.14            -3.05          = 91.09          + 10.93         = 102.02
2018..............................................              10           102.02            -3.31          = 98.71          + 11.85         + 110.56
--------------------------------------------------------------------------------------------------------------------------------------------------------

FY09 NISC Budget
    The National Invasive Species Council staff assembled an annual 
``invasive species budget'' by collecting data from Federal agencies 
and placing that information into one of seven categories that are 
associated with the National Invasive Species Management Plan. In FY09, 
the Federal Government spent $1.563 billion (Figure 1) on invasive 
species stating that $642 million was spent on control and management, 
which is one of the NISC budget categories. HHC members have years of 
experience helping to design weed management strategies and systems and 
our calculations differ substantially from the Federal data. From Table 
1, Federal Agencies indicate they treated and restored 1,603,805 acres 
infested with invasive weeds in FY09. Our calculations suggest the 
following when Early Detection and Rapid Response (EDRR) is budgeted at 
$1,000/acre, restoration at $300/acre, and control with a herbicide at 
$100/acre:

$291,000,000 spent on EDRR  $1000/acre = 291,000 acres EDRR treated;
$50,520,000 spent on restoration  $300/acre = 168,400 acres restored;
1,603,805 acres--291,000 EDRR treated-acres--168,400 acres restored = 
1,143,505 acres remaining for direct weed control. Calculating at $100/
acre to control invasive weeds with a herbicide equates to $114,350,500 
spent by Federal agencies to decrease their population abundance, which 
is the first logical step in any weed management system. Based on HHC 
calculations, far less appears to have been spent on control and 
management than the data stated by the Federal agencies (Figure 2).
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

epsFigure 1. NISC FY09 invasive species budget.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

epsFigure 2. HHC's recalculated NISC budget impacts based on average 
cost analysis.

    APHIS projects to control invasive insects and taxa other than 
invasive weeds comprise about two-thirds of the control and management 
budget categories. There remains about $305 million that cannot be 
readily placed into one of the NISC budget categories and it is highly 
likely that Federal agencies are spending more per acre to control 
invasive weeds than is necessary because they are not using the most 
cost-efficient tools and have high labor expenses.
Solution to Federal Agency Performance Managing Invasive Weeds

          Table 3.--A Positive Outcome if Federal Agencies Treat and Restore at Least 15 Percent of Acres Infested With Invasive Weeds Annually
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                      Acres Treated &
                                                                        Befinning       Restored (15    Infested Acres     12 Percent        Year End
                       Year                          Elapsed Years    Infested Acres     percent of    After Treatment  Annual Increase   Infested Acres
                                                                                           Begin)
--------------------------------------------------------------------------------------------------------------------------------------------------------
2009..............................................               1            49.48            -7.42          = 42.06            + 5.1          = 47.16
2010..............................................               2            47.16            -7.07          = 40.09           + 4.81          = 44.90
2011..............................................               3            44.90            -6.73          = 38.17           + 4.57          + 42.74
2012..............................................               4            42.74            -6.40          = 36.34           + 4.35          = 40.69
2013..............................................               5            40.69            -6.10          = 34.59           + 4.15          = 38.74
2014..............................................               6            38.74            -5.80          = 32.94           + 3.95          = 36.89
2015..............................................               7            36.89            -5.53          = 31.36           + 3.76          = 35.12
2016..............................................               8            35.12            -5.26          = 29.86           + 3.58          = 33.44
2017..............................................               9            33.44            -5.01          = 28.42           + 3.41          = 31.83
2018..............................................              10            31.83            -4.77          = 27.06           + 3.25          + 30.30
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Federal Agencies must treat and restore at least 15 percent of 
existing infested acres in any given year to overcome their management 
deficit to date (Table 3). Table 3 is similar to Table 2 but is based 
upon treating and restoring 15 percent of infested acres annually. 
Within 10 years, 19.2 million acres would be treated and restored, 
which represents a 39 percent decrease of acres infested with invasive 
weeds on federally managed lands as opposed to their current thrust 
where over 100 million new acres would be infested (Table 2) over the 
same time period! In addition to treating and restoring many more acres 
annually than Federal agencies currently do, they also must be more 
efficient and effective with taxpayer dollars. A paper addressing this 
issue is included in the addendum.
Invasive Species Management by Federal Agencies
    It is abundantly clear that the management of invasive species by 
Federal agencies is not sufficient to slow the growing problem. The 
very nature of invasive species is to increase their populations in 
their new home seemingly without bounds until habitats are saturated 
(Figure 3). Invasive species management is not an option.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

epsFigure 3. Typical population growth curve for invasive species.

    Many university professors with extension appointments have spent 
considerable time over the past 25 years educating and training the 
Federal land management workforce about invasive weeds and their 
management. To be sure, there are some shinning lights within the 
Federal system with regard to invasive species management. For example, 
The U.S. Fish and Wildlife Service spent about 42 percent of their FY09 
``invasive species budget'' to control and manage invasive species and 
the National Park Service spent 100 percent of their FY09 ``invasive 
species budget'' on control and management, and the majority of these 
monies were spent on invasive weeds. So it is clear that if an agency 
or department desires to manage all taxa associated with this insidious 
problem, they can do so! The Healthy Habitats Coalition has a proposed 
solution to our national invasive species problem, but it will take 
Congress, the States, local governments, Federal land managers, private 
enterprise, and private landowners working together to implement a 
solution. The time for action is upon us--we must stop kicking this can 
down the road!
    Chairman Bishop, Ranking Member Grijalva, thank you again for the 
opportunity to testify at today's hearing and present the facts related 
to invasive species. I am happy to answer any questions.
                                 ______
                                 
 fy09 national invasive species council invasive species expenditures 
                              compilation

  Economics of Invasive Weed Control: Chemical, Manual/Physical/fire,

                       Biological, Doing Nothing

                             K. George Beck

                       Professor of Weed Science

                       Colorado State University

Financial Costs/Acre and Impacts to Budgets
    Regardless of whether working for private enterprise or government, 
land management personnel must stretch limited budgets yet be effective 
simultaneously. Labor most often is the most expensive portion of any 
weed management project. It is incumbent upon land managers to use 
methods that minimize labor costs and this is especially so with public 
land managers because they are dependent upon tax dollars to execute 
their programs.
    Using herbicides or biological control agents to decrease the 
population abundance of a target invasive weed represent those 
approaches that utilize the least labor to effect initial/continued 
reduction of targets species. Biocontrol is developed with public funds 
and this is the primary reason that it seems inexpensive to the end 
user, including Federal agencies. Biocontrol is a very attractive and 
highly useful approach to control invasive weed species but success has 
been inconsistent in space and time. There are numerous successful 
biocontrol endeavors and the literature has many examples. The Fire 
Effects Information System Web site managed by USDA-Forest Service is 
one of the best and most complete information sources for the biology 
and management of many invasive weed species (http://www.fs.fed.us/
database/feis/). Another outstanding source of information on managing 
invasive weeds recently became available--Weed Control in Natural Areas 
in too describes where and upon what species biocontrol has been 
successful and extensively outlines all management options. If 
biocontrol is the method of choice, land managers must carefully 
research choices for their effectiveness. The spatial and temporal 
variation associated with biocontrol performance can be due to many 
genetic and environmental reasons from habitat preference by the 
biocontrol agent to the production of new genotypes from previously 
geographically separated genotypes now growing in proximity to one 
another, and many as yet to be discovered reasons.
    Fire too can be a good tool to decrease populations (DiTomaso et 
al. 2006) of some invasive weeds, most notably annual grasses and forbs 
such as cheatgrass (Bromus tectorum) or medusahead (Taeniatherum caput-
medusae) and yellow starthistle (Centaurea solstitialis). As with other 
integrated management systems for weeds, use of fire to manage invasive 
weeds must be integrated with other tools such as seeding to provide 
competition to ward off recovering weed species and allow completion of 
land management goals and objectives. Burning mixed brush-cheatgrass 
stands destroys some to many weed seeds and allows for about one season 
to establish desirable vegetation before cheatgrass re-establishes and 
dominates the site again (Evans and Young 1978; Young and Evans 1978; 
Young 2000). Establishing competitive perennial grass species may 
successfully keep cheatgrass from re-establishing. If, however, the 
system is left alone after burning, cheatgrass or medusahead will re-
invade. Burning stands of yellow starthistle also will provide 
excellent population control if combined with herbicide treatment and 
seeding (DiTomaso et al. 2006b). Burning stands of perennial weeds such 
as Canada thistle, leafy spurge, Russian and other knapweeds, or 
tamarisk rarely is effective because of the plants' capability to re-
grow from its root system and dominate a site again. These and other 
similar invasive weeds may recover soon enough after a prescribed burn 
to preclude establishment of seeded species. If fire is used to control 
perennial forbs or grasses, herbicides likely will have to be 
integrated into the management system to allow sufficient suppression 
of the target weed for a long enough time to give seeded species the 
opportunity to establish.
    Of all the methods used to decrease weed population abundance, 
herbicides are the most researched and arguably the best understood. In 
the course of their development, consistent performance in space and 
time is an extremely important consideration for a product to reach the 
consumer. Because of known performance developed from extensive 
research and the decreased labor associated with their use, herbicides 
often represent the most cost-effective means to use taxpayer dollars 
to decrease invasive weed populations so land restoration or 
rehabilitation may proceed.
    The decision to do nothing seems inexpensive and harmless on the 
surface but nothing could be farther from reality. The problem with 
invasive species is their populations always seem to expand and cause 
harm, albeit, a species can be problematic in one location or setting 
and not another (Beck et al. 2008). Most invasive species and certainly 
invasive weed populations develop in a sigmoid curve pattern and after 
a lag time following introduction, their populations increase 
exponentially until site saturation when their populations are limited 
by resource availability (Figure 1).
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

epsFigure 1.

    The problem is one never knows where on the curve the population at 
any given population lies. Even with cheatgrass, the invaded location/
site might be new and at the bottom of the curve when population 
control is most easily obtained or it could be at beginning of the 
exponential phase but it is difficult at best to make such a 
determination. The best response is to NEVER DO NOTHING because doing 
nothing can be the most expensive decision one can make due to the 
subsequent population growth by the invasive weed and the resulting 
havoc it wreaks upon the native plant community and the animals it 
supports! Doing nothing simply yields the site to the invasive species.
Importance of Prevention, Early Detection and Rapid Response/
        Eradication
    Prevention often is thought of as the most powerful form of weed 
management and indeed, the least expensive weed to control is the one 
that is not present--however, prevention is not free. The perception 
that prevention is simply steps taken to keep stuff out that currently 
does not exist in a particular location is accurate for certain and 
possibly represents the greatest cost savings to taxpayers. Cleaning 
equipment between uses and locations seems a logical prevention 
approach along with using certified weed seed-free hay, forage, mulch 
or gravel, and careful screening of ornamental and agricultural 
introductions can be of tremendous benefit in the battle against 
invasive species. Prevention, however, can be expensive when it 
arbitrarily impedes trade and benefit: risk assessment is an important 
if not an essential component to screening programs so decisions that 
impact trade are transparent, logical, and acceptable.
    Prevention also means decreasing population abundance of existing 
weed infestations so they are not a source for new ones to develop some 
distance--close or far--from the infested site. It is quite appropriate 
to think of extending prevention as a management strategy to efforts 
that decrease target populations in an infestation that is part of a 
project area. In fact, this may be the best ``first light'' under which 
to examine prevention efforts; i.e., how to keep current infestations 
from serving as sources for others. The silo or stovepipe approach to 
any weed management project is dangerous and invasive species 
management always should be thought of as a continuum among the 
strategies and methods used to manage such species. All this must be 
kept in mind because prevention and EDRR are the first lines of defense 
against invasive species.
Economics and Pest Expansion Models Can Help Set Program Priorities
    Almost every person recognizes that it is much simpler to pull a 
single, newly found noxious weed than let it go and try to eradicate 
the large infestation that undoubtedly will occur over time. It is 
puzzling then that people tend to wait because ``that weed is not 
causing me a problem . . . now'' knowing well that it inevitably will 
do so. The sooner an incipient patch of an invasive weed is controlled, 
regardless of proximity to the source, the less expensive it is to 
control, the greater the success will be, and most likely one will have 
eradicated a new or small, dispersed population. Data in Table 1 shows 
the increasing control cost associated with waiting in a hypothetical 
example of a newly found patch of spotted knapweed. The data also 
compare the decision to control manually vs. using an herbicide and 
both include seeding costs.

Table 1.--Cost Comparison of Controlling Spotted or Diffuse Knapweed Physically or Chemically, Demonstrating the
                                Importance of Early Detection and Rapid Response
----------------------------------------------------------------------------------------------------------------
                                              Time for                                 Total cost    Total cost
 Initial patch    Herbicide    Application   handpull or   Handpull or    Seed cost    herbicide +  handpull/dig
     size          cost <SUP>a</SUP>        cost <SUP>a</SUP>         dig <SUP>a</SUP>       dig cost                     seeding      + seeding
----------------------------------------------------------------------------------------------------------------
10 ft\2\ <SUP>b</SUP>           $0.003         $0.20        0.25 h         $3.00            $0         $0.20         $3.00
----------------------------------------------------------------------------------------------------------------
100 ft\2\             $0.03         $0.40         0.5 h         $6.00         $0.46         $0.89         $6.46
----------------------------------------------------------------------------------------------------------------
1 acre                  $14           $20         145 h        $1,742          $200          $218        $1,742
----------------------------------------------------------------------------------------------------------------
10 acres               $140          $200       1,450 h       $17,420        $2,000        $2,340       $19,420
----------------------------------------------------------------------------------------------------------------
100 acres            $1,400        $2,000                                   $20,000       $23,400
----------------------------------------------------------------------------------------------------------------
<SUP>a</SUP> Cost comparisons based upon: Milestone herbicide $300/gal; $20/A application cost; labor $12/h; seed cost $200/
  A.
<SUP>b</SUP> For 10 and 100 ft\2\ initial patch size, application method spot spray; only labor calculated.

    These data clearly show that the decision to wait to respond to a 
new weed infestation can be very costly. Regardless of the method, the 
cost of management increases several thousand times but the cost of 
manual control exceeds the cost of using an herbicide by 800 to 1,500 
percent! This example shows the value of monitoring to find incipient 
invasive weed populations so they can be effectively controlled or 
eradiated at a fraction of the expense compared to waiting for impact 
and havoc to occur. These data also show the dramatic fiscal savings 
associated with using an herbicide compared to handpulling or similar 
manual methods of control. The decisions to act quickly when new or 
small infestations are found and to use an herbicide to affect target 
weed population decrease represent efficient and responsible use of 
taxpayer dollars and the stretching of limited budgets.
    While this example is hypothetical, Tables 2 and 3 present data 
comparing the costs (late 90s) associated with different methods to 
decrease target weed populations on Colorado and Montana rangeland. 
Diffuse knapweed (Centaurea diffusa) was targeted in Colorado where 
handpulling twice annually was compared to mowing three times annually, 
to mowing twice followed by herbicide in fall, to herbicide application 
alone. Control of diffuse knapweed rosettes and bolted plants was best 
1 year after treatments were exerted where a herbicide was used alone 
or in combination with mowing compared to mowing alone or handpulling. 
Herbicides alone were about 1 percent of the total cost of handpulling 
and the latter was completely ineffective.

  Table 2. Cost of Different Control Methods for Diffuse Knapweed on Colorado Rangeland in 1997 and Subsequent
                              Control 1 year After Original Treatments Were Applied
                                            (Sebastian and Beck 1999)
----------------------------------------------------------------------------------------------------------------
                                 Percent       Percent
Treatment         Rate           Control       Control        Hours      Rate/hr or     Cost/acre   Total  cost/
                              rosettes \1\   bolted \1\                   acre \2\                      acre
----------------------------------------------------------------------------------------------------------------
Handpull       2 times/year           0 c           0 d           8.2         $9/Hr        $2,643        $2,643
----------------------------------------------------------------------------------------------------------------
Mow            3 times/year           0 c           0 d           1.6         $50/A          $150          $150
----------------------------------------------------------------------------------------------------------------
Mow +      2 times + 1 pt/A          84 a         100 a     1.1 + 0.4    $50 + 31/A     $100 + 31          $131
 Tordon
----------------------------------------------------------------------------------------------------------------
Mow +        2 times + 1 pt          43 b         100 a     1.1 + 0.4    $50 + 22/A     $100 + 22          $122
 Translin
 e
----------------------------------------------------------------------------------------------------------------
Tordon                 1 pt          74 a          96 b           0.4         $31/A           $31           $31
----------------------------------------------------------------------------------------------------------------
Transline            1.3 pt           8 c         94 bc           0.4         $23/A           $23           $23
----------------------------------------------------------------------------------------------------------------
Banvel +           1 + 2 pt           0 c          89 c           0.4         $22/A           $22           $22
 2,4-D
----------------------------------------------------------------------------------------------------------------
Control                   0             0             0             0             0            $0            $0
----------------------------------------------------------------------------------------------------------------
\1\ Compare means within a column; means followed by the same letter are similar (a=0.05).
\2\ Rates/costs based upon the following: $9/hr labor; mowing $50/A; Tordon $86/gal; Transline $31/gal; Banvel +
  2,4-D $90/gal; $20/acre all ground herbicide applications (each plot 300 ft\2\, 4 reps=1,200 ft\2\ total/
  treatment).

    The second experiment (Table 3) was conducted in Montana on spotted 
knapweed and was similar to the Colorado experiment except biocontrol 
also was evaluated and the treatments were exerted for 2 years and data 
collected shortly (1 to 2 months) thereafter. Handpulling kept 100 
percent of plants from going to seed (bolted plants were targeted for 
pulling), but controlled only about one-half of spotted knapweed 
plants. Herbicides alone kept 93 to 100 percent of plants from going to 
seed and controlled 79 to 100 percent of spotted knapweed plants. 
Mowing in combination with herbicides or handpulling combined with 
herbicide use produced similar results to herbicides alone. Biocontrol 
was ineffective but insufficient time had passed to allow their 
successful establishment much less spotted knapweed population 
decrease. As with the Colorado study, the use of herbicides alone was 
less than 1 percent of the cost associated with handpulling and 
controlled almost twice as much knapweed.
    Both of these experiments show the strong monetary and weed control 
advantages associated with using herbicides to decrease target weed 
populations. All government land managers, regardless of the level of 
government, must demonstrate fiscal responsibility to taxpayers and 
that not only translates into total dollars spent but also what benefit 
or return was realized from the expenditures.

 Table 3. Cost of Different Control Methods Invoked for 2 Consecutive Years for Spotted Knapweed in Montana and
          Subsequent Control 1 Year After Initial Treatments Applied and 1 Month After Final Treatments
                                               (Brown et al. 1999)
----------------------------------------------------------------------------------------------------------------
                                                                         8/4/98 \1\    8/4/98 \1\
                              Plant growth   Application                   percent       percent      Cost/acre
   Treatment        Rate          stage         1997       Dates 1998    decrease in   control of     \2\ for 2
                                                                          flowering      plants         years
----------------------------------------------------------------------------------------------------------------
Handpull              Twice       Early &   6/20 & 7/20        6/20 &         100 a          56 d    $13,900.00
(bolted                          late bud                        7/22
 plants)
----------------------------------------------------------------------------------------------------------------
Tordon +           0.5 pt +          Bolt           6/2         --- &         100 a         98 ab        $97.50
 handpull
(rosettes +            once      late bud                        7/21
 mature)
----------------------------------------------------------------------------------------------------------------
Mow                   Twice       Early &   6/20 &  7/20  6/19 &  7/17         99 a           0 f       $200.00
                                 late bud
----------------------------------------------------------------------------------------------------------------
Mow + Tordon         Once +      Late bud          7/20           ---         100 a         100 a        $75.37
                     0.5 pt          Fall          9/29           ---
                                 regrowth
----------------------------------------------------------------------------------------------------------------
Mow + Curtail        Once +      Late bud          7/16           ---         100 a          93 a        $77.67
                       1 qt          Fall          9/29           ---
                                 regrowth
----------------------------------------------------------------------------------------------------------------
Tordon               0.5 pt          Fall          9/29           ---         100 a         96 ab        $25.37
                                 regrowth
----------------------------------------------------------------------------------------------------------------
Curtail                1 qt          Fall          9/29           ---         100 a          79 c        $27.67
                                 regrowth
----------------------------------------------------------------------------------------------------------------
Tordon                 1 pt       Bolting           6/2           ---          99 a         98 ab        $30.75
----------------------------------------------------------------------------------------------------------------
Curtail                2 qt       Bolting           6/2           ---          93 b          93 b        $35.37
----------------------------------------------------------------------------------------------------------------
Cyphocleonus        30/plot     Flowering          8/27           ---           0 d           0 d        $90.00
achates
----------------------------------------------------------------------------------------------------------------
 Tordon +            0.5 pt          Bolt           6/2           ---          46 c          46 e       $113.58
Cyphocleonus              +
achates             30/plot     Flowering          8/27           ---
----------------------------------------------------------------------------------------------------------------
Untreated                                                                       0 d           0 d         $0.00
----------------------------------------------------------------------------------------------------------------
\1\ Compare means within a column; means followed by the same letter are similar (p=0.05).
\2\ Costs based upon the following: handpulling $9.00/hr; Cyphocleonus achates $1.00/weevil; mowing $50/acre;
  Tordon $86/gal; Curtail $30.70/gal; ground application $20.00/acre.

Control Risks v Harm Caused by Invasive Weeds
    Duncan and Clark (2005) cite numerous examples of the environmental 
and economic impacts caused by invasive weeds. Pimentel et al. (2005) 
calculated that invasive species impact the U.S. economy by more than 
$120 billion annually and $36 billion of this was caused by invasive 
weeds. The problems associated with invasive weeds are very clear and 
very expensive. The harm, real or potential, from invasive species is 
always a much greater risk than the tools used to control any invasive 
taxa but especially invasive weeds. If this was not the case, the 
species in question would not be considered invasive. Invasive species 
alter evolved relationships among organisms that share a habitat or 
ecosystem, which is highly significant biologically, ecologically, and 
economically!
    Herbicides are the most efficacious, most economical, and most 
consistent means of decreasing the population abundance of invasive 
weeds. A common theme is readily apparent when attempting to recover an 
infested habitat; i.e., a land manager must first decrease the 
population of the invasive weed before beginning any seeding operation 
or the latter effort will fail. Other site characteristics also may be 
in need of attention to fully realize restoration and these too should 
be addressed before expecting establishment of seeded species. Many of 
these characteristics could be very expensive to repair and thus, all 
the more reason to use the most economically viable tool to decrease 
invasive weed populations to use taxpayer dollars to the greatest 
extent possible.
    One serious concern about using herbicides to decrease target 
invasive weed populations is their effect on native plants, especially 
native forbs and shrubs. Many people believe that using an herbicide 
that will control invasive weedy forbs will strongly select for grasses 
and eliminate native forbs and shrubs, which are essential components 
of any native plant community. This is in fact not the case and the 
weed research community is developing databases to define the injury to 
native grasses, forbs, and shrubs caused by herbicides used to control 
invasive weeds. Erickson et al. (2006) sprayed Paramount (quinclorac) 
or Plateau (imazapic) directly onto the western fringed prairie orchid 
(Platanthera praeclara) in fall when it was senescing to mimic when 
these herbicides would be used to control leafy spurge (Euphorbia 
esula) and data were collected on orchid survival and fecundity 10 and 
22 months after treatments (MAT) were applied. Neither herbicide 
influenced orchid survival. Plateau decreased orchid height by 43 
percent at 10 MAT but this effect was no longer apparent at 22 MAT. 
Plateau also decreased raceme length by 58 percent and flower number by 
70 percent 22 MAT. Quinclorac, however, had no such effects on the 
orchid and the researchers concluded that it was safe to use Paramount 
to control leafy spurge in the presence of the western fringed prairie 
orchid and while Plateau caused temporary stunting and decreased 
fecundity of the orchid, most of these symptoms disappeared the second 
year following treatment.
    Rice et al. (1997) studied the effects of plant growth regulator 
herbicides (picloram, clopyralid, and clopyralid + 2,4-D) on native 
grasses, forbs, and shrubs applied to control spotted knapweed 
(Centaurea maculosa; C. stoebe) in Montana over an 8-year period at 
four sites. Herbicides were applied once in either spring or fall to 
control spotted knapweed in 1989 and re-treated again in 1992 to 
control the recovering invasive weed. Plant community data were 
collected annually over the 8-year period and compared back to the 
floristic composition of each study site determined before initiation 
of the experiments. Herbicides controlled spotted knapweed very well 
(98-99 percent control) and shifted the plant community to dominance by 
grasses but the depression on plant community diversity was small and 
transient. By the end of the 3rd year after initial treatment, there 
were no differences in species diversity among treatments and some 
herbicide-treated plots began to surpass untreated plots in plant 
community diversity measurements. They also found that late-season 
herbicide application after forbs had entered summer-drought induced 
dormancy minimized the impact on plant community diversity. The effects 
of the pyridine herbicides (picloram and clopyralid) on the native 
plant community diversity were small and temporary and minimal compared 
to the reported impacts caused by spotted knapweed on the plant 
community (Tyser and Key 1988; Tyser 1992).
    University researchers worked with Dow AgroSciences to test a new 
pyridine herbicide, Milestone (aminopyralid), effects on native 
grasses, forbs and shrubs (http://techlinenews.com/
ForbShrubTolerancetoMilestone.pdf) at 14 locations throughout the 
Western United States. Individual tolerance rankings were established 
for 90 native forb and 19 native shrub species to Milestone applied at 
5 or 7 fl oz/acre in spring, late summer, or fall. Of the 90 forb 
species studied in this experiment, 23, 14, 19, and 34 were ranked as 
susceptible (more than 75 percent stand reduction), moderately 
susceptible (51-75 percent stand reduction), moderately tolerant (15-50 
percent stand reduction), and tolerant (less than 15 percent stand 
reduction) 1 year following application. Many of these forbs recovered 
by the end of the second year following application and only 19 of the 
90 forbs were ranked either as moderately susceptible or susceptible at 
that time. Interestingly, shrubs generally were more tolerant of 
Milestone than were forbs. Of the 19 shrubs in the study, 74 percent 
were ranked as moderately tolerant or tolerant 2 years after herbicides 
were applied and Rosaceae shrubs were generally the most susceptible 
species. These data also demonstrate the transitory nature of injury to 
native forbs and shrubs caused by herbicides used to decrease the 
populations of invasive weeds.
    Aminocyclopyrachlor is a new herbicide developed by DuPont and can 
be used to control susceptible invasive weedy forbs and woody species. 
It is a reduced-rate herbicide (typical maximum rate for selective weed 
control is 2 oz active ingredient/acre) that was placed on a fast-track 
registration by U.S.-EPA. An experiment was conducted on a rangeland 
site north of Denver, CO (Sebastian et al. 2011) to assess the 
establishment of native forbs and shrubs after using 
aminocyclopyrachlor (AMCP) to decrease the population abundance of 
Russian knapweed (Acroptilon repens). The herbicide was applied at 0.0, 
0.5, 1.0, and 2.0 a.i./a on May 14, 2009 and 10 native forbs, 4 native 
shrubs, and 2 native, cool-season perennial grass species were drill-
seeded in April 2010 and data were collected in fall 2010. Data for a 
penstemon species, gayfeather (Liatris punctata), and blanketflower 
(Gaillardia pulchella) showed the highest establishment at the highest 
herbicide rate where Russian knapweed control was greatest (Figure 2) 
and the same effect was observed for the average of all forbs; 
blanketflower, however, appeared more susceptible to the herbicide 
residue than did the penstemon species and gayfeather. Shrubs in 
general seemed to be more susceptible than forbs to AMCP soil residues 
(Figure 3). Greatest establishment of all seeded shrubs was realized at 
the 1 oz ai/a rate of AMCP. Louisiana sage (Artemisia ludoviciana) 
established best at the 1 oz rate of AMCP but winterfat 
(Krascheninnikovia lanata) and fourwing saltbush (Atriplex canescens) 
established similarly at the 1 and 2 oz rates of AMCP and all three 
species established better than in plots where the Russian knapweed was 
not controlled. The latter is a key response and our research results 
are very clear regardless of the target species and herbicides used to 
decrease its populations--the target weed species populations must be 
decreased to give seeded species the opportunity to establish or 
failure of the latter will ensue! Overall summary of this experiment 
showed that 50 percent of grasses, 8 percent of forbs, and no shrubs 
established in the untreated controls whereas 100 percent of grasses, 
93 percent of forbs, and 88 percent of shrubs established in plots 
treated with 2 oz ai/a of aminocyclopyrachlor where Russian knapweed 
control was maximized.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    epsA similar studied was conducted at a foothills location west of 
Longmont, CO but on an established plant community (Sebastian et al. 
2012). It is a harshsite with thin topsoils and a very robust native 
plant community that was invaded by Dalmatian toadflax (Linaria 
dalmatica). Aminocyclopyrachlor was applied at 0.0, 0.5, 1.0, and 2.0 
oz ai/a in May 2009 and data were collected in fall 2010. Dalmatian 
toadflax adults were controlled well at 1.0 and 2.0 oz/a (Figures 4 and 
5) but a flush of toadflax seedlings was apparent suggesting that the 
herbicide residue was insufficient to control these germinants (data 
not shown). The mean density of all native forbs (Figure 4) decreased 
22, 18, and 40 percent at the 0.5, 1.0, and 2.0 oz/a AMCP rates, 
respectively. Native shrubs appeared more sensitive to 
Aminocyclopyrachlor than forbs; mean shrub densities decreased 33, 42, 
and 75 percent at the 0.5, 1.0, and 2.0 oz/a rates (Figure 5). Overall, 
native forb richness by species decreased 22-44 percent and shrubs 
decreased 33-75 percent but neither native functional group was 
eliminated by Aminocyclopyrachlor. Warm season grass abundance 
increased 227 percent (data not shown) over the course of the 
experiment likely in response to increased summer precipitation that 
occurred in 2010. The harsh conditions at this site, i.e., thin soils 
and typically dry climatic conditions replaced by abundant summer 
precipitation--appeared to have influenced results and this experiment 
is currently being repeated at three additional sites nearby and we 
will continue to monitor changes at all four sites for at least 4 years 
following herbicide application to detect temporary and permanent 
shifts in the native plant community.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

eps[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    epsContinual monitoring for incipient patches or introductions is 
of critical importance for successful invasive species management. Bear 
in mind that invasive species have earned such declaration and their 
populations almost always increase and often exponentially so. New 
ecological relationships vary drastically from their points of origin--
there are over 20 hypotheses associated with invasion success but they 
all share the common theme that the invasive species populations, 
regardless of species, increase dramatically in new homes. Invasive 
weed populations throughout the United States should be managed 
assertively by all land managers but especially by public land managers 
that are managing large tracts of land for the benefit of the American 
public. Management systems developed to help restore or reclaim 
infested habitats should be effective and efficient and one of the most 
important aspects associated with being effective and efficient is the 
decrease in the population abundance of invasive weeds that must occur 
before seeded species can successfully establish. Herbicides represent 
the most effective and fiscally efficient means to decrease target 
invasive weed populations. Databases are under development that 
carefully define the injury to native grasses, forbs, and shrubs caused 
by herbicides used to control invasive weeds to provide all land 
managers with the appropriate information to design ecologically-based, 
IPM systems that include herbicides yet allow recovery of productive 
native plant communities so land management goals and objectives can be 
realized.
                            literature cited
    Beck, K. George, Kenneth Zimmerman, Jeffrey D. Schardt, Jeffrey 
Stone, Ronald, R. Lukens, Sarah Reichard, John Randall, Allegra A. 
Cangelosi, and John Peter Thompson. 2008. Invasive Species Defined in a 
Policy Context: Recommendations from the Federal Invasive Species 
Advisory Committee. Invasive Plant Science and Management 1:414-421.
    Brown, Melissa L., Celestine A. Duncan, and Mary B. Halstvedt. 
1999. Spotted knapweed management with integrated methods. Proc. Wes. 
Soc. Weed Sci. 52:68-70.
    DiTomaso, J. M., G. B. Kyser, J. R. Miller, S. Garcia, R. F. Smith, 
G. Nader, J. M. Connor, and S. B. Orloff. 2006b. Integrating prescribed 
burning and clopyralid for the management of yellow starthistle 
(Centaurea solstitialis). Weed Sci. 54:757-767.
    DiTomaso, Joseph M., Matthew L. Brooks, Edith B. Allen, Ralph 
Minnich, Peter M. Rice, and Guy B. Kyser. 2006. Control of invasive 
weeds with prescribed burning. Weed Technol. 20:535-548.
    DiTomaso, J.M., G.B. Kyser, S.R. Oneto, R.G. Wilson, S.B. Orloff, 
L.W. Anderson, S.D. Wright, J.A. Roncoroni, T.L. Miller, T.S. Prather, 
C. Ransom, K.G. Beck, C. Duncan, K. A. Wilson, and J.J. Mann. 2013. 
Weed Control in Natural Areas in the Western United States. Weed 
Research and Information Center, University of California. 544 pp. IBSN 
978-0-692-01922-1.
    Duncan, Celestine L. and Janet K. Clark, eds. Invasive Plants of 
Range and Wildlands and Their Environmental, Economic, and Societal 
Impacts. 2005. Weed Science Society of America, Lawrence, KS. 222 pp.
    Erickson, Ann M., Rodney G. Lym, and Don Kirby. 2006. Effect of 
herbicides for leafy spurge control on the Western Prairie Fringed 
Orchid. Rangeland Ecol. Manage. 59:462-467.
    Evans, Raymond A. and James A. Young. 1978. Effectiveness of 
rehabilitation practices following wildfire in a degraded big 
sagebrush-downy brome community. Journal of Range Management. 31(3): 
185-188.
    Pimental, David, Rodolfo Zuniga, and Doug Morrison. 2005. Update on 
the environmental and economic costs associated with alien-invasive 
species in the United States. Ecol. Econ. 52:273-288.
    http://techlinenews.com/ForbShrubTolerancetoMilestone.pdf.
    Rice, Peter M., J. Christopher Toney, Donald J. Bedunah, and 
Clinton E. Carlson. 1997. Plant community diversity and growth form 
response to herbicide applications for control of Centaurea maculosa. 
J. App. Ecol. 34:1397-1412.
    Sebastian, James R. and K. George Beck. 1999. The influence of 
various control methods on diffuse knapweed on Colorado rangeland. 
Proc. Wes. Soc. Weed Sci. 52:41-43.
    Sebastian, James R., K. George Beck, Scott Nissen, Derek Sebastian, 
and Sam Rodgers. 2011. Native species establishment on Russian knapweed 
infested rangeland following pre-plant herbicide applications. Proc. 
Wes. Soc. Weed Sci. 64:16-17.
    Sebastian, James R., George Beck, and Derek Sebastian. 2012. Using 
aminocyclopyrachlor to control Dalmatian toadflax and promote native 
plant community recovery and diversity. Proc. Wes. Soc. Weed Sci. 
65:51-52.
    Tyser, R.W. 1992. Vegetation associated with two alien plant 
species in a fescue grassland in Glacier National Park, Montana. Great 
Basin Naturalist 52:189-193.
    Tyser, R.W. and C.W. Key. 1988. Spotted knapweed in natural area 
fescue grasslands: an ecological assessment. Northwest Science 62:151-
160.
    Young, James A.; Evans, Raymond A. 1978. Population dynamics after 
wildfires in sagebrush grasslands. Journal of Range Management. 31(4): 
283-289.
    Young, Jim. 2000. Bromus tectorum L. In: Bossard, Carla C.; 
Randall, John M.; Hoshovsky, Marc C., eds. Invasive plants of 
California's wildlands. Berkeley, CA: University of California Press: 
76-80.
                                 ______
                                 
        Questions Submitted for the Record to Dr. K. George Beck
    Question. Please share some examples of plants and plant pests that 
move in interstate and foreign commerce that have become problems for 
State inspection, quarantine, agriculture, and natural resource 
authorities.
    Answer. Arunda donax; common name giant reed; imported as an 
ornamental in many U.S. States and now being considered for biofuel 
production.
    Pennisetum setaceu; fountain grass; imported as an ornamental and 
now one of Hawaii's most damaging invasive plant species.
    Imperata cylindrica; cogongrass; used as packing material and 
imported for forage and erosion control. Now an aggressive invasive 
species problem in the Southern and Eastern United States as far north 
as Michigan.
    Anoplophora glabripennis; Asian longhorned beetle; accidentally 
introduced in wood packing materials; destructive wood boring pest 
expanding its range in the United States.
    Agrilus planipennis; emerald ash borer; arrived accidentally in 
cargo from Asia; first discovered in Michigan in 2002 and since spread 
to 17 other States in upper Midwest and Northeast.
    Lythrum salicaria; purple loosestrife; introduced as an ornamental 
but now prohibited in most States. Considered by some to be the poster 
child for invasive species.
    Sturnus vulgaris; European starlings; introduced into New York 
1890s and have since spread across continental United States and may 
even be helping to spread other invasive species such as Russian olive 
(Elaeagnus angustifolia).
    Question. What are some examples of associated costs to States for 
invasive species that have arrived via interstate and foreign commerce 
and then become established in States?
    Answer. Emerald ash borer in Ohio projected costs for landscape 
value losses, tree removal and replacement range from $1.8 to $7.6 
billion (in Ohio alone) (Sydnor et al. 2007). Data from nine U.S. 
cities (Atlanta, GA; Baltimore, MD; Boston, MA; Chicago, IL; Jersey 
City, NJ; New York, NY; Oakland, CA; Philadelphia, PA; and Syracuse, 
NY) indicates maximum economic impact potential of losing 1.2 billion 
trees from attack by Asian longhorned beetle is $669 billion. Estimates 
were based upon losses accrued to date. (Nowak et al. 2001). Economic 
impact by purple loosestrife in 19 Eastern and Northcentral States was 
estimated to be $229 million annually because of decreased value of 
wetlands, hay and pasture, fur harvest, migratory bird hunting, and 
wildlife observation and photography. (Duncan et al. 2004).
    Question. What limitations and opportunities are there for State 
agriculture and natural resource authorities to guard against new pest 
introductions at borders and other entry points?
    Answer. States are limited by authority when managing pathways of 
invasive species introductions, particularly those pathways that 
involve foreign commerce. The Federal Government (Homeland Security/
Customs and Borders and USDA-APHIS) possess the authority to inspect 
cargo/shipments for the occurrence of invasive species whereas States 
do not have this authority. Therefore, States are limited by Federal 
involvement and further limited by the inadequacy of Federal 
involvement. Documentation in this questionnaire indicates that Hawaii 
State inspectors intercepted numerous (16 pages of reports) incidences 
of ants in cargo between 2002-2013 whereas Federal agents did not 
intercept a single case over that same period.
    An opportunity exists to use funding made available to States 
through the proposed Healthy Habitats Coalition (HHC) legislation that 
would redirect $200 million annually to all 50 States and territories 
for invasive species management. In our legislation, prevention is part 
of management including management of introduction pathways (e.g. 
intercepting invasive species unintentionally included in cargo). It is 
critically important to manage introduction pathways but this must be 
balanced with managing existing problems so the latter do not continue 
to serve as sources to disperse to new locations. States like Hawaii 
could form a partnership with Federal authorities and use some of the 
funds provided through HHC's proposed legislation allowing State and 
Federal personnel to work together cooperatively to dramatically 
enhance inspections at ports of entry.
    Question. Are there opportunities and limitations on the ability of 
Federal and State agriculture inspection and natural resource 
authorities to share real time data at ports of entry on potential 
high-risk pests, products and pathways moving between and into States?
    Answer. There apparently is a fundamental problem with 
communication among levels of government concerning inspection of cargo 
at ports of entry and the reporting of intercepted invasive species. 
The preamble that accompanied these questions implies that Federal and 
State personnel that inspect cargo do not communicate their findings 
and this is a clear limitation. Whether the Federal Government has the 
sole authority to intercept and hold cargo that harbors invasive 
species is irrelevant if the intercepted problem is not reported to 
appropriate States (and appropriate entities within any State). It 
would be a fairly simple chore to create a communication network among 
State and Federal authorities at ports of entry and then to appropriate 
natural resource authorities in a State using smart phones and other 
computer technology that enhances simultaneous and instant 
communication. This is a human problem that can be corrected by 
stimulating cooperation.
     The opportunity to overcome this apparent problem resides in the 
proposed Healthy Habitats Coalition legislation. Re-directed funds to a 
State could be used to create a communication network among Federal and 
State authorities such that information on tainted cargo could be 
shared immediately via this network so State authorities can maintain a 
watch on susceptible habitats for the occurrence of the new interloper. 
Additionally, Federal port of inspection authorities can apply for 
funds re-directed to States so to augment their efforts at ports of 
entry, which is yet another route that can be exploited to improve 
interception of high-risk or other invasive species.
    Question. Please provide examples, opportunities and limitations to 
Federal and State agriculture inspection and natural resource 
authorities engaging in real-time sharing of information and even being 
co-located at ports of entry.
    Answer. I am not aware of any examples of Federal and State 
inspectors engaging in real-time sharing of information or being co-
located at ports of entry. The problem seems obvious and relatively 
easy to cure by taking advantage of language in the Healthy Habitats 
Coalition proposed invasive species legislation that encourages 
partnerships between State and local governments to manage invasive 
species including preventing new species from arriving in our country. 
Invasive species is a borderless issue because only humans respect 
political boundaries so it seems most logical to create a borderless 
approach to resolving importation of new invasive species by forming 
partnerships between Federal and State governments so each body is 
helping the other do the job of preventing new species from 
establishing in our country . . . State by State. MOUs and Cooperative 
Agreements are required in our proposed legislation to carefully spell 
out roles and responsibilities of all parties involved in the venture 
and re-directed funds to States will help stimulate such partnerships.
    Question. What are some examples of impacts to invasive species 
control anticipated due to reductions in Federal funds made available 
through the U.S. Forest Service's State and Private Forest Health 
Program?
    Answer. There should be no impacts to invasive species control 
programs regardless of funding cuts to the State and Private Forest 
Health Program. Invasive species tend to be a competing interest for 
some decision makers and HHC's proposed legislation to create a 
borderless and gap-free invasive species management program throughout 
all 50 States and U.S. territories will solve this apparent problem. 
States will have greater opportunity for shared responsibility to 
manage invasive species and the ability of Federal agencies to be more 
directly involved with States will stimulate Federal decision makers to 
prioritize invasive species management over other competing priorities 
because of funding made available through HHC's legislation.
    Question. Can there be opportunities to utilize funds from the 
State and Private Forest Health Program to control ungulates that 
impact forest health?
    Answer. I am not certain whether State and Private Forest Health 
funds could be used to control ungulates that damage forests but the 
funds associated with HHC's proposed legislation certainly could be 
used for that purpose. Our proposed legislation clearly places the 
Governor of each State in charge of that State's invasive species 
program and the desire to manage feral goats, hogs, or any other 
species that damage forests or any other habitat is a decision that 
will be made at the State level. Our legislation also will stimulate 
improved Federal agency cooperation and coordination with States as 
they will prepare a strategic plan for their invasive species 
management responsibilities in any State or region. They also will have 
to demonstrate measurable outcomes associated with the use of public 
money.
    Question. Different regions across the Nation face different 
invasive species challenges due to factors such as climate, elevation, 
etc.; this is particularly the case for the tropical, isolated, island 
State of Hawaii. Biocontrol development for the highest priority pests 
nationally is not likely to benefit the unique challenges faced by 
individual regions. Are there any examples of efforts to account for 
the unique conditions of various regions in developing biocontrol 
priorities?
    Answer. USDA-ARS is the primary agency charged with developing 
biocontrol for the United States and ARS has installations throughout 
our country and almost all States, including Hawaii, have such 
installations. I have had the opportunity to evaluate ARS invasive 
species programs on several occasions as an ad hoc reviewer and member 
of evaluation teams and it was quite clear that their charge is to 
interact locally to help resolve local issues. Perhaps all that is 
necessary is to meet with ARS scientists to explain the control/
management--biocontrol in particular--needs for the specific invasive 
species problems in Hawaii.
    USDA-Forest Service also has a substantial research group and 
agenda including developing biocontrol around local needs. This may be 
yet another opportunity to meet with Forest Service scientists to 
acquire their expertise to help on this important issue for Hawaii. 
Again, jointly prioritizing issues and working across agencies and 
States will lead to a shared effort with better outcome.
    Question. The Hawaii Invasive Species Council was modeled after the 
National Invasive Species Council (NISC) to recognize the importance of 
cabinet-level leadership and interagency coordination, planning, and 
prioritization in effectively addressing invasive species. A Hawaii 
representative from the State Department of Agriculture also serves on 
the national Invasive Species Advisory Committee (ISAC). When was the 
last time Council members of NISC or ISAC met and how often do they 
meet to fulfill the intent of Executive Order 13112 and support 
improved Federal, State, and regional coordination?
    Answer. I served on ISAC for 6 years (2002-2008) including serving 
as vice-chair and chair of the committee. Once during that time, 
Secretary of Interior Norton visited with ISAC during a scheduled 
meeting and no other cabinet-level members ever visited with ISAC from 
2002-2008. Clearly, this was one of my deepest concerns while serving 
on ISAC, i.e., a lack of strong leadership for the Federal agencies and 
it seems that this deficiency stood in the way of getting agencies to 
cooperate and work together to create a borderless, gap-free approach 
to managing invasive species. In fact, the opposite seems to remain the 
case today--agencies work in isolation and have a piecemeal approach to 
resolving the invasive species issue in our country. NISC staff worked 
diligently to breakdown barriers to agency cooperation during my term 
on ISAC but they had no authority to foster such cooperation. The three 
NISC co-chairs should not only meet regularly to develop a coordinated 
and cooperative approach to managing invasive species within the 
Federal system, their leadership to foster the same strategy to 
coordinate Federal, State, and local government efforts with private 
landowners and land mangers is absolutely necessary to demonstrate the 
necessity to effectively contend with this insidious issue.
    I cannot comment as to when, if ever, one or more of the NISC 
cabinet-level co-chairs attended an ISAC meeting or engaged with the 
advisory committee since 2008, much less provide strong directives to 
agencies so they coordinate and cooperate with State and local 
governments and private landowners to effectively manage invasive 
species across the United States.
    HHC's proposed legislation will stimulate greater leadership from 
the co-chairs because at least one of the Secretaries will be leading 
the funds re-direction effort to States and evaluate Federal agency 
overall progress on this issue as well. While the NISC/ISAC concept 
seems plausible, given the lack of authority, insufficient leadership, 
and annual cost, one must ask what is the actual benefit for the effort 
to manage invasive species.
                            literature cited
    Duncan, Celestine A., John J. Jachetta, Melissa L. Brown, Vanelle 
F. Carrithers, Janet K. Clark, Joseph M. DiTomaso, Rodney G. Lym, Kirk 
C. McDaniel, Mark J. Renz, and Peter M. Rice. 2004. Assessing the 
Economic, Environmental, and Societal Losses from Invasive Plants on 
Rangeland and Wildlands. Weed Technology 18:1411-1416).
    Nowak, David J., Judith E. Pasek, Ronaldo A. Sequeira, Daniel E. 
Crane, and Victor C. Mastro. 2001. Potential Effect of Anoplophora 
glabripennis (Coleoptera: Cerambycidae) on Urban Trees in the United 
States. J. Economic Entomology 94(1): 116-122.)
    Sydnor, T.Davis, Matthew Bumgardner, and Andrew Todd. 2007. The 
Potential Economic Impacts of Emerald Ash Borer (Agrilus planipennis) 
on Ohio, U.S., Communities. Arboriculture & Urban Forestry 2007. 
33(1):48-54.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate your testimony.
    We will now turn to Mr. Dye, who is representing the State 
Foresters.
    Mr. Dye?

   STATEMENT OF RANDY C. DYE, WEST VIRGINIA STATE FORESTER, 
       PRESIDENT, NATIONAL ASSOCIATION OF STATE FORESTERS

    Mr. Dye. Thank you, Chairman Bishop, Ranking Member 
Horsford, and members of the Committee. Thank you for the 
opportunity to appear here today on behalf of the National 
Association of State Foresters.
    Programs delivered by State forestry agencies are on the 
front lines of eradicating, slowing the spread, and addressing 
the enormous collateral damage of invasive species. My comments 
this morning highlight recommendations for the 2012 farm bill 
endorsed by State Foresters that support the conservation and 
management of the Nation's forests.
    Invasive species know no boundaries. They span landscapes, 
land ownerships, and jurisdictions. Their consequence costs the 
American public an estimated $138 billion each year and, 
therefore, are a significant drain on the national economy. The 
Federal Government has a direct authority to manage over 200 
million acres of national forest, parks, and grasslands, many 
of which harbor invasive species. It also has the authority to 
provide technical and financial assistance for all the Nation's 
731 million acres of forest land, including urban, State, 
private, and tribal lands.
    In 1999, Executive Order 13112 established the National 
Invasive Species Council, chaired by the Secretaries of 
Interior, Agriculture, and Commerce, and includes six other 
Federal agencies. This Committee was charged with providing 
coordination, planning, and overall leadership for the Federal 
invasive species program and reaching out to States, tribal, 
local, and private partners. Coordination is not only critical 
between agencies of the Federal Government, but also with State 
and local entities. Recent efforts to create national 
management framework have helped coordinate U.S. Forest 
Service, APHIS, NASF, and the National Plant Board and their 
missions, expertise, and available resources, to effectively 
respond to three priority invasive species: Sudden Oak Death; 
Emerald Ash Borer, and Thousand Cankers Disease.
    NASF recommends the following strategies to be considered 
in any comprehensive invasive species legislation. Number one, 
Federal agencies such as APHIS should coordinate with 
appropriate State agencies, as well as their traditional State 
agricultural agency partners, in addressing forest invasive 
pests. State agencies should be provided the option to have a 
lead role in deciding what programs, regulations, and 
initiatives are needed and best suited to protect forest 
resources within their respective States. In most cases, State 
agencies have better knowledge and contacts with local 
stakeholders and community-based organizations at the Federal 
level.
    Number two, where Federal forests dominate ownership at a 
local or regional level, Federal agencies should partner 
strategically with State forestry agencies to minimize the 
potential of spread between adjoining private or State forest 
land, and identify opportunities for cost-effective treatment.
    Support efforts to enhance forest-invasive species 
response, management, and restoration in areas and communities 
that have been impacted by harmful, non-native forest insects 
and disease. Development of procedures that resolve 
jurisdictional and other disputes in an effort to improve 
coordination of Federal agencies, as well as Federal and State 
agencies.
    Increase research capacity in efforts to quickly assess 
impacts of potential invasive species. Identify tests and 
deploy bio-control agents. Develop management tools for 
mitigation and suppression and genetic and breeding programs 
designed to enhance resistance of high-priority tree species.
    I thank you for the opportunity to testify here today, and 
stand ready to answer any questions or provide any further 
information. Thank you.
    [The prepared statement of Mr. Dye follows:]
   Prepared Statement of Randy C. Dye, West Virginia State Forester, 
           President, National Association of State Foresters
    On behalf of the National Association of State Foresters, I thank 
Chairman Bishop and Ranking Member Grijalva for the opportunity to 
appear before the Subcommittee today. The National Association of State 
Foresters (NASF) represents the directors of the State forestry 
agencies of all 50 States, 8 territories, and the District of Columbia. 
State Foresters manage and protect State and private forests across the 
United States., which make up two-thirds of the Nation's forests, and 
work closely with our Federal partners to respond to invasive species 
issues.
    The impacts of invasive forest insect and disease species on our 
Nation's forests have become an increasing concern for the National 
Association of State Foresters (NASF). NASF's programs and stewardship 
actions are on the front lines of eradicating, slowing the spread, and 
addressing the enormous collateral damage of invasive species.
    Forested landscapes cover approximately one-third of the total land 
area of the United States, including 100 million acres in urban 
environments. Every American benefits from forests, whether in the form 
of wood products for construction or paper, neighborhood amenities, 
wildlife habitat, carbon sequestration, clean water and air, and even 
our spiritual well-being. Many Americans' jobs are linked to trees. The 
U.S. forest products industry employs nearly 900,000 people; it is 
among the top 10 manufacturing sector employers in 47 States. Jobs 
associated with production of non-wood forest products are estimated to 
be in the tens of thousands.
    Invasive species know no boundaries; they span landscapes, land 
ownerships, and jurisdictions. The damage they cause costs the American 
public an estimated $138 billion each year, which makes them a 
significant drain on the national economy.

     Private landowners and small communities are some of the hardest 
hit by invasive species infestations.
     Invasive species can be exceptionally damaging in urban 
environments where ecological systems are already stressed. Invasive 
species threaten the quality of life and the property values of 
millions of metropolitan residents across the country.
     Currently, 42 percent--400 of 958--of the plant and animal species 
listed by the Federal Government as threatened or endangered have been 
negatively affected by invasive species.
     Invasive species populations have depleted water supplies, 
poisoned wildlife and livestock, and directly impacted thousands of 
acres of native forests and rangelands.
     Public recreational opportunities and experiences have become 
severely degraded by rapid infestations of invasive species, in many 
cases hampering access, reducing recreational quality and enjoyment, 
and decreasing the aesthetic values of public lands

    Some of the most damaging Invasive species include Asian Long-
horned Beetle, Emerald Ash Borer, Gypsy Moth, Sudden Oak Death, Hemlock 
Woolly Adelgid, and Cogon grass. Municipal governments across the 
country are spending more than $1.7 billion each year to remove trees 
on city property killed by these pests. Homeowners are spending $1 
billion to remove and replace trees on their property and they are 
absorbing an additional $1.5 billion in reduced property values. The 
scope of the impacts of these pests is demonstrated by a brief 
description of the threats they pose:

     The Asian Longhorned Beetle kills trees in 15 botanical families--
especially maple and birch which constitute much of the forest reaching 
from Maine to Minnesota and urban trees worth an estimated $600 
billion.
     Emerald Ash Borer occupies more than 200,000 square miles in 18 
States. More than 200 million ash trees in the Plains States and 
additional trees in the South are at risk to this pest. Homeowners and 
municipalities collectively will pay more than $10 billion over the 
next 10 years to remove dead ash trees that would otherwise fall and 
could cause property damage or even loss of life.
     Hemlock Woolly Adelgid has killed up to 90 percent of hemlock 
trees in the Appalachians from Georgia to Massachusetts. Loss of 
hemlock groves threatens unique ecosystems and watersheds.
     Goldspotted Oak Borer has killed up to 80,000 California live oak 
and black oak trees in San Diego County in less than 15 years. The 
insect threatens oaks throughout California, including close to 300,000 
oak trees growing in greater Los Angeles and Yosemite Valley.
     Sudden Oak Death affects 143 different plant species and continues 
to spread in California's 14 impacted counties as well as Curry County, 
Oregon. In 2012 alone, nearly 400,000 trees were lost to Sudden Oak 
Death in California.

    The Federal Government has several unique characteristics that 
compel it to play a primary role in the fight against invasive species. 
It has the direct authority to manage over 200 million acres of 
national parks, forests and grasslands, many of which harbor 
infestations of invasive species. It also has the authority to provide 
technical and financial assistance (primarily for insect, disease, and 
invasive plant suppression) for all the Nation's 731 million acres of 
forest lands, including urban, State, private, and tribal lands.
    In 1999, Executive Order (EO) 13112 established the National 
Invasive Species Council (NISC), co-chaired by the Secretaries of the 
Interior, Agriculture, and Commerce. NISC members include the 
Secretaries of Transportation, State, Defense, Homeland Security, 
Treasury, and Health and Human Services; the Administrators of the 
Environmental Protection Agency and the National Aeronautics and Space 
Administration; as well as the Director of the U.S. Agency for 
International Development and the U.S. Trade Representative. NISC was 
charged with providing coordination, planning and overall leadership 
for Federal invasive species programs and reaching out to State, 
tribal, local and private partners.
    Coordination is not only critical between agencies of the Federal 
Government, but also with State and local entities. Recent efforts to 
create national management frameworks have helped coordinate U.S. 
Forest Service (USFS), Animal Plant health Inspection Service (APHIS), 
National Association of State Foresters (NASF), National Plant Board 
(NPB), and their missions, expertise and available resources to 
effectively respond to three priority invasive species threats: Sudden 
Oak Death, Emerald Ash Borer, and Thousand Canker Disease.
    Actions at the local level are also critical. I'd like to highlight 
some efforts in my home State of West Virginia. The Potomac Highlands 
Cooperative Weed and Pest Management Area (CWPMA) is a partnership 
between Federal, State, and local agencies, community associations, 
non-profit organizations, and private land owners aimed at coordinating 
efforts and programs for addressing the threat of invasive species. The 
mission of Potomac Highlands CWPMA is the prevention and management of 
invasive species in the headwaters region of the South Branch of the 
Potomac River in West Virginia and Virginia. They are dedicated to 
decreasing the impacts of invasive species on native plant and animal 
communities, public and private forests, private and agricultural 
lands, and local economies through public awareness, education, 
professional improvement and environmental awareness. Projects include 
volunteer work days, landowner education, and youth events at schools.
    Other efforts like those in Georgia are essential in the fight 
against invasive species such as Cogon grass. The Georgia ``Cogon grass 
Task Force'' has provided training to resource professionals throughout 
the State, and its educational campaign continues to help landowners 
identify and remove the plant. The Georgia Forestry Commission 
spearheaded an effort to bring a total of 23 State, Federal and private 
partners to establish the entire State of Georgia as a Cooperative Weed 
Management Area for Cogon grass in May 2008. The combined effort of 
this group should have far reaching impacts to help educate the public 
about Cogon grass as well as help locate all infested sites.
    Legislation and program implementation is needed to increase the 
Nation's current protection system for invasive species, which is 
currently piecemeal and lacks adequate rigor and comprehensiveness, 
virtually ensuring that invasive species will continue to arrive and 
spread. Federal Government involvement with States is critical as 
specific Federal legislation (e.g. interstate commerce, plant 
protection) limit certain State actions. A successful forest invasive 
species prevention and control program must address the complexity and 
wide-ranging agency and community needs at the regional, State, and 
local level. The National Association of State Foresters believes that:

     Federal agencies (e.g., USDA Animal and Plant Health Inspection 
Service) should coordinate with appropriate State agencies as well as 
their traditional State agricultural agency partners in addressing 
forest invasive pests. If desired, State agencies should be provided 
the option to have a lead role in deciding what programs, regulations 
and initiatives are needed and best suited to protect forest resources 
within their respective States. In most cases State agencies have 
better knowledge and contacts with local stakeholders and community-
based organizations that have developed tactics and programs to combat 
invasive species at the local level (e.g., county representatives, 
utilities).
     Where Federal forests dominate ownership at a local or regional 
level, Federal agencies should partner strategically with State 
forestry agencies to minimize the spread of invasives between adjoining 
private or State forest land and identify opportunities for cost-
effective treatment.
     A Federal program should include initiatives that are non-
regulatory and incentive driven, support and build capacity at the 
State, regional, and community level, and encourage voluntary 
cooperation of affected private entities and communities.
     Investments to support local, State, and regional partnerships, 
which are prepared to take immediate action against known priority 
invasive species, will provide valuable lessons for others and promote 
innovations and efficiencies in protection and public outreach 
strategies. By sharing their progress, these partnerships will, in 
turn, help identify the policy and legal obstacles to success as well 
as build a constituency for more effective invasive species prevention 
and control programs in other areas.

    NASF recommends the following strategies to be considered in any 
comprehensive invasive species legislation:
     Establishment of a State-level rapid response capacity that can 
quickly eradicate priority forest invasive species.
     Non-regulatory and incentive-driven national programs, with 
specific focus on encouraging voluntary cooperation.
     Adoption and enforcement of workable national regulatory programs 
to address key pathways such as firewood movement where non-regulatory 
approaches are not in place, effective or, simply, to serve as a 
``backstop'' for those voluntary approaches.
     Support efforts to enhance forest invasive species response, 
management and restoration in areas and communities that have been 
impacted by harmful non-native forest insects and diseases.
     Development of procedures that resolve jurisdictional and other 
disputes in an effort to improve coordination of Federal agencies, and 
between Federal and State agencies. A network of partners is needed 
with agreed upon authorities, responsibilities, and roles.
     Increase research capacity in efforts to quickly assess impacts of 
potential invasive species; identify, test, and deploy bio-control 
agents, develop management tools for mitigation and suppression, and 
genetic and breeding programs designed to enhance resistance of high 
priority tree species; and
     An increased percentage of funds delegated to the States and their 
cooperating entities. In most cases, State agencies have better 
knowledge and contacts with local stakeholders and community-based 
organizations.

    I appreciate the opportunity to appear before the Subcommittee 
today to offer perspectives shared by State foresters regarding the 
impacts of invasive species on the Nation's forests. I would like to 
thank the Subcommittee for its continued leadership and support of 
active, sustainable management of all forest lands.
                                 ______
                                 
           Questions Submitted for the Record to Randy C. Dye
    Question. Please share some examples of plants and plant pests that 
move in interstate and foreign commerce that have become problems for 
State inspection, quarantine, agriculture and natural resource 
authorities.
    Answer. There are numerous examples of high priority pests arriving 
via foreign commerce through airport and harbor hubs. Wooden pallets, 
used in transporting goods have been especially problematic in 
introducing wood borer insects (e.g. Asian Long-horned Beetle, Emerald 
Ash Borer). These pests are now being spread through a variety of local 
pathways, with firewood as a major vector. The National Association of 
State Foresters (NASF) has encouraged the U.S. Department of 
Agriculture (USDA) to move expeditiously to provide a standardized 
treatment and certification procedure for the interstate movement of 
all firewood. The firewood industry is largely unregulated, with little 
or no national regulatory guidelines outside of pest-specific 
quarantine areas and states. This lack of Federal regulation has led 
many States to seek or pass their own firewood regulations for specific 
pests.
    Cogon grass, a noxious weed infesting pastures and forests first 
appeared in Alabama as an escape from orange crate packing in 1912. It 
was intentionally introduced from the Philippines into Mississippi as a 
possible forage in 1921 and then introduced into Florida in the 1930s 
and 1940s as a potential forage and for soil stabilization purposes. It 
now extends as far north as South Carolina and west to Texas.
    The devastating example of the Brown Tree Snake, introduced to Guam 
during military operations in WWII in Guam is internationally known. 
Accidental introductions of Brown Tree Snakes continue to threaten 
Hawaii, and if established would result in major economic and 
environmental damage.
    Question. What are some examples of the associated costs to States 
for invasive species that have arrived via interstate and foreign 
commerce and then become established in States?
    Answer. The Asian Long-horned Beetle kills trees in 15 botanical 
families--especially maples and birches which constitute much of the 
forest reaching from Maine to Minnesota and urban trees worth an 
estimated $600 billion. Emerald Ash Borer occupies more than 200,000 
square miles in 18 States. More than 200 million ash trees in the 
Plains States and additional trees in the South are at risk to this 
pest. Homeowners and municipalities collectively will pay more than $10 
billion over the next 10 years to remove dead ash trees that would 
otherwise fall and cause property damage or even loss of life.
    Question. What limitations and opportunities are there for State 
agriculture and natural resource authorities to guard against new pest 
introductions at borders and other entry points?
    Answer. Budget reductions are a key limitation, especially State 
agency capacities due to lay-offs and attrition. New State findings of 
invasive species bring about additional duties with no or diminished 
response resources. Federal sequester cuts present additional 
limitations.
    The opportunities for State agriculture and natural resource 
authorities to guard against new pest introductions at borders and 
other entry points are based on the degree that there is: (1) 
Coordination among Federal agencies; (2) communication with relevant 
State agencies; and (3) public leadership roles in identifying and 
committing to action.
    Coordination and information sharing between Federal and State 
inspection agencies can be improved by: (1) Sharing of import manifests 
and interception data between Federal (USDA and Border Patrol) and 
State regulatory agencies and (2) promoting and committing to joint 
inspection facilities for cargo at airports and harbors.
    In certain cases, States are hampered in their ability to 
effectively address State-specific invasive species threats due to 
Federal laws (i.e. U.S. Commerce Clause and Plant Protection Act). 
These laws deal with the Federal preemption, where States cannot 
establish regulations stricter than existing Federal statutes. For 
examples Federal preemption limits a State's ability to establish rules 
on incoming plants and animals, prevent species that are not on a 
Federal actionable list, and receive notification from Federal 
inspection agencies.
    Under section 436 of the Plant Protection Act, which is 
administered by the Animal and Plant Health Inspection Service (APHIS) 
no State may regulate the movement in interstate commerce of any plant 
product in order (1) to control a plant pest (2) to eradicate a plant 
pest; or (3) to prevent the introduction or dissemination of a plant 
pest. The only exceptions to this prohibition are when a State imposes 
regulations which are consistent with and do not exceed the regulations 
or orders issued by the Secretary of Agriculture, or when the State 
demonstrates to the Secretary, and the Secretary finds, that there is a 
special need for additional prohibitions or restrictions based on sound 
scientific data or a thorough risk assessment.
    Question. Are there opportunities and limitations on the ability of 
Federal and State agriculture inspection and natural resource 
authorities to share real time data at ports of entry on potential 
high-risk pests, products and pathways moving between and into States?
    Answer. The opportunity to build joint inspection facilities at 
both airports and harbors represents the most cost effective approach 
to increase the capacity of Federal and State agriculture inspection 
and natural resource authorities to share real time data at ports of 
entry on potential high-risk pests, products and pathways moving 
between and into States
    One limitation is that even though airports pose a serious 
biosecurity risk through the movement of passengers and cargo, the FAA 
does not recognize inspections as a core airport function, and there is 
no responsibility for mitigation or requirements to provide inspection 
space and support.
    Question. Please provide examples, opportunities and limitations 
related to Federal and State agriculture inspection and natural 
resource authorities engaging in real-time sharing of information and 
even being co-located at ports of entry.
    Answer. A joint inspection facility was constructed at Kahalui 
Airport on the island of Maui, Hawaii. A joint facility is being 
planned for the Honolulu airport as part of a public/private 
partnership. Cargo services have found that joint inspection facilities 
have reduced the time of inspection as well as costs incurred from 
spoilage of fresh produce.
    Question. What are some examples of impacts to invasive species 
control anticipated due to reductions in Federal funds made available 
through the U.S. Forest Service's State and Private Forest Health 
Program?
    Answer. Reductions in Federal funds made available through the U.S. 
Forest Service's State and Private Forest Health Program could impact 
the Gypsy Moth Slow-the-Spread Program. This program has reduced the 
spread rate of gypsy moth by 60 percent along a 1,000 mile long project 
area from North Carolina to Minnesota, and has delayed the need for 
increased expenditures by Federal, State, and local governments as well 
as landowners. In 2012, this program treated more than 526,000 acres in 
eight States. Without the Slow-the-Spread about 50 million more acres 
would be infested. Reduced Federal funds (both USDA APHIS and USFS) 
could impact the ongoing eradication of Asian Long-horned Beetle in 
Massachusetts as efforts to ongoing management efforts to address the 
spread of emerald ash borer, sudden oak death, oak wilt, thousand 
cankers disease, and Hemlock Wooly Adelgid.
    Oak wilt is the single most important disease affecting oaks in the 
eastern half of the Nation. The Forest Health program supports 
suppression efforts in the Great Lakes and Texas, including root graft 
disruption and spore tree removal. The Hemlock Wooly Adelgid remains a 
significant threat to the health of hemlock forests in the Eastern 
United States, and the Forest Service has contributed to an integrated 
multi-agency effort focused on management of high value hemlocks (using 
biological and chemical controls) and continued research and methods 
development to better manage hemlocks across their range.
    Question. Can there be opportunities to utilize funds from the 
State and Private Forest Health program to control ungulates that 
impact forest health?
    Answer. We defer to the USFS, but believe that funds can be used 
for certain components of an ungulate control program (e.g./fencing).
    Question. Different regions across the Nation face different 
invasive species challenges due to factors such as climate, elevation, 
etc; this is particularly the case for the tropical, isolated, island 
State of Hawaii. Biocontrol development for the highest priority pests 
nationally is not likely to benefit the unique challenges faced by 
individual regions. Are there any examples of efforts to account for 
the unique conditions of various regions in developing biocontrol 
priorities?
    Answer. Biological control is one of the few tools proven effective 
in controlling widespread invasive plants. Successful biological 
control agents can provide continuing and expanding control while 
reducing dependence on pesticides. However, because ecosystems are 
complex it is important to consider the effects on all the other 
organisms within the community, not just the pest and biological 
control agent. This necessitates that specific regional aspects are 
considered. Work on biological control agents for important rangeland 
weeds, such as cheatgrass, leafy spurge and dalmatian toadflax are 
being undertaken in the West--Chinese privet, an important riparian 
weed in the South, and--strawberry guava, an invasive forest pest in 
Hawaii.
    Insect pest biological control is currently focused on priority 
pests, such as emerald ash borer, hemlock wooly adelgid, asian gypsy 
moth, and Douglas-fir tussock moth.
    Question. The Hawaii Invasive Species Council was modeled after the 
National Invasive Species Council (NISC) to recognize the importance of 
cabinet-level leadership and interagency coordination, planning, and 
prioritization in effectively addressing invasive species. A Hawaii 
representative from the State Department of Agriculture also serves on 
the national Invasive Species Advisory Council (ISAC). When was the 
last time the Council members of NISC or ISAC met and how often do they 
meet to fulfill the intent of Executive Order 13112 and support 
improved Federal, State and regional coordination?
    Answer. The Invasive Species Advisory Council (ISAC) usually meets 
twice a year. Unfortunately, the National Invasive Species Council 
(NISC) has not met for the past 3 years. While the many Federal 
agencies within the six Federal departments set their own budget and 
program priorities, the National Invasive Species Council can encourage 
a coordinated and cost-effective Federal investment to ensure that the 
various agency efforts are collaborative, rather than being overlapping 
or insufficient. They could also develop procedures that resolve 
jurisdictional and other disputes in an effort to improve coordination 
of Federal agencies, and between Federal and State agencies as well 
cooperative sharing of information through a centralized web-based 
system.
                                 ______
                                 
    Mr. Bishop. Thank you very much.
    Mr. Fearneyhough from the Department of Ag in Wyoming, 
please.

 STATEMENT OF JASON FEARNEYHOUGH, DIRECTOR, STATE OF WYOMING, 
                   DEPARTMENT OF AGRICULTURE

    Mr. Fearneyhough. Chairman Bishop, Ranking Member Horsford, 
and members of the Subcommittee, thank you for the opportunity 
to speak today. Again, I am Jason Fearneyhough. I am the 
Director of the Wyoming Department of Agriculture. Along with 
this, as Congresswoman Lummis stated, I currently serve as the 
Chair of the Natural Resource Committee for the National 
Association of State Departments of Agriculture, and I am the 
immediate past chair of the Western Association of the State 
Departments of Agriculture.
    Wyoming initiated its first noxious weed law in 1895, 
targeting Russian thistle, commonly recognized as tumbleweed. 
Today, each Wyoming county has a weed and pest control district 
that assists land owners and managers with local workshops, 
cost share incentives, and coordinated landscape-scale 
planning. Because of these programs, the State has eradicated 
Yellow starthistle, a toxic plant that covers over 12 million 
acres in California. Additionally, we have kept our waterways 
clear of Eurasian watermilfoil and quagga mussels, a species 
that are extremely harmful to our water resource.
    Many Western States have similar invasive species programs. 
Keys to the successes of these programs include prevention and 
educational programs, coupled with control and management 
effort. In addition, many States have university and/or USDA 
ARS experiment stations to improve the understanding of 
invasive species and improve understanding of cost-effective 
ways we can manage them.
    Natural resource managers have a broad understanding of the 
negative impacts invasive species play on our ecological 
systems, communities, agriculture interests, recreation, and 
human health. The economic impact, by some estimates, is in 
excess of $120 billion annually, up to $138 billion annually. 
This recognition has created multi-faceted efforts. It has 
brought together local agriculture producers, natural resource 
agencies, and non-government representatives to work 
collectively on short and long-term management goals. It has 
also created the Consolidated USDA APHIS Plant Protection Act, 
protecting the national and international pathways from 
invasive species, and some on-the-ground successes such as the 
recent eradication of Asian Longhorn Beetle from New Jersey.
    In Wyoming, the Federal Government manages 48 percent of 
our land. Like many Western States, our invasive species 
program success is heavily influenced by cooperation with 
Federal agencies. Local Federal representatives typically 
understand and share the same concerns, as do the regional and 
national offices. The U.S. Forest Service lists the 
introduction and spread of invasive species as a Top Four 
threat to the national forests and grasslands. The Bureau of 
Land Management Web site states that the rapid expansion of 
weeds across public lands is one of the greatest obstacles to 
achieving ecosystem health. Even the Department of Defense has 
a Web site to address the growing ecological and economic 
damage caused by invasive species.
    In many cases, local, State, and Federal agencies have the 
right knowledge, information, and people to make a positive 
difference. However, we lack the ability to fully implement 
management projects. We are subject to short-term grants, 
limited local and State funding sources. We are confined to 
detection and planning while strapped with unsuccessful 
management control and follow-through. Where various Federal 
agencies manage adjoining land masses, the problem can be 
compounded by the variation in agency funding, policy, and 
priorities.
    For example, in Teton County, Wyoming, which is situated in 
the northwest corner of the State, and is approximately 3 
million acres in size, or slightly smaller than the State of 
Connecticut, the majority of land is managed by Yellowstone 
National Park, Grand Teton National Park, the National Elk 
Refuge, and Bridger-Teton National Forest. This natural 
resource draws in millions of tourists annually to hike, take 
horses into the back country, or simply drive through America's 
first national park to see its majestic beauty. Visitors come 
from all corners of the world, potentially bringing weeds and 
non-native insects with them. To protect the natural resources 
from invasive weeds, Teton County organized the Jackson Hole 
Weed Management Association.
    This association is implemented through an agreement with 
the Federal, State, and local agencies, in addition to 
nonprofit organizations. The association has identified 
invasive weeds as the greatest threat to the ecosystem, and has 
identified the high-priority areas. Each partner is willing to 
participate, but when it is time to put things on the ground we 
have a problem, due to lack of funding.
    Each State has its own set of invasive species issues 
management needs. I have heard countless examples from my 
fellow directors and commissioners of the invasive species 
issues in their States. These concerns have resulted in WASDA 
and NASDA recently--recent actions in policy to address this 
national issue. There simply needs to be more on-the-ground 
implementation of control and management in the effort.
    Thank you for the opportunity to speak, Mr. Chairman.
    [The prepared statement of Mr. Fearneyhough follows:]
 Prepared Statement of Jason Fearneyhough, Director, State of Wyoming, 
                       Department of Agriculture
    Chairman Bishop and Ranking Member Grijalva, as well as other 
members of the Subcommittee, thank you for the opportunity to speak 
today. My name is Jason Fearneyhough and I have served as Director of 
the Wyoming Department of Agriculture for the past 4 years and as 
Deputy Director of the Department before that. Along with this, I 
currently serve as the chairman for the National Association of State 
Departments of Agriculture--Natural Resource Committee, and I am the 
past chairman of the Western Association of State Departments of 
Agriculture. I'm pleased to appear before you today to discuss the 
impacts invasive species have on our Nation's natural resources and the 
challenges we face with their management.
    Wyoming began its battle with invasive species in 1895 with its 
first noxious weed law targeting Russian thistle, or what many of you 
may recognize as the western tumbleweed. At that time, homeowners were 
limited in their ability to identify the plant and lacked the resources 
to control the spread of the species. This made it easy for Russian 
thistle to establish itself throughout the State and the West in spite 
of the legislature's well intended efforts. While the law didn't stop 
the Russian thistle, it created the foundation for the State's current 
weed and pest program. Today, we are able to assist land owners and 
managers with locally funded educational workshops, cost-share 
incentives, and coordinated landscape based planning through the 
efforts of the State's weed and pest control districts. Because of 
these programs, the State has eradicated Yellow starthistle (a toxic 
plant that covers more than 12 million acre in California) and we have 
kept our waterway clear of Eurasion watermilfoil and the invasive 
quagga mussel.
    Many of the Western States have similar invasive species programs 
to Wyoming that match, or surpass our own, in their preventative, 
educational and management efforts, and funding. In addition to these 
programs, many of the Western States have Universities and USDA--ARS 
experiment stations that are continually improving our understanding of 
the invasive species issue and the cost effective ways we can manage 
them. This is no longer just an agricultural issue. We have a broader 
understanding of the impacts these species play on our ecological 
systems, communities, recreation, and human health. This broader 
recognition has created multifaceted efforts with a unified call for 
action and has brought together local agriculture producers, natural 
resource agencies, and non-government representatives to work 
collectively on short and long-term management goals. It has also 
created the consolidated USDA-APHIS Plant Protection Act, education 
programs such as the National Firewood Task Force, and have made on the 
ground successes like the recent eradication of Asian longhorn beetle 
from New Jersey possible.
    In Wyoming, the Federal Government manages more than 48 percent of 
the lands in our borders. Like many Western States, our invasive 
species program success is heavily influenced by the cooperation of the 
Federal agencies. The local Federal representatives, along with 
regional and national offices, typically understand and share the same 
concerns on invasive species. The USFS lists ``the introduction and 
spread of invasive species'' as a top four threat to the national 
forests and grasslands. The Bureau of Land Management Web site states 
that the ``rapid expansion of weeds across public lands'' is one of the 
greatest obstacles to achieving ecosystem health. The Department of 
Defense has a Web site that addresses the growing ecological and 
economic damage caused by invasive species on defense installations. 
Along with this, a National Invasive Species Council was created by 
Executive order and the Federal Interagency Committee for the 
Management of Noxious and Exotic Weeds to assist Federal agencies in 
the collaborative invasive species efforts.
    In most cases, the local, State, and Federal agencies have the 
right knowledge, information, and people in place to make a positive 
difference on invasive species. While we have this positive situation, 
we lack the ability to fully implement what they know. We rely on short 
term grants, limited local or State funding sources, or intra-agency 
generosity and simply do not have the fiscal resources to implement 
long-term, landscape scale control. Consequently, we are confined to 
successful detection and planning but fall short on implementation. In 
the West, where various Federal agencies may manage adjoining land 
masses, the problem can be compounded by the variation in agency 
funding, policy, and/or priorities.
    For example, Teton County Wyoming is situated in the northwest 
corner of the State and it is approximately 3 million acres in size. 
Within its boundaries, the majority of land is managed by Federal 
agencies who oversee Yellowstone National Park and Grand Teton National 
Park, the National Elk Refuge, and the Bridger-Teton National Forest. 
The county's natural resources draw in millions of tourist annually 
with visitors from all corners of the world who are potentially 
bringing noxious weed seeds or non-native insects in their luggage, as 
hitchhikers on their cars, or as food. To protect the natural resources 
from invasive weeds, Teton County organized The Jackson Hole Weed 
Management Association in 1998 through an agreement with non-profit 
organizations and the Federal, State, and local government agencies. 
The association has identified the invasive weeds that pose the 
greatest threat to the ecosystem, and have prioritized treatment areas 
based on the threat. Many of those high priority areas are highways, 
wildlife corridors, and public access points located on Federal lands. 
The Association attempts to pool resources to mitigate the threat in 
these areas and strengthen each agencies response to their respective 
lands through the collective approach. While each party was a willing 
participant on paper, the Federal agencies response is limited or 
fragmented due to lack of funding and resources when the window of 
opportunity for treatment is open. Without the proper resources to 
manage the invasive species threat, the Association can only hope to 
slow the spread of invasive weeds through selective control rather than 
reducing the impacted acres through prioritized management.
    A good regional example of insufficient on the ground support is 
cheatgrass. Wyoming and many Western States have been working 
diligently to avoid the listing of the sage-grouse as an endangered 
species and a primary threat to the species is sage brush degradation 
due to invasive grasses. Cheatgrass matures quicker then native 
grasses, is highly susceptible to fire and recovers from fire quicker 
than native grasses. Sage brush communities historically experience 
wildfires on a 50 year or more cycle, but cheatgrass can reduce that 
cycle to 5 years or less which makes it difficult for native sagebrush 
to re-establish. Simply stated, with no sagebrush there is no sage-
grouse. In 2007, the Governors of Wyoming, Nevada, Idaho and Utah 
signed an agreement to coordinate efforts on cheatgrass and other 
wildfire issues. The agreement looked for cooperative efforts on 
management of cheatgrass beyond jurisdictional State boundaries. 
Unfortunately, the agreement has served very little purpose. The 
participating States were ready to act, but their best intentions were 
hampered by the inability to manage invasive species beyond the agency 
or State boundaries.
    These examples are based on my experiences as Director of the 
Wyoming Department of Agriculture, but the issue of lacking resources 
for invasive species in not limited to my State or the West. Each State 
has its own set of invasive species issues and management needs. In the 
Southeast it may be giant African snail or Burmese python; in the 
Midwest it may be Asian carp or Asian longhorn beetle; in the Southwest 
it may be feral pigs or fire ants. Looking at these few examples, it's 
easy to see how invasive species are costing the United States nearly 
$120 billion in losses annually. This includes the litany of new 
invasive plants, insects, and animals USDA-APHIS works to stave off at 
our harbors and ports each year. I've heard countless examples from my 
fellow directors and commissioners of the invasive species issues their 
States face. These concerns have resulted in NASDA's current invasive 
species policy which request the Federal Government to, ``assert 
primary jurisdiction and assume a more dynamic leadership role in the 
interdiction and eradication of destructive invasive species.''
    I would like to close by respectfully offering some recommendations 
for your committee to consider as they look towards national solutions 
to invasive species. First, review and improve Federal agency funding 
for invasive species management. Look at what is being allocated in 
each agency budget for invasive species, track where that funding is 
going, and evaluate if the funds are used effectively.
    Secondly, support localized, State, and regional programs with 
funding to meet short-term and long-term management needs. The 
technical knowledge of these groups is superior in their ability to 
decide what should be done and what is practical. Along with this, 
centralize a funding source that is easily understood and accessible 
but demands results. Emphasize direct mitigation, without discounting 
the need for education, administration, and research. Make the rate of 
compensation sufficient to do the job properly, especially on incipient 
populations. It should also support a ``color blind'' approach to 
agency land management boundaries.
    Finally, hold Federal, State, and private entities fiscally 
responsible for any and all Federal dollars spent. Review the successes 
and failures of the programs and disseminate that information to other 
professionals in the field so they might learn and adapt their programs 
based on the data. Use those reports to help determine when costs 
exceed the benefits.
    I appreciate the opportunity your Committee has provided today and 
look forward to answering any questions you might have.
                                 ______
                                 
        Questions Submitted for the Record to Jason Fearneyhough
    Question. Please share some examples of plants and plant pests that 
move in interstate and foreign commerce that have become problems for 
State inspection, quarantine, agriculture and natural resource 
authorities.
    Answer. Many of the invasive species Wyoming deals with were 
introduced through intra-State or foreign commerce. Wyoming lists 25 
plant species as State priority weeds. Some of these plants such as 
Dalmatian toadflax and Russian olive were deliberately introduced as 
ornamental plants or trees and have escaped cultivation. Some weeds and 
pests such as Hoary cress, cheatgrass and emerald ash borer were 
introduced through packing materials. Other weeds such Russian knapweed 
and quackgrass likely made their way into the United States through 
contaminated seed. Many of the aquatic invasive species such as quagga 
mussels and Eurasian watermilfoil were likely introduced through 
ballist water discharge or through the aquarium trade.
    According to the Hawaii Department of Agriculture they share some 
similar invasive species issues, in addition to some State specific 
concerns. They noted varroa mites which were accidentally introduced on 
the island of Oahu in 2007 from California. The varroa mites have been 
a significant issue for the contiguous United States since 1987. The 
introduction to Hawaii is notable as prior to 2007 the State 
represented a unique location within the United States to produce honey 
bees without the threat of varroa mites. Some of the more State-
specific issues Hawaii deals with include little fire ants and coqui 
frogs introduced through imported plants, and siam weed and fireweed 
that were likely introduced through contaminated seed. Little fire ants 
and coqui frogs are also present in Florida, but are not currently 
found throughout the contiguous States.
    Question. What are some examples of the associated costs to States 
for invasive species that have arrived via interstate and foreign 
commerce and then become established in States?
    Answer. The costs of invasive species are staggering from the 
impacts side. The following is a small collection of the economic 
impacts from various invasive species.
     Leafy spurge costs producers and taxpayers an estimated $144 
million/year in just four States alone (MT, WY, ND and SD).
     It is estimated that $16-$44 million dollars of hydropower 
generation is lost annually due to the salt cedar invasion in the 
United States.
     Purple loosestrife is responsible for $45 million/year in 
agricultural losses for the United States.
     Colorado wheat farmers estimate loses from cheat grass and jointed 
goatgrass to be near $24 million annually.
     U.S. agriculture loses $13 billion annually in crops from invasive 
insects, such as vine mealybugs.
     An aquatic invasive plant, Eurasian watermilfoil, reduced Vermont 
lakefront property values up to 16 percent and Wisconsin lakefront 
property values by 13 percent.
    In Wyoming, the local Weed and Pest Control Districts collectively 
spend over $15 million annually for the management of invasive species. 
Besides direct management, this includes salaries, equipment and other 
administrative costs. The State of Wyoming also allocates an additional 
$350,000 for the management of invasive weeds and another $1.5 million 
annually for the management of the invasive vector-borne disease West 
Nile virus. The Wyoming Game and Fish spends $426,000 annually on the 
inspection of boats for aquatic invasive species. None of these figures 
include the costs associated with State quarantines, nursery stock 
inspection and seed inspection programs that assist in preventing the 
introduction of new invasive species in Wyoming.
    Question. What limitations and opportunities are there for State 
agriculture and natural resource authorities to guard against new pest 
introductions at borders and other entry points?
    Answer. Borders and entry points not only play a significant role 
in the international movement of weeds and pests, but as important of a 
role in minimizing the interstate movement as well. States bordering 
Wyoming such as Utah, Idaho and Colorado have invasive plant 
infestations that are not yet established in Wyoming. These species 
include Yellow starthistle, Medusahead grass and quagga and zebra 
mussels. To help protect Wyoming's borders we utilize quarantines on 
non-certified hay and much, and utilize boat inspections at our 
interstate port-of-entries. Neighboring States such as Montana, 
Colorado and Idaho utilized boat inspection programs also to help stop 
the spread of the aquatic nuisance species. As successful as these 
programs are, there are often difficulties in funding staff at the 
interstate port-of-entries, and getting all vehicles to stop as 
required by law. The Rocky Mountain State Department of Agriculture's 
have created a system of communication to help track and report boats 
that have not been inspected is they travel across the regional States. 
Several infested boats have been stopped from launching into uninfested 
waters due the cooperative efforts of the States.
    Question. Are there opportunities and limitations on the ability of 
Federal and State agriculture inspection and natural resource 
authorities to share real time data at ports of entry on potential 
high--risk pests, products and pathways moving between and into States?
    Answer. Currently there are restrictions on information sharing 
between Federal and State agricultural inspectors resulting from the 
Federal preemption clause of the Plant Protection Act of 2000. Because 
States may not regulate foreign commerce and may not create 
restrictions on plants or plant pests that are not regulated by the 
U.S. Department of Agriculture, Federal agricultural inspectors are not 
prohibited to alert State agriculture inspectors of the discovery in 
foreign or interstate commerce plants or plant pests that may be of 
State concern but are not federally regulated. Encouraging joint 
inspection facilities that house both Federal and State agricultural 
inspectors, allowing information sharing between Federal and State 
agricultural inspections, and providing more flexibility in Federal 
preemption would provide opportunities for enhanced biosecurity.
    Question. Please provide examples, opportunities and limitations 
related to Federal and State agriculture inspection and natural 
resource authorities engaging in real--time sharing of information and 
even being co--located at ports of entry.
    Answer. A joint inspection facility was built at an airport in 
Kahului, Maui as part of a required mitigation effort.
    Question. What are some examples of impacts to invasive species 
control anticipated due to reductions in Federal funds made available 
through the U.S. Forest Service's State and Private Forest Health 
Program?
    Answer. Wyoming has received State and Private Forestry funds from 
the U.S. Forest Service for an Invasive Plant Management grant annually 
for 10 years. The program has been very successful for the State and 
its partners for the simplicity with which it is administered. In our 
case, the State of Wyoming has minimized their administration costs 
associated with the grant to no more than 2 percent. That means 98 
percent of the Federal funds allocated to the State are used for actual 
``on the ground'' invasive weed management. This program is a model for 
how States can adequately administer and implement programs through 
partnerships with Federal agencies and get funds on the ground. In most 
cases, Wyoming has utilized the funds from the program for State or 
private forests lands that neighbor Forest Service lands, thereby 
providing the National Forests an invasive weed buffer.
    In 2004 Wyoming received $173,000 from the program which we matched 
with $486,000 of local, State and private funds in managing over 20,000 
acres for invasive weeds. Wyoming, and most of the participating 
Western States, have watched the amount provided through the State and 
Private Forestry program decrease annually. This year Wyoming will only 
receive $49, 250 from the program and the result will be a significant 
reduction in the amount of acres we can treat.
    Question. Can there be opportunities to utilize funds from the 
State and Private Forest Health program to control ungulates that 
impact forest health?
    Answer. Our agency has been told that the funds provided to the 
Wyoming Department of Agriculture through the USFS--State and Private 
Forestry Health program are intended for the management of invasive 
plants. I am not aware if this is a Regional or National policy within 
the U.S. Forest Service, nor am I aware if any other State program is 
utilizing these funds for ungulate control.
    Question. Different regions across the Nation face different 
invasive species challenges due to factors such as climate, elevation, 
etc; this is particularly the case for the tropical, isolated, island 
State of Hawaii. Biocontrol development for the highest priority pests 
nationally is not likely to benefit the unique challenges faced by 
individual regions. Are there any examples of efforts to account for 
the unique conditions of various regions in developing biocontrol 
priorities?
    Answer. Wyoming recognizes the value bio-control provides for the 
long-term success of invasive species management and that high value 
crops receive precedence in the research of new bio-control agents. 
Therefore the Wyoming Weed and Pest Council created a Wyoming Bio-
control Steering committee that supports research into bio-control 
agents that meet the unique needs of our State. The committee allocates 
over $250,000 annually of State and county funding into regional, 
national and international bio-control research. The committee 
allocates the funding using invasive specie specific grants for 
research into bio-control agents targeting those species the committee 
and State see as priorities. The prioritized species the committee 
target are often independent to those USDA-APHIS and other States might 
have. The committee and their funding played a significant role in 
supporting the research of two bio-control agents (Aulacidea 
acroptilonicais and Jaapiella ivannikovi) which were approved in 2011 
by USDA-APHIS for the management of Russian knapweed.
    After conferring with the Hawaii Department of Agriculture 
personnel, the Hawaii Department of Agriculture has a biocontrol 
program under its Plant Pest Control Branch that develops regionally 
specific biocontrol projects. This includes exploratory biocontrol 
efforts for which staff travel to similar tropical climates to search 
for appropriate biocontrol agents that can be tested for specificity on 
the invasive species in question.
    Question. The Hawaii Invasive Species Council was modeled after the 
National Invasive Species Council (NISC) to recognize the importance of 
cabinet--level leadership and interagency coordination, planning, and 
prioritization in effectively addressing invasive species. A Hawaii 
representative from the State Department of Agriculture also serves on 
the national Invasive Species Advisory Council (ISAC). When was the 
last time the Council members of NISC or ISAC met and how often do they 
meet to fulfill the intent of Executive Order 13112 and support 
improved Federal, State and regional coordination?
    Answer. I am aware of both the National Invasive Species Council 
(NISC) and the Invasive Species Advisory Council (ISAC). Wyoming does 
not have a representative on ISAC, but there are two individuals 
currently representing the Rocky Mountain region on ISAC. According to 
NISC staff the NISC Policy Liaisons meet on a monthly basis; the most 
recent meeting of the NISC Policy Liaisons occurred on June 6, 2013. 
The last full meeting of NISC was August 8, 2008, to approve the 2008-
2012 National Invasive Species Management Plan. The two most recent 
meetings of ISAC were cancelled due to administrative and budget 
constraints; therefore the last actual meeting of ISAC was May 22-24, 
2012 in Portland, Oregon. When discussing the current status of ISAC 
with a current committee member, they indicated they are willing to 
meet by teleconference if needed to fulfill their advisory duties.
    The success of NISC and ISAC in supporting improved Federal, State 
and regional coordination is difficult to gage. Although NISC staff 
runs a supportive Web site, it's difficult to determine current 
activities or objectives of either committee. I would recommend a re-
structuring of their current Web site to make the recommendations of 
ISAC, and the NISC responses easier to follow.
    Please feel free to contact with any further questions or 
clarification needed. The State of Wyoming and the Wyoming Department 
of Agriculture looks forward to working with Congress on a solution to 
the invasive species issue.
                                 ______
                                 
    Mr. Bishop. Thank you for being here.
    We will next turn to Ms. Debra Hughes. Now, your sign says 
you are the Association of Conservative Districts. 
``Conservative'' is a good word. I realize you are actually 
``Conservation.'' But, regardless, we are happy to have you 
here. You have 5 minutes, please.
    [Laughter.]

   STATEMENT OF DEBRA HUGHES, EXECUTIVE DIRECTOR, NEW MEXICO 
             ASSOCIATION OF CONSERVATION DISTRICTS

    Ms. Hughes. Thank you very much. Chairman Bishop, Ranking 
Member Horsford, and members of the Committee, I do want to 
thank you for the opportunity. And, as was stated, I am the 
Executive Director of the New Mexico Association of 
Conservation Districts. But, in addition to being the director 
of NMACD, my husband and I also own and operate a ranch and 
hunting business in the Guadalupe Mountains near Carlsbad, New 
Mexico. And we have been putting best management practices on 
the ground on our ranch for almost 40 years.
    NMACD is a nonprofit organization and it is made up of the 
47 soil and water conservation districts in New Mexico. Soil 
and water districts have a very unique opportunity nationwide, 
because they are the only local government entity that actually 
can work on any type of land ownership, be it private, State, 
Federal, or even tribal. Through different agreements and also 
through our statutory authority.
    New Mexico is the Land of Enchantment. We have diverse 
ownership. And 40 percent of New Mexico is owned by the Federal 
Government, with 33 percent being owned by private land owners. 
Most ranches in the West include ownership and management of 
all these different types of land ownership. We have a diverse 
wildlife population, we have deserts, we have mountains. But we 
also have several prominent candidate species, such as the Dune 
Sand Lizard and the Lesser Prairie Chicken.
    But since 2005, NMACD, with Federal, State, and private 
partners have worked together to create what we call Restore 
New Mexico. Prior to Restore New Mexico, our BLM was treating 
10 to 15,000 acres of any type of land--restoring that in New 
Mexico. Restore New Mexico is this very aggressive partnership. 
We are working on woodlands, grasslands, riparian areas, to try 
to get it to a healthy, productive condition. As most of you 
are aware, when we had this fragmentation in the different land 
ownerships, it makes that very hard to work on a landscape 
scale. But we are doing it in New Mexico, regardless of the 
ownership. We strive to be color-blind, when it comes to the 
ownership and management of these State, Federal, and private 
lands.
    Restore New Mexico represents this broad partnership, and 
the key players are our association, NMACD, BLM, NRCS, our 
Department of Game and Fish, the State university, and numerous 
other partners. And both BLM and NRCS of New Mexico both have 
the same visions for trying to just restore the health of the 
land.
    Furthermore, we are working--I think what is making it work 
is they work with the local managers and the local ranchers to 
determine the most pressing projects, the best applications to 
accomplish these goals. This locally led process has enabled 
great success. And let me tell you about it.
    Since the program's inception just less than 8 years ago, 
2.1 million acres in New Mexico have--they were impaired 
habitat, and they have been treated, and now we have started 
that transition to a healthy ecological state. This expansive 
effort has been possible due to a strong relationship between 
NMACD, BLM, NRCS, and all our other partners. The way we have 
done it is NMACD has a cooperative agreement with BLM and the 
conservation districts, and we serve as the contracting agent, 
or have served, for over $14.4 million from BLM. Since that 
same time, the NRCS has contributed $11 million. And then other 
funds coming from private and all kinds of partners have been 
$17.8 million.
    The part I am probably the most proud of, while treating 
over 2 million acres, is that we function at a very high 
efficiency rate. The Restore New Mexico has placed over 93 
percent of all of these dollars on the ground. This is possible 
because we have a very low overhead to administer it, and we 
have figured out that when you do landscape-scale treatments, 
the economies of scale, you can treat more acres, you can lower 
that cost, and you can get it done much cheaper and much more 
efficiently.
    Our proactive partnership improved enough habitat to keep 
the Dune Sand Lizard from getting listed. This is unprecedented 
success. It doesn't happen. But it has happened, and we have 
done it. We went from 10,000 acres to 2 million acres in under 
8 years. And we have some slides with pictures.
    But, Chairman Bishop and Ranking Member Horsford, I just 
want to thank you for this opportunity to be able to present 
our wonderful success story in New Mexico. We are very proud of 
it. And we appreciate your time, and I will be glad to try to 
answer any questions. Thank you.
    [The prepared statement of Ms. Hughes follows:]
  Prepared Statement of Debra Hughes, Executive Director, New Mexico 
                 Association of Conservation Districts
    Chairman Bishop, Ranking Member Grijalva, members of the 
Subcommittee, thank you for the opportunity to testify today. I am 
Debra Hughes, Executive Director of the New Mexico Association of 
Conservation Districts. In addition to serving as NMACD's executive 
director, my husband and I operate Hughes Brothers Ranch & Hunting 
business in the Guadalupe Mountains near Carlsbad, NM. We have 
installed best management practices on our land for the past 40 years.
    NMACD is a non-profit association whose members include the 47 New 
Mexico Soil and Water Conservation Districts (SWCD's). NMACD provides 
support to the local SWCD's on State and national issues, and works 
with the New Mexico Legislature, Congressional Delegations, and related 
governmental agencies. Conservation districts in New Mexico and 
nationwide are focused on empowering those at the local level to 
determine what is best for the natural resource concerns in a specific 
area. It is our belief that the local leadership has the best 
understanding and can have the greatest impact with the least expense. 
Soil and Water Districts are the ``only governmental agency'' that has 
the ability to work on private, State, Federal and tribal lands through 
agreements and our statutory authority!
    New Mexico is the Land of Enchantment with diverse ownership and 
uses. Forty percent of our land is owned by the Federal Government--
predominately by U.S. Forest Service (USFS) at 20 percent and the 
Bureau of Land Management (BLM) at 17 percent; 17 percent is owned by 
the State; 10 percent by the tribes; and 33 percent by private 
landowners, but most ranches in the West include ownership and 
management of private, State and Federal land. NM land uses include 
ranching and agriculture, oil and gas, and recreation, to name a few. 
We have diverse wildlife habitat from deserts to mountains; home to 
deer and elk and much more, including several prominent candidate 
species such as the Dune Sage Lizard and the Lesser Prairie Chicken.
    Conservation districts are very concerned with the health of our 
State's beautiful landscape. Conservation districts work on threatened 
and endangered species, insect and disease concerns, wildfire 
prevention and rehabilitation, drought and water concerns, and, of 
course, invasive species. Since 2005, NMACD, along with Federal, State, 
private partners, and fellow non-governmental organizations have worked 
to create Restore New Mexico.
    Restore New Mexico is an aggressive partnership to restore 
woodlands, grasslands, and riparian areas to a healthy and productive 
condition. In the West, as many of you are aware, the fragmentation of 
the landscape due to checkerboard land ownership and jurisdiction makes 
landscape level restoration efforts difficult. Restore New Mexico works 
to overcome those boundaries and have a positive impact on the land on 
a landscape level, regardless of ownership--Federal, State, tribal, or 
private. We strive to be ``colorblind'' when it comes to land 
restoration efforts and treatments across multiple jurisdictions and 
ownerships.
    Restore New Mexico represents a broad partnership--the key players 
include NMACD, BLM, and Natural Resources Conservation Service (NRCS), 
along with the New Mexico Department of Game and Fish, and the New 
Mexico State University Jornada Experimental Range. Both BLM and NRCS 
have matching visions for improving the health of the land, lending 
significant strength and credibility to the success of Restore New 
Mexico. Furthermore, Restore New Mexico works with the local land 
managers--conservation districts supervisors, BLM field staff, NRCS 
conservationists, and State officials to determine the most pressing 
projects and the best applications to accomplish those goals. This 
locally led process has enabled great success.
    Since the program's inception, more than 2.1 million acres of 
impaired habitat have been treated, starting the transition to healthy 
ecological States. This expansive restoration effort has been possible 
due to the strong relationship between the BLM and NMACD. NMACD has a 
Cooperative Agreement with BLM, enabling us, the conservation 
districts, to serve as the contracting agent for over $14.4 million in 
BLM dollars to distribute on the ground. Since 2008, BLM's 
contributions to Restore New Mexico have made up between 12 and 19 
percent of the overall habitat treatments conducted by the BLM 
nationwide. Additionally, NRCS has made over $11 million available for 
conservation projects. The resources provided by BLM and NRCS, coupled 
with $17.8 million from other partners, have enabled Restore New Mexico 
to thrive to the successes we have seen today.
    The part I am most proud of is that while treating over 2 million 
acres, we function at a very high efficiency level. Restore New Mexico 
places over 93 percent of the dollars on the ground for treatment. This 
is possible given that there is only a small overhead needed to 
administer the program. We also believe landscape level restoration is 
efficient because of economies of scale; treating more acres per 
project lowers the cost per acre of treatments.
    Thanks to our partners and relationships throughout the State, we 
have been able to monitor results on grasslands, thanks to the Jornada 
Experiment Station; soil moisture, thanks to the National Fish and 
Wildlife Foundation; conduct forest inventories, thanks to New Mexico 
Highlands University; photos for all treatment sites, post-monitoring 
to rereading the initial plots, and other post-treatment monitoring as 
necessary, all thanks to the BLM.
    On a local conservation district level, 10 conservation districts 
have financial assistance agreements with the BLM for noxious and 
invasive weed treatments and weed education programs. The conservation 
districts include Otero, Socorro, San Juan, Upper Hondo, East Rio 
Arriba, Sierra, East Torrance, Cuba, Carlsbad, and Chaves.
    Specific projects Restore New Mexico has been responsible for 
include Salt Cedar restoration work along the Delaware River, Creosote 
Restoration in Last Chance Canyon, Sagebrush and Juniper treatment 
south of Cuba, New Mexico, reclamation of the Sulimar Oil Field, Henery 
Tank Mesquite treatments, and Sagebrush shaving adjacent to the Taos 
Field Office. These are just a few of the examples of the capabilities 
of Restore New Mexico and the significant impact that is capable of 
local land management.
    Chairman Bishop, Ranking Member Grijalva, thank you again for the 
opportunity to present the successes we have had in New Mexico locally 
managing natural resources concerns, including invasive species. I am 
happy to answer any questions you may have.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate that. And our final 
witness is Mr. Ogsbury, right?
    Mr. Ogsbury. Yes, sir.
    Mr. Bishop. From the Western Governors' Association.

  STATEMENT OF JAMES D. OGSBURY, EXECUTIVE DIRECTOR, WESTERN 
                     GOVERNORS' ASSOCIATION

    Mr. Ogsbury. Thank you. Mr. Chairman, Mr. Ranking Member, 
members of the Committee, my name is James D. Ogsbury, I am the 
Executive Director of the Western Governors' Association, and I 
felt that the plaintive bagpipe hums provided the perfect 
background for this somber topic. So, Mr. Chairman, if you are 
inclined to turn them back on, I would be obliged.
    The WGA represents the Governors of 19 Western States and 3 
U.S. flag islands. Our association is strictly bipartisan, and 
I am honored to appear before you today to briefly summarize my 
written testimony. I will necessarily defer to the very 
impressive subject matter experts that you have assembled on 
this panel when it comes to technical aspects of invasive 
species or the efficacy of overall operation of the current 
Federal programs.
    I can, however, confidently represent on behalf of the 
Western Governors that, one, the problem with invasive species 
is substantial and growing in the Western United States; two, 
the issue is, on a bipartisan basis, a top priority of Western 
Governors; three, Western Governors are prepared to work with 
the Federal Government in an authentic partnership to develop 
and execute a more successful strategy to control, eradicate, 
and prevent introduction and proliferation of invasive species; 
four, the Western States have considerable competence and 
expertise with respect to addressing invasive species, and the 
application of their ability and their local knowledge must be 
a part of any effective solution; and, five, despite their 
expertise and skill, the States cannot adequately tackle this 
massive problem on their own. For one thing, invasive species 
do not respect the political/jurisdictional boundaries 
separating the States. For another, States lack the kind of 
resources that the Federal Government commands to implement on-
the-ground solutions.
    Governors are well aware of the negative impacts of 
invasive species, including threats to native plants, birds, 
reptiles, and mammals, many of which are endangered; electrical 
power outages; interference with water supply systems; 
increased wild fire vulnerability, especially from non-native 
grasses; and economic damages to lands and communities.
    A couple of examples will illustrate the case. In Guam, an 
invasion of Brown Tree Snakes introduced to the island by U.S. 
Army Jeeps during World War II has resulted in the extinction 
of 12 native bird species. Non-native feral pigs introduced 
from the Philippines and rats continue to pose a health hazard 
to human residents of the island. Zebra and quagga mussels are 
spreading into more western water bodies each year. These 
organisms often settle in massive colonies that can block water 
intake and threaten water supply, agriculture, and power 
production. Western utilities and their customers are spending 
millions of dollars annually to clean out zebra mussels from 
intake facilities and then additional funds to retrofit those 
facilities to prevent future invasions.
    Cheatgrass is an aggressive invader of western range land 
and forest areas. It grows and reproduces rapidly, overtaking 
native grasses, reducing available forage, degrading wildlife 
habitat, and increasing wild fire risks.
    Western States and Pacific Islands are responding as best 
they can to the threat of invasive species. Colorado, for 
example, has launched the ``Lend a Hand for Your Lakes and 
Lands'' project, which is raising awareness about the problem 
of invasive weeds, such as Tamarisk, and engaging volunteers in 
control solutions.
    Governor Bullock and the Montana Legislature took action 
this year to strengthen State laws regarding the control of 
aquatic invasive species, and committed a substantial boost in 
funding to support those efforts.
    Idaho has long been at the vanguard of invasive species 
management, and has published a 5-year invasive species 
strategic plan. I respectfully request that a copy of the plan 
be included with our written testimony in the hearing record.
    Pursuant to WGA policy resolution 10-4, ``Combating 
Invasive Species,'' Western Governors are on the record calling 
for a better coordinated nationwide effort to control and 
manage invasive species. The Governors support a more focused 
and streamlined Federal approach to the invasive species 
problem, implementation of aggressive Federal invasive species 
control programs that result in more on-the-ground prevention, 
management, and eradication of invasive species, and improved 
governmental coordination, communication, transparency, and 
accountability with respect to invasive species programs and 
the expenditure of available taxpayer resources.
    I will conclude by emphasizing the willingness of the 
Western States to engage in meaningful partnerships with the 
Federal Government to attack the problem. The Restore New 
Mexico partnership illustrates the potential of just such 
collaboration and Ms. Hughes has described the program and 
suggested its promise for other areas of the West.
    Mr. Chairman, Mr. Ranking Member, members of the Committee, 
the WGA applauds you and the Subcommittee for your examination 
of this critical problem, and we would be pleased and honored 
to serve as a resource and a partner as you develop legislative 
solutions. Thank you.
    [The prepared statement of Mr. Ogsbury follows:]
  Prepared Statement of James D. Ogsbury, Executive Director, Western 
                         Governors' Association
    Mr. Chairman and members of the Subcommittee, thank you for 
providing the opportunity for the Western Governors' Association (WGA) 
to testify today. My name is James D. Ogsbury and I am the Executive 
Director of the WGA. WGA is an independent, non-partisan organization 
representing the Governors of 19 Western States and 3 U.S.-flag 
islands.
    Western Governors are encouraged that the Subcommittee is focusing 
this oversight hearing on the insidious problem of invasive species, 
which poses a serious and growing threat to our region. Over the years, 
the Federal Government has invested substantial taxpayer resources to 
address this problem. Nevertheless, invasive species continue to 
proliferate.
    Aquatic and terrestrial invasive species are causing extensive 
damage across western landscapes, coastal areas and Pacific Islands--
and have been doing so for some time. In California alone, over 1,000 
non-native species have been identified. All over the region, invasive 
species are harming natural environments and habitat, recreational 
uses, shore and marine uses, industrial and municipal uses, grazing, 
and timber harvests.
    Invasions of non-native species are resulting in:

     Decreased biodiversity of native plants, birds, reptiles, and 
mammals;
     Increased vulnerability of native species, some of which are 
endangered and threatened species;
     Electrical power outages and disruptions;
     Physical disruption of water supply systems and increased flood 
damage;
     Increased wildfire severity (especially from non-native grass);
     Reduced value of Federal, State and private lands; and
     Economic harm to communities.

    Let me illustrate the Governors' concerns with several specific 
examples of invasive species that are now creating challenges for the 
West:
Aquatic Mussels
    Aquatic invasive species (such as zebra and quagga mussels) are 
spreading into more western water bodies each year. Western States are 
on high alert to contain, control, and prevent their proliferation. The 
most common sources for the introduction of these species are 
recreational watercraft and materials sold by aquatic plant and animal 
suppliers.
    Invasion of these mussels result in impairments to water supplies 
for drinking, energy production, and irrigation. The economic 
consequences are severe. For example, the operators and customers of 
large power plants and water users are spending millions of dollars to 
clean out zebra mussels from water facilities and additional funds to 
retrofit those facilities to prevent future invasions. In addition, 
native fish and wildlife habitat are negatively impacted when these 
species become established in streams, lakes, estuaries and other water 
bodies.
    Western States have committed significant resources to man 
watercraft inspection and decontamination stations for invasive 
species, but this tactic cannot be the only line of defense. California 
currently dedicates over $7 million annually to prevent the spread of 
quagga and zebra mussels into and within State. Decontaminating quagga/
zebra mussel fouled watercraft at their source, especially federally 
managed water bodies, such as Lake Mead National Recreation Area, is 
essential, or we will continue to witness the spread of quagga and 
zebra mussel to new areas in the Western United States.
    These growing costs do not include local reservoir prevention 
program or control expenses for water agencies in southern California, 
including the Metropolitan Water District, which currently spends 
millions of dollars annually to treat infested Colorado River water. 
Interception--whether at the source or at the borders--is critical for 
California, where water project control costs can run as high as $40 
million dollars annually if mussels infest the system.
Cheatgrass
    Cheatgrass is an aggressive invader of ponderosa pine, mountain 
brush, and other rangeland and forest areas in the West. Its ability to 
rapidly grow, reproduce and overtake native grasses makes it especially 
troublesome on ranges, croplands, and pastures. Where it becomes dense 
and dominant, cheatgrass can make wildfires even more severe because 
they burn easily. After a wildfire, cheatgrass thrives and out-competes 
native shrubby seedlings such as antelope bitterbrush.
    Cheatgrass can also diminish recreational opportunities, reduce 
available forage, degrade wildlife diversity and habitat, and decrease 
land values. It is important to note that managed grazing practices 
have historically helped to reduce large, high-intensity range fires 
and, consequently, the spread of invasive species like cheatgrass. As 
grazing has become less prevalent on Federal lands, cheatgrass has had 
more opportunity to thrive.
    Western States and Pacific Islands are responding as best they can 
at the local and State levels. For example:

     New Mexico's ``Restore New Mexico Partnership''--working with the 
State of New Mexico, USDA-NRCS, and BLM--has now treated over 2 million 
acres of invasive species, including Russian Olive and Salt Cedar 
(Tamarisk) in the past 8 years.
     Colorado is piloting a collaborative effort between State, county 
and municipal governments to tackle land-based invasive weeds, such as 
tamarisk. The ``Lend a Hand for Your Lakes and Lands'' project is 
raising awareness about this significant natural resource challenge 
while engaging youth and other volunteers in management solutions.
     Island ecosystems and economies are particularly vulnerable to 
invasive species impacts. For example, Brown Tree snakes brought to 
Guam in U.S. Army Jeeps during the World War II have resulted in the 
extinction of 12 native bird species. The Pacific Invasives Partnership 
promotes coordinated planning and assistance from regional and 
international agencies to meet the invasive species management needs of 
countries and territories of the Pacific.
     Montana Governor Bullock and the 2013 Montana legislature 
strengthened State laws regarding the control of aquatic invasive 
species (AIS) and provided a substantial boost in funding to support 
those efforts. The new law establishes a statewide management area to 
prevent new AIS introductions through watercraft and equipment 
inspection stations at State borders. The Montana Department of Fish, 
Wildlife and Parks is the lead agency, with the Montana Departments of 
Transportation and Natural, Resources and Conservation also tasked with 
major responsibilities. The agencies are currently providing training 
for watercraft inspectors and establishing 20 highway watercraft 
inspection stations.
     In California, invasive aquatic plants, such as water hyacinth and 
other invasive plants have proliferated to the point that they: 
obstruct navigation and create hazards for boats and other watercraft; 
impair recreational uses such as swimming, fishing, and hunting; damage 
water delivery and flood control systems; alter water quality; and 
degrade the physical and chemical characteristics of fish and wildlife 
habitat. California's aquatic weed control activities cost over $6 
million annually.
     The 100th Meridian Initiative is a cooperative effort among local, 
State, provincial, regional and Federal agencies to prevent the 
westward spread of zebra and quagga mussels and other aquatic nuisance 
species in North America, as well as to monitor, contain, eradicate and 
control zebra mussels and other aquatic nuisance species if detected.
     Idaho has long been at the forefront of invasive species 
management. Most recently, the State released the Idaho Invasive 
Species Strategic Plan, 2012-2016. WGA respectfully requests that the 
plan be included with our written testimony in the hearing record.
    Despite best efforts, Western States and territories cannot 
adequately prevent or reduce the spread of invasive species on their 
own. Federal agencies own and manage more than 40 percent of the land 
in the West.
    In 2010, Western Governors called for a better coordinated, 
nationwide effort to control and manage invasive species. WGA urged 
that available Federal funding be focused on the worst problems, 
regardless of land ownership, and targeted at the ground level on 
Federal and non-Federal lands to reduce invasive species. I am 
providing a copy of WGA policy resolution 10-4, Combating Invasive 
Species, as part of my testimony today.
    Unfortunately, it seems little progress has been made at the 
Federal and regional level since 2010. Western Governors sent a letter 
to the leadership of House and Senate natural resources committees 
supporting new invasive species management legislation. The Governors 
urged the legislation to ensure:

     A more focused and streamlined Federal approach to the invasive 
species problem;
     Implementation of aggressive Federal invasive species control 
programs that result in more on-the-ground prevention, management, and 
eradication of invasive species;
     Opportunities for collaboration with States and Pacific Islands to 
prevent the spread of invasive species populations, avert new 
unauthorized introductions, and work together to set priorities for 
invasive species management;
     Improved intergovernmental coordination and communication 
regarding invasive species infestations in order to facilitate the most 
effective, cooperative and rapid response; and
     Increased transparency and accountability regarding how Federal 
funds are allocated and used for the prevention, control and management 
of invasive species.

    We believe that those Federal agencies that have jurisdictional 
responsibility for land and water resources (i.e., Bureau of Land 
Management, Bureau of Reclamation, Office of Insular Affairs, U.S. 
Forest Service, and Army Corps of Engineers) must work with the States 
and territories to: implement aggressive invasive species control 
programs; provide grant resources for monitoring, intrastate 
interdiction and containment; and establish a rapid response to early 
detection of invasive species.
    New Mexico's partnership program provides a great example of how 
effective this kind of Federal-State-local coordination can be when 
treating invasive species on public and private lands. The New Mexico 
Association of Conservation Districts has administered the funds for 
the BLM and has completed coordinated management plans for over 143 
private ranchers. The NMACD has also executed and managed contracts for 
very large landscape scale treatment projects. The ability to do 
landscape scale treatment projects (with matching Federal, State, and 
private dollars) has resulted in lower per-acre cost of treatment.
    Western Governors are keenly aware of the fiscal constraints under 
which Congress and the Federal agencies are currently operating. We 
believe, however, that an effective response to the economic and 
ecological devastation caused by invasive species can be achieved, if 
existing resources are deployed more wisely and efficiently.
    As the Committee begins its work to draft invasive species 
legislation, Western Governors urge you to concentrate your efforts on 
what can make a difference where it matters: on the ground. States, in 
partnership with Federal agencies, have the expertise to run effective 
invasive species eradication programs.
    Again, Western Governors urge the Subcommittee to pursue and 
champion invasive species legislation during the 113th Congress. Thank 
you for the opportunity to be a part of today's hearing on an issue of 
great importance to the Western States and Pacific Islands.
                                 ______
                                 

         Western Governors' Association Policy Resolution 10-4

                       combating invasive species
A. BACKGROUND
    1. The National Invasive Species Council (Executive Order 13112) 
defines an invasive species as ``an alien species whose introduction 
does or is likely to cause economic or environmental harm or harm to 
human health.'' The rapid spread of invasive species remains one of our 
country's biggest environmental problems, a situation complicated by 
the sheer number of invasive species, lack of a coordinated and 
comprehensive effort to prevent introductions, monitor and survey for 
new introductions, and the remarkable ability of invasive species to 
adapt, reproduce and ultimately overtake entire ecosystems.
    2. Invasive species are a global problem. The annual cost of 
impacts and control efforts equals 5 percent of the world's economy. 
The U.S. Environmental Protection Agency estimates the country spends 
at least $138 billion per year to fight and control invasive plant and 
animal species, such as the emerald ash borer beetles that have 
destroyed millions of trees in the East and Midwest. Invasive species 
influence the productivity, value, and management of a broad range of 
land and water resources in the West, ultimately limiting the direct 
and indirect goods and services these ecosystems are capable of 
producing. Over 100 million acres (an area roughly the size of 
California) in the United States are suffering from invasive plant 
infestations.
    3. On a scale of biodiversity destruction, the EPA reports that 
invasive species rank second only to urban development. In addition, 
invasive species have been identified by the Chief of the U.S. 
Department of Agriculture Forest Service as one of the four significant 
threats to our Nation's forest and rangeland ecosystems.
    4. The Western Governors recognize that the spread of invasive 
species results from a combination of human behavior, susceptibility of 
invaded environments, and biology of the invading species. These 
characteristics are not dictated by geopolitical boundaries, but rather 
by ecosystem-level factors, including climate change, which often cross 
State borders. Scientists and land managers across the West have 
expressed the need to develop a strategy for more aggressive invasive 
species prevention, early detection, and management.
    5. Invasive species have significant negative economic, social, and 
ecological impacts which include, but are not limited to:

    a. Reduction of the value of streams, lakes, reservoirs, oceans, 
            and estuaries for native fish and wildlife habitat;
    b. Degradation of water resources for human uses including drinking 
            water, energy production, irrigation systems and other 
            water uses;
    c. Decreased real estate property value and increased costs of 
            property development;
    d. Detraction from the aesthetics and recreational value of 
            wildlands, parklands, and other areas;
    e. Degradation of ecosystem functions and values, including 
            populations of desirable species;
    f. Reduction of the yield and quality of desirable crop and forage 
            plants that are important in production of our food supply;
    g. Reduction of native biodiversity, resulting in a growing number 
            of threatened, endangered and extinct species (Note: 
            invasive species have contributed directly to the decline 
            of 42 percent of the threatened and endangered species in 
            the United States);
    h. High cost of control; and
    i. Reduction of preferred native vegetation important to native 
            fish and wildlife as well as livestock.

    6. Aquatic invasive species such as the zebra mussel, quagga 
mussel, and Eurasian water milfoil are spreading into more western 
water bodies each year. The most common sources for the introduction of 
these species in the West are recreational watercraft and materials 
sold by aquatic plant and animal suppliers. This is a regional, 
interstate issue and no Western State can independently implement 
programs to adequately prevent or reduce the spread of invasive 
species. The economic and environmental damage from aquatic invasive 
species will continue to rise in Western States without a well-
organized and adequately funded effort to survey and monitor for 
invasive species as well as implement prevention, control, and 
eradication programs in each State to complement coordinated multi-
State efforts.
    7. Many of these invasive species were introduced, or their 
distribution was expanded, due to inadequate implementation of Federal 
regulations dealing with international trade and/or interstate 
commerce.
B. GOVERNORS' POLICY STATEMENT
    1. Western Governors support coordinated, multi-State management 
and eradication actions to limit or eliminate intentional and 
unintentional introductions and improve control of invasive species. 
The principal objectives should be to maintain properly functioning 
natural systems and their associated native fish and wildlife 
populations, ensure agricultural productivity, enhance resource and 
environmental protection, and protect human health. Control programs 
should be economically practical in relationship to the long-term 
impacts an invasive species will cause.
    2. Programs for the control and/or eradication of invasive species 
must incorporate education, prevention, and early detection and rapid 
response techniques.
    3. Western Governors strongly encourage all natural resource 
management agencies, local governments, universities, nonprofit 
organizations and the private sector to collaborate and form 
partnerships with States to prevent the spread of invasive species, 
avert new unauthorized introductions, and work together to find 
creative new approaches for protecting and restoring natural, 
agriculture, and recreational resources.
    4. Western Governors urge full funding support for invasive species 
management programs on Federal lands as well as financial assistance 
for state invasive species management, including the National Invasive 
Species Act and programs administered by the U.S. Department of 
Agriculture, Animal, Plant, and Health Inspection Service (APHIS) and 
U.S. Fish and Wildlife Service, and funding support for State invasive 
species councils These programs provide valuable services in the 
detection and elimination of invasive species as well as coordination 
and communication, and their participation is essential for States 
relying on these services to maintain strong trade and export 
functions.
    5. Western Governors encourage the federal government to:
    a. Assume responsibility and a direct partnership role with States 
            in interstate interdiction of invasive species;
    b. Substantially increase grant funding to the States for 
            monitoring, intrastate interdiction and containment; and
    c. Implement aggressive invasive species control programs within 
            the Federal agencies (e.g., Bureau of Land Management, 
            Bureau of Reclamation, U.S. Forest Service, Army Corps of 
            Engineers) who have jurisdictional responsibility for land 
            and water resources.
    d. Establish rapid response spending authorization for States 
            responding to early detection of invasive species.
    6. Western Governors support a coordinated regional approach to 
invasive species management. Of particular importance will be: a. 
Developing scientifically based and coordinated species lists between 
the States;
    b. Developing efficient coordination and communication mechanisms 
to share information promptly with each other and the Federal 
Government to allow for the most effective cooperative and rapid 
response;
    c. Establishing consistent and effective policies and procedures to 
prevent transport, sale and dispersal of undesirable species, 
particularly those under eradication in specific states; and
    d. Increasing awareness and support for effective public outreach 
and education throughout the Western States.
C. GOVERNORS' MANAGEMENT DIRECTIVE
    1. This resolution shall be posted on the Western Governors' 
Association Web site and shall be referenced and used as appropriate by 
Governors and staff.
    2. Western Governors' Association staff shall coordinate within 
existing WGA committees, such as the Climate Adaptation Workgroup and 
the Forest Health Advisory Committee, to promote coordination and 
cooperation of invasive species management across agencies.
    3. The Western Governors' Association shall seek financial and 
human resources to work with appropriate partners to facilitate the 
development and coordination of strategies to prevent the introduction 
and spread of invasive aquatic, riparian, and terrestrial species.
    4. WGA shall support increased pass-through funding for invasive 
species management to States including funding for the Federal Highway 
Administration to support of State Department of Transportation 
invasive species management efforts.
                                 ______
                                 
    Mr. Bishop. Thank you, sir. And if you provide us with an 
Idaho plan we will add that as part of the record.
    Mr. Ogsbury. Thank you, sir.
    [The Idaho Invasive Species Strategic Palan 2012-2016, 
provided for the record by Mr. Ogsbury, has been retained in 
the Committee's Official files and can also be found at http://
www.agri.state.id.us/Categories/PlantsInsects/NoxiousWeeds/
Documents/Idaho%20Invasive%20Species%20Strategy%202012-
2016.pdf.]
    Mr. Bishop. With that, we will turn to questions of our 
panel. Let me turn first to Representative Lummis, if you have 
any questions of these witnesses.
    Mrs. Lummis. I do. Thank you very much, Mr. Chairman.
    Mr. Bishop. Thank you.
    Mrs. Lummis. Before I begin, I have a confession to make to 
Dr. Beck. When I was a student at the University of Wyoming 
College of Agriculture. I was involved in a vast right wing 
conspiracy that did spirit the CSU ram from his pen and placed 
him in a pen at the University of Wyoming with Cowboy Joe, our 
pony. I was subsequently dragged into the President's office, 
along with some other ag students, and we did return the ram to 
CSU, unharmed. But I do have that history with regard to CSU. 
We are happy to have you here today, by the way.
    My questions, first, are for Director Fearneyhough. Now, 
you are in charge of invasive species control in the State of 
Wyoming, is that correct?
    Mr. Fearneyhough. That is correct.
    Mrs. Lummis. And you testified briefly before about the 
variety of Federal agencies that you have to deal with in 
Wyoming. It is not just the BLM or just the Forest Service. It 
is multiple Federal agencies, is that correct?
    Mr. Fearneyhough. That is correct.
    Mrs. Lummis. When you are trying to respond to invasive 
species threats on a statewide basis, what kind of challenges 
arise when you are dealing with these separate agencies with 
separate budgets, separate species management philosophies?
    Mr. Fearneyhough. Congresswoman Lummis, we work very 
closely with our Federal partners, and I want to make that 
clear.
    However, Ms. Hughes talked about the color-blind approach 
and seeing the different colors on the map. The biggest 
challenge that we have, from my perspective, is exactly that. 
You mentioned policies and budgets and all of those things. We 
need a consistent way to act on lands as if they are just 
lands. We have heard today that invasive species do not 
recognize political boundaries, they don't recognize any of 
those budgets, any of those policies. They go where they want 
to go. We need to be able to be nimble and get on to the ground 
as quickly as we can to stop the threats that we have.
    So, those are the challenges that you laid out right there, 
are that, that we have different sets of policies, different 
budgets that we are working with all the time, and the species 
just keeps promulgating itself.
    Mrs. Lummis. There have been some regional approaches that 
have been discussed at this hearing. Could you elaborate on 
that, and how that is working?
    Mr. Fearneyhough. Yes, Congresswoman. I can give you two 
examples, one of an invasive species--and this one isn't 
working--and one that--or hasn't worked very well--and one that 
is not an invasive species, but a threat to Wyoming that is. 
And I will start with the one that is working on the 
cheatgrass.
    We have four States. I am in the western part of the United 
States, where the Governors had come together and they had 
signed an MOU to work together to stop cheatgrass because of 
the issues that we have with sage grouse. Because of what we 
just talked about a moment ago, the different budgets, 
policies, the problems that we encounter there, that MOU, that 
plan, is sitting on a shelf. It is not being able to be 
implemented. And the opportunity still lies there. We need, I 
guess, a mechanism to get it off the shelf and on to the 
ground. So there is a problem that isn't working.
    On the Eastern side of Wyoming, we have the beetles, the 
Pine Beetles. We have the issue that is in two States, multiple 
counties, we are dealing with the BLM, with the Forest Service, 
the State of South Dakota, the State of Wyoming, and several 
counties. We have been able to utilize the Wyoming Department 
of Agriculture through the generosity of the State legislature 
in Wyoming, and also like members in South Dakota, with 
partnership with the Federal Government to get on the ground 
and start taking care of that problem. So----
    Mrs. Lummis. You have talked, then, about prioritizing 
direct mitigation of these species, but you also mentioned 
research funding to be valuable. What type of research programs 
have helped you make a difference on the ground?
    Mr. Fearneyhough. Congresswoman, again, I think all of that 
is important, all of the things that we have talked about. It 
is not just research, it is not just on the ground. It is a 
combination of doing it all. Because we have to use the 
research, though, to be applied. We have to get to a point 
where we can take what we are learning in the academic world 
and get it on the ground to deal with the species. This problem 
is broad-ranging, and we need to--I can't give just specifics 
from Wyoming because, as I mentioned, we have the different 
problems in different States throughout the country. But we 
need to make sure that research goes to the next step, where we 
have application, and get things on the ground.
    Mrs. Lummis. I will defer now back to you, Mr. Chairman. 
So--will we have a second round? Excellent. Thank you very 
much.
    Mr. Bishop. OK. Ask questions--do you have any Ram stories?
    Mr. Horsford. I actually do.
    Mr. Bishop. Oh, great.
    Mr. Horsford. Not Thelonious, but----
    Mr. Bishop. Well, see, CSU and Wyoming are in different 
conferences now, so I don't care. But go ahead. I recognize Mr. 
Horsford for questions.
    Mr. Horsford. Thank you, Mr. Chairman. My wife actually got 
her undergrad from CSU. And having attended the University of 
Nevada Reno, whenever there is a big game I always let her know 
that we often beat the Rams. So go Wolfpack.
    [Laughter.]
    Mr. Horsford. I never stole a ram, though.
    [Laughter.]
    Mr. Horsford. I appreciate very much the panel. And as I 
said, this is a very important topic. The Healthy Habitats 
Coalition and some of the testimony seems focused on noxious 
weeds. But as we indicated, we have a problem with cheatgrass 
in Nevada. We also have a problem with quagga mussels.
    So, does it make a difference whether it is an aquatic 
species or a noxious weed, when we talk about funding for 
prevention versus control for the various panel members, if you 
could respond?
    Mr. Ries. I can speak for the Forest Service and say that 
it does not. The big issues for us is identifying the various 
invasives that are out there, taking a look at the threats that 
they pose, evaluating our treatment options. What are the 
possible ways we can control that? And how effective might they 
be?
    And then, in every situation I am aware of, we are working 
with our partners, both at the State and local level, to set 
priorities together so that we can move forward on those. So in 
some parts of the country we are involved in cheatgrass. And we 
are also involved in developing biological controls for it. In 
other parts of the country we have been very active and 
aggressive with our partners in looking at quagga mussels, as 
well as zebra mussels and other aquatic invaders.
    Dr. Beck. All of the organisms are problematic and 
important. They all need to be dealt with. And we need a 
balanced approach to do so. We shouldn't favor one over 
another, maybe--unless it is something brand new and arrived, 
then that should be taken care of immediately. But otherwise, 
they are all bad. It is not just noxious weeds, and it is not 
just the mussels, it is not just the Burmese Python, it is all 
of them together.
    Mr. Horsford. Thank you. One other area that you talked 
about, obviously, is effectively eradicating an invasive 
species, and particularly having a rapid response when it is 
first detected.
    State agencies often view the new invader from the 
perspective of their own boundaries. How would you suggest that 
State and Federal agencies coordinate their responses to a new 
invader, when the ultimate impact might be widespread, but the 
initial responsibility to respond falls only to one State? 
Often times States have inadequate resources.
    Dr. Beck. To make that, the system, work, early detection 
and rapid response, you obviously need a local set of eyes 
keeping track, because they are familiar with the area, and 
they live there, they are out, looking around. But ultimately, 
it needs to be borderless, it needs to be collaborative. We 
need everybody communicating, open lines of communication to 
address this very issue, just as you suggest.
    Mr. Fearneyhough. Congressman Horsford, I would agree with 
that. I think that it is important that we work together. We 
have opportunities. And, of course, in Wyoming, our biggest 
issues tend to be insects and weeds. We do have some of the--we 
are trying to keep quagga mussels out.
    But I think if you have the opportunity to even work with 
another State to keep a weed, for instance, or an invasive 
species that is in that State from coming into your State, it 
ultimately reduces the pathway of that invasive species to move 
across the country. I think that prevention is done through 
rapid response.
    Mr. Horsford. Anyone else?
    [No response.]
    Mr. Horsford. Governors' Association, maybe?
    Mr. Ogsbury. I think that we should develop a model where 
the State governments, the Federal Government, the conservation 
districts, private interests, are all at the table to develop 
broad-scale strategies, kind of on a landscape-basis, much like 
what they have done in New Mexico.
    So, when the rapid response is required, people have 
already kind of talked that through and they are on the same 
page, and there is a much more--a better common-sense of the 
problem, and a more collaborative solution that has already 
been kind of deliberated upon.
    Mr. Bishop. Thank you. Mr. Stewart, according to theme 
here, is it going to be a Utah State story? In fact, I don't 
even know where you went. If you say BYU, you don't even get to 
ask questions, but----
    Mr. Stewart. OK. Well, I am going to excuse myself at this 
time, then.
    [Laughter.]
    Mr. Bishop. You are recognized for 5 minutes.
    Mr. Stewart. I went there for a year, until I almost got 
kicked out, but it wasn't for ram-stealing. I would like to 
make that clear.
    I am assuming, Mr. Chairman, that it is my time, then? 
Thank you.
    Like many of us here, I am from a Western State, and I 
appreciate this hearing, Mr. Chairman. I appreciate your 
expertise. And for those of you, service to your Nation, 
service to your States, and your expertise. And I would like to 
use this opportunity to actually educate myself, rather than 
pretend that I am an expert in this, because I am not, and ask 
some questions that some of you may think, well, those are 
silly, or maybe I should know that. But I really would 
appreciate some clarification.
    Invasive species are alien species that can cause economic 
or environmental damage. I understand that. But I am wondering, 
are you concerned about native species, as well, that can also 
cause economic or environmental concern? Do you spend any 
efforts on what we would, I guess, scientifically consider a 
native species?
    Some of you are nodding your head, I guess. Would you mind 
jumping in and say yes, you do? Or where is that on your 
priorities?
    Mr. Ries. And I can start that, speaking from the 
perspective of the Forest Service.
    Mr. Stewart. OK.
    Mr. Ries. And a really good example that we see throughout 
the West is with Mountain Pine Beetle.
    Mr. Stewart. Is what?
    Mr. Ries. Mountain Pine Beetle.
    Mr. Stewart. Yes, OK. Yes, absolutely, yes.
    Mr. Ries. And we have had instances, significant losses of 
spruce to Spruce Beetle in Utah.
    Mr. Stewart. Right, right.
    Mr. Ries. And those are natives. And we do spend a 
significant amount of resources, really, along the same lines 
as we do for invasives. We look for an early detection of a new 
outbreak of a native species when it begins to do harm, and 
gets out of the background. We apply direct control measures. 
We work on biological control measures, and we also look at 
restoration work once----
    Mr. Stewart. Many of the same things, then.
    Mr. Ries. Yes, sir.
    Mr. Stewart. And so, I am noticing again many of you shook 
your heads. I recognize this hearing is on invasive species, 
but that is not the only problem. You also have to deal with 
the natives, as well. And you deal with them, I am assuming, in 
much the same way, as far as mitigating the harm, the processes 
are much the same. Is that true? Yes, OK. Thank you.
    Then again, we have heard a number of examples. You have 
talked about the aquatic mussels or the cheatgrasses or some of 
the native species, the Bark Beetle, which many of us are 
concerned about. And I think, from a visual perspective, it is 
one of the more obvious ones. The mussels, for example, you may 
not be as aware of because of that.
    But recognizing that these are very different species, very 
different economic or environmental remedies to them, that they 
concern different constituents or different groups for 
different reasons, are there any that seem to rise to this is 
the number-one priority, or this is the greatest danger that we 
face right now? Is there any consensus among you at all that 
this is our primary concern? Or maybe two, top one or two.
    Dr. Beck. Well, Representative Stewart, I actually was 
asked that question earlier this week, and it is very difficult 
to pin down a top one, top two, or top three. But every State 
and every county within the State will have a priority group 
that they will work on.
    Typically, when something is new, then that receives 
priority immediately through early detection and rapid response 
for the obvious reason. We do not want it to become a 
cheatgrass, or something of that nature. So it is not a moving 
target, but the priorities are adjusted as necessary.
    Mr. Stewart. OK. So among you, maybe those who haven't 
responded--yes, I am sorry, Ms. Hughes? Yes. You seem to want 
to answer that. If you would.
    Ms. Hughes. Well, Mr. Chairman, Congressman Stewart, it 
really depends on the location, and it depends--I mean because 
we have done a large amount of just Mesquite treatment, which 
is a native, but it was invading so bad, and it was affecting 
the habitat area of the Dune Sand Lizard and Lesser Prairie 
Chicken. So, therefore, it was a priority, even though it--so 
it is going to depend on the location and what all the other 
species are.
    I mean Pinyon-Juniper invasion, even though they are 
native, is a huge factor because of wild fire and drought 
issues. Salt Cedar is a huge problem because of water issues. 
So every State and every locale----
    Mr. Stewart. Has its own challenge.
    Ms. Hughes [continuing]. Is going to have its own 
challenges.
    Mr. Stewart. So, I think if you were to ask most people in 
my State, for example, most of them would think of the Bark 
Beetle, because it is most visual. But the reality is, A, it is 
not invasive, it is native. Same problem, have to deal with it. 
And, B, it doesn't seem to be the most worrisome to you at all. 
There are many others that you are at least equally concerned 
with. Is that true?
    Mr. Fearneyhough. Congressman, if I may?
    Mr. Stewart. Yes.
    Mr. Fearneyhough. I believe that, yes, it depends, as Ms. 
Hughes just stated, the issues that face Florida and California 
are very different than the issues that face Wyoming, and those 
are different than the issues that even face my neighbor, Utah, 
in many cases.
    Mr. Stewart. Yes.
    Mr. Fearneyhough. So it is a very location-based problem.
    Mr. Stewart. OK. And I view that as being good news and bad 
news. I mean the good news is there is not one major problem 
that seems so overwhelming that everyone has agreed this is the 
priority for us now. The bad news is that there is a wide range 
of other problems that are so different, there is no real 
concerted effort to take care of it. And it is going to take 
the efforts of a lot of people from a lot of different 
backgrounds to do that. OK. Thank you for your questions and 
your responses.
    Mr. Chairman, having run out of time, I yield back.
    Mr. Bishop. I appreciate it. Let me ask a couple question 
in here. And there will be another round for everybody if there 
are more questions.
    Mr. Ries, first of all, you cited several different 
acronyms of invasive species partners and efforts under which 
you work. So, my question is, who is in charge, as far as the 
Federal Government's agencies, to coordinate these efforts to 
address this issue? Who actually is in charge?
    Mr. Ries. There is an Invasive Species Council composed of 
Federal agencies that oversees the work that all of us do. It 
helps us set priorities and assures that we are operating 
consistently.
    Beyond that, as we move into individual locations, we in 
the Forest Service are responsible for the National Forest 
System and BLM, of course----
    Mr. Bishop. Let me just take one step further. The council 
to which you refer has been there for quite a while, a couple 
administrations, at least. And it is made up of multi-agencies 
and districts. Do they--does that Council, though, have 
authority to make decisions, or do they generally try to 
coordinate and make recommendations?
    Mr. Ries. They coordinate, they make recommendations.
    Mr. Bishop. All right.
    Mr. Ries. They----
    Mr. Bishop. We still have a diffuse authority that is out 
there.
    What authorities does your agency have to let State and 
local entities manage invasive species on national forest land?
    Mr. Ries. We operate under a couple of different 
authorities, but primarily through cooperative agreements, my 
experience is with cooperative weed management areas in Idaho. 
When we all got together in an area similar to what Ms. Hughes 
describes in New Mexico, that group determines what their 
priority invasives are----
    Mr. Bishop. I understand cooperative agreements. Do you 
have the authority to let State and local governments take lead 
and take charge of this program?
    Mr. Ries. Not that I am aware of.
    Mr. Bishop. How much does it cost the Forest Service per 
acre to do invasive species treatment?
    Mr. Ries. Our costs vary significantly, depending on the 
species and the location. In remote wilderness areas in Idaho 
and Montana, where we are packing herbicide in on horseback, 
costs can be as high as $1,000 an acre.
    Mr. Bishop. All right.
    Mr. Ries. And if we are spraying for Gypsy Moth, costs can 
be as low as $25 to $35 an acre.
    Mr. Bishop. OK. Mr. Beck, if I could ask you a couple of 
questions now. Ms. Hughes said 93 percent of their revenue 
actually gets on the ground. Your coalition, I understand, has 
made some estimates of what the Federal money actually gets on 
the ground. And I understand it is as low as 7 percent. Is that 
a ballpark figure?
    Dr. Beck. For weed control, yes, Mr. Chairman, that is a 
close ballpark figure. If you put in the other monies from, 
like, APHIS, for example, it does go up.
    Mr. Bishop. How effective has the invasive species 
management plans produced by this National Invasive Species 
Council been?
    Dr. Beck. Sadly, I would have to say that it has not had 
the effect that we would desire. When I served on the Invasive 
Species Advisory Committee, that was one of the frustrations.
    Mr. Bishop. All right, thank you. Let me ask Mr. Dye a 
couple of questions, if I could, then.
    Your testimony mentioned the billions of dollars being 
spent by municipalities and private property owners to address 
invasive species. Can you talk about their success rate in 
curbing invasive species?
    Mr. Dye. As we have heard here today, it is a very 
challenging problem. It requires the effort of many agencies. 
And to say that we have been totally successful, we would be 
hard-pressed, except for those relating to the Asian Longhorn 
Beetle that you heard reference to earlier.
    The important thing is that we work closely together. And 
most importantly is to stop the invasive species at our shores, 
before they arrive. That is the most cost-effective method to 
address the problem.
    Mr. Bishop. I thank you. Let me turn to Ms. Hughes for a 
second, if I could.
    You said that 40 percent of New Mexico is Federal land. I 
wish ours was that low. I will trade you 27 percent, if you 
would like it. How much of that is infested by the invasive 
species, relative to State and privately owned land, the 33 
percent you were talking about?
    Ms. Hughes. Mr. Chairman, I don't have an exact number. But 
in working with the BLM, before we started the Restore, they 
estimated that 5 million acres of just BLM land needed some 
kind of treatment. And we have done 2.1 million. So just the 
BLM, I would estimate at least another 3 million acres. I don't 
have numbers for the Forest Service; I would expect it to 
probably be even higher. But I do think on the private land we 
have probably done a lot better job, because we have been 
working with them for years through the farm bill.
    Mr. Bishop. Right.
    Ms. Hughes. And there is less on the private land.
    Mr. Bishop. I am out of time, I apologize. But you did say 
that the BLM was treating, like, 10 to 15,000 acres. You are 
now doing 2.1 million acres. Thank you.
    There will be another round. Mr. Horsford, do you have 
other questions?
    Mr. Horsford. I do. Thank you, Mr. Chairman. Just briefly, 
each of you quickly, if you could, tell me. In your experience, 
is a focus on pathways or vectors of introduction a more 
effective approach in trying to prevent introductions of a 
particular species?
    [No response.]
    Mr. Horsford. Quickly, because I have only got 5 minutes.
    [Laughter.]
    Mr. Ries. Yes, it is the most cost-effective thing we can 
do.
    Dr. Beck. Pathways management is very powerful, but we need 
a balanced approach for the whole problem.
    Mr. Dye. I totally agree that we must address the pathway. 
It is the most cost-effective way to do that, and stop the 
invasion.
    Mr. Fearneyhough. I am in agreement that the pathways are 
important. But we also have to remember, Congressman, that we 
have these invasive species here, in many instances, already. 
So, they have come down the pathway in many places, so we need 
to address them where they are, as well.
    Ms. Hughes. I think we have got to pay attention to the 
fact that a lot of these are coming off of our Federal lands 
and affecting our private land owners. So the pathway is--they 
are already in our State and they are coming off our Federal 
lands. If we don't work together, we have more problems.
    Mr. Ogsbury. The Western Governors have not endorsed any 
specific strategies for invasive species control, but they have 
enacted broad principles to address the problem.
    Mr. Horsford. If I can get a copy, maybe, of those broad 
principles separately, or through the Committee.
    The USDA Forest Service adopted in December 2011 an 
internal directive to Forest Service Manual 2900 for invasive 
species management: ``The final invasive species directive will 
provide foundational comprehensive guidance for the management 
of invasive species on aquatic and terrestrial areas of the 
National Forest System.'' Have each of you reviewed how this 
policy will address some of the problems that you have 
identified? And specifically, how this could be part of the 
coordination among our local, State, and Federal partners?
    [No response.]
    Mr. Horsford. Just jump in there Mr. Dye or someone. When 
you--it counts against my time when you are not responding.
    [Laughter.]
    Mr. Dye. Excuse me, sir, but I am not totally familiar with 
the manual that you mentioned. I am sorry.
    Mr. Ries. And, of course, I have reviewed it. And it is 
really designed to better coordinate our efforts internally and 
set the tone for working with partners externally.
    Mr. Horsford. So how is that shared, then? He is the State 
Association of State Foresters. How are they not informed about 
a manual that is supposed to improve coordination, when they 
don't know about it?
    Mr. Ries. And that manual is the direction to our forest 
supervisors and district rangers, our folks in the field. So we 
don't routinely provide a copy of our internal policy to State 
Foresters. But my hope is that all of our partners will notice 
the difference.
    Mr. Horsford. OK. So, regarding how to get agencies to work 
better together, I mean we hear about this all the time in this 
Committee in particular, and some of you have some demonstrated 
successes. How can the land-managing agencies effectively 
manage the many pathways of introduction by which new invasive 
species are introduced to lands and waters under their 
management? Any suggestions? Ms. Hughes?
    Ms. Hughes. Mr. Chairman and Congressman Horsford, I just 
think it is all about partnerships. When you work together, you 
have got more people out there, we are working across different 
landscapes. We actually are in the process of doing a master 
service agreement with the Forest Service, so that we can do 
the same kind of thing as we are with the BLM, because the 
local people on the ground are the ones that know this and see 
these things. And I think that is part of the answer: more 
partnerships at the local level.
    Mr. Fearneyhough. Mr. Chairman, Congressman, I would agree 
with that. I think that some of the examples that I gave, where 
we had some successes were based in partnership. But in that 
partnership you need an avenue to get everybody to work 
together. So partnerships are key.
    Mr. Horsford. Thank you, Mr. Chairman. I think one of the 
questions I will just ask--maybe if you can all respond to 
separately at some other point--is the sustainability of 
partnerships. It is one thing to get them going, but how do you 
sustain them over time, particularly when we are talking about 
different types of species that happen at different points? And 
while there might be an interest today, how do you sustain that 
in a future process?
    Mr. Bishop. Thank you. Mr. Stewart, do you have more 
questions?
    Mr. Stewart. Yes. Maybe I will just do this briefly. And we 
will go down the row, if we could. Are there Federal policies 
in place right now that make what you are trying to do more 
difficult?
    Mr. Ries. From our perspective, no.
    Mr. Stewart. No?
    Mr. Ries. We believe we have what we need, and----
    Mr. Stewart. OK. You don't feel like there is any Federal 
policies or laws that tie your hands in trying to respond to 
these invasive species in an appropriate way.
    Mr. Ries. Well, in terms of forming partnerships to do 
that, and establish local priorities, and work together, no.
    Mr. Stewart. OK. Any others? Do you feel like your hands 
are tied, or it is made harder because of some Federal 
policies?
    Mr. Fearneyhough. Mr. Chairman, Congressman, I think that a 
specific policy is probably not the obstacle that we see, from 
a State perspective, it is often that there are several 
conflicting policies or, for instance, Forest Service operates 
one way, BLM operates another, Department of Defense operates 
another. Trying to work through that often times is the 
obstacle.
    Mr. Stewart. OK. Yes, Ms. Hughes?
    Ms. Hughes. Mr. Chairman, Congressman Stewart, the whole 
NEPA process can be an obstacle. But what we have learned to do 
is do bigger, and include everybody at one time, instead of 
going out there and doing a clearance on private land, a 
separate one on State, and a separate one on BLM. We do it 
together. And it is much more cost-effective, and it helps us 
get through that very difficult process much more economically.
    Mr. Stewart. OK. Does the NEPA process frustrate you 
sometimes in trying to deal with these things?
    Ms. Hughes. Mr. Chairman, Congressman Stewart, yes, it 
does. But we have learned to work within it, and we know it is 
a requirement, and we just make it happen together.
    Mr. Stewart. OK. Anyone else want to respond to that?
    [No response.]
    Mr. Stewart. Oh, you cowards. You may be the only people in 
America who would look at that question about does Federal 
policy make my life more difficult or what I am trying to do 
more challenging and not want to answer that question.
    Let me ask it in a slightly different way, then. Other than 
asking for more money, which, of course, is, in some 
perspectives, the answer to everything, what is it that we 
could do to help you? What would you ask Federal regulators--
which isn't us, necessarily--or those who have some input on 
that? What could we do to help you in your goal to contain or 
to mitigate the impacts of some of these invasive species? Any 
thoughts or suggestions? Again, Ms. Hughes.
    Ms. Hughes. Mr. Chairman, Congressman Stewart, I just think 
if more of the funds could be directed--if the Federal agencies 
could be directed to work more locally with the States and the 
local governments. I mean, yes, they are required to do it in 
NEPA, but they don't necessarily always do it.
    We have found out that we can actually take part of our 
farm bill dollars, spend it on Federal land, we can spend some 
of the Federal dollars on private land through the Wyden 
Amendment. There are ways, there are avenues to do it if you 
really want to. But just a little carrot, a little incentive to 
every State, all 50 States and territories, to take some of 
this invasive money and get it down to that local level, I 
think, brings people together.
    Mr. Stewart. OK.
    Ms. Hughes. Those incentives----
    Mr. Stewart. I appreciate your response on that. I think 
that is probably right. Anyone else, as far as what we could do 
to help you? Yes?
    Mr. Dye. I would like to point out a partnership that we 
have in the State of West Virginia, the Potomac Highlands Weed 
and Pest Management Area. We cooperate with all of our Federal 
partners, NRCS, U.S. Forest Service, National Park Service, and 
then the State Department of Agriculture the Division of 
Forestry, and we bring in the Nature Conservancy. We do not 
stop at the West Virginia State line. It extends into Virginia. 
That has been one of the best programs, bringing everyone 
together on the ground at the ground level. The program was 
initiated by the U.S. Forest Service. I applaud the step they 
took to bring the group together. And I am amazed at how it 
functions as a team together to address the issues as they 
come. I see that as a wave of the future in the Eastern portion 
of the Nation.
    Mr. Stewart. Thank you, Mr. Dye. Yes, Mr. Beck?
    Dr. Beck. Representative Stewart, I think strong leadership 
also would be helpful. Therefore, what I am saying, we need 
someone saying, ``You need to do this,'' the you being the 
Federal agencies. And I will use a case that happened in 
Colorado a couple of years ago, where an invasive species 
coordinator for one of the forests at a State--a Noxious Weed 
Advisory Committee meeting suggested--well, he didn't suggest, 
he said that invasive species simply weren't a priority for the 
forest.
    Mr. Stewart. Yes, OK. Thank you. Mr. Chairman, I yield 
back.
    Mr. Bishop. Mr. Ogsbury, if I could ask a simple question. 
The impact of the spread of invasive species on Federal land, 
how does that impact efforts on State and local management?
    Mr. Ogsbury. Thank you, Mr. Chairman. If one neighbor, 
whether it is the State or the Federal Government or a private 
land owner, treats for an invasive species and an adjoining 
neighbor does not, then the chances are really good that the 
treatment dollars will be wasted because of the spread of the 
species from the non-managed area. An entity can spend an 
enormous amount of money treating invasive species on its land, 
only to have that species travel from nearby lands--through air 
or human or vehicle transport--back to the previously treated 
area.
    So, I think the problem is particularly acute in the West, 
given the large amount of land that is in a checkerboard 
pattern. And it really calls, again, for more cooperative 
management on a larger landscape scale, much as they have done 
in New Mexico.
    Mr. Bishop. I appreciate that. So, Dr. Beck, you were 
saying that the issue, then, is we are growing the infestation 
area at three-and-a-half times what we are solving. Was that 
the slide that I saw?
    Dr. Beck. Yes, Chairman Bishop. We are acquiring many, many 
more acres than we are treating and restoring, correct.
    Mr. Bishop. So we are in the wrong trajectory with this 
issue. We are just going in the wrong direction in this issue.
    Dr. Beck. That is correct.
    Mr. Bishop. So, Ms. Hughes, how did you get 93 percent of 
your funding to get on the ground? And why are you able to do 
this when obviously the Federal Government is not putting that 
high of a percentage of the money dedicated to this issue on 
the ground?
    Ms. Hughes. Mr. Chairman, it probably includes several 
things. One is working through the local soil and water 
conservation districts. They are elected officials, but they 
are not paid. So we have some of that administration happening 
there. We are doing such large landscape-scale projects that it 
is taking the cost down per acre. We have been hiring retired 
Federal employees as contractors, which also helps take the 
cost down. So it is a whole various amount of things that are 
going on, and the private land owners are matching the dollars, 
oil and gas companies are matching the dollars. Just a lot of 
people are coming together because we all have the same goal.
    Mr. Bishop. And you are doing it with--didn't you say it 
was a ground-up--locally led process was the word that you 
used.
    Ms. Hughes. Yes, sir.
    Mr. Bishop. Mr. Fearneyhough? I am still mispronouncing 
that, aren't I?
    Mr. Fearneyhough. You are fine.
    Mr. Bishop. All right. Can you just talk about the success 
of your State invasive species management program, versus your 
experience with the Forest Service and BLM in Wyoming?
    Mr. Fearneyhough. Mr. Chairman, again, we work with them 
very closely. I think that the dollars that we are afforded 
that come through the Federal system, we are far more efficient 
with. Now, we receive funding through the Department of 
Agriculture. There are also monies that go straight to the 
counties. But for similar reasons to what you just heard, when 
we get those monies we are able to put them on the ground at a 
greater rate of efficiency. I would say that we do that as well 
with our State funds that we have.
    Mr. Bishop. Well, there are several States--Wyoming is one, 
Utah, others--that have devoted considerable State resources to 
improve habitat, so you can avoid the onus of the Federal--
actually, my staff said Federal U.S. Fish and Wildlife. I had a 
different adjective in front of that one, but we will go with 
``Federal.''
    So they won't be listing the sage grouse under the 
Endangered Species Act. Do you feel the efforts to improve sage 
grouse habitat by getting rid of or eradicating cheatgrass is 
being undermined by the lack of a similar action on the Federal 
lands in Wyoming?
    Mr. Fearneyhough. I think in trying to control cheatgrass, 
I think--as I spoke to earlier--the issue is the variety of 
policies that you end up having to deal with. Now we are 
throwing U.S. Fish and Wildlife Service into the mix, along 
with the actual land management agencies. The policies that you 
deal with there are very hard to overcome. And that is whether 
you are dealing with just the NEPA, or if you are dealing with 
the actual trying to get something applied on the ground. It is 
very difficult to overcome those----
    Mr. Bishop. Well, then let me follow up with that--with the 
last question that Representative Lummis wanted to ask you, and 
did not have time to do it. She wrote, ``I understand that 
there were several layers of approval for the use of pesticides 
on public lands, starting with the EPA and then going through 
the different processes employed by each agency. Do you think 
streamlining that process is something Congress should be 
looking''--she ended in a preposition; I can't do that. We 
should be looking at that?
    Mr. Fearneyhough. Mr. Chairman, yes. I think that you 
should be looking at it. The example, as I understand it, in 
that instance, where we are talking about pesticides 
specifically, you have a pesticide that is approved by EPA. 
Then it also has to go through an approval process through BLM. 
Then it has to go through an approval process for the Forest 
Service, and on down the line.
    So, it would be great if we had an opportunity that, once 
something is approved by a Federal agency that should be 
concerned with those pesticides, that everyone else accepts 
that, and we can get it on the ground.
    Mr. Bishop. Thank you. Mr. Horsford, do you have other 
questions?
    Mr. Horsford. If I could just follow up to the last 
question you asked, Mr. Chairman.
    So, your last response to the Chairman's question. What 
happens when the approval only deals with one type of species, 
and then a different Federal agency has a interest or a scope 
or responsibility in another. When you say just to approve 
something, you could be closing off the opportunity to address 
another invasive species. Correct?
    Mr. Fearneyhough. Ranking Member Horsford, I understand the 
question. I think that possibility does exist. But in the 
examples that we are seeing, we are seeing it is approved for 
Plant X on BLM--or through the EPA. So BLM then has to go 
through a process to approve it for the same plant, or the same 
insect, and then on down the line.
    Certainly I think when you have that approval process, it 
should be very robust. You should make sure that the chemical 
or whatever the agent is that you are using is a viable and 
safe agent. However, once it gets approved for a species, I 
believe that it should be accepted by others.
    Mr. Horsford. So just to clarify, then, your response is 
that the approval among different Federal agencies should be 
based on addressing an invasive species, not to mitigate other 
factors which may need different approval processes. Correct?
    Mr. Fearneyhough. Ranking Member Horsford, yes, that is 
correct.
    Mr. Horsford. OK. And then, Mr. Hughes, I really 
appreciated your perspective and the work that you are doing 
with Restore New Mexico. And I think it comes down to 
leadership. It sounds like you have a can-do attitude and you 
bring the stakeholders to the table. And that probably helps 
push that envelope. And it sounds like you are being very 
creative about how to deploy those resources.
    I am interested in knowing how much Federal land is there 
in New Mexico, as a percentage?
    Ms. Hughes. Congressman Horsford, we have 40 percent 
Federal land----
    Mr. Horsford. OK.
    Ms. Hughes [continuing]. In New Mexico.
    Mr. Horsford. So most of this is being done with State and 
private land activity. In my State of Nevada, we are over 80 
percent Federal land. So----
    Ms. Hughes. Yes, sir. With this Restore New Mexico, it has 
been all types of land included: State, Federal, private, all 
together.
    Mr. Horsford. And I completely agree with your approach, 
bringing everybody together, regardless if they are State, 
private, Federal, to work on projects in an inclusive manner. 
Even though it may not be a particular area's interest today, 
it will be tomorrow.
    So the more that you can keep them engaged in understanding 
the big picture--but I do think, Mr. Chairman, there is a bit 
of a disconnect sometimes because in some States the ability to 
act or react, like in New Mexico, is very different than in a 
State like Nevada, or another State that has so much Federal 
land, to where we are reliant on those Federal agencies doing 
their job, because we can't do that on our own. And I think 
that has to be taken into account with these Federal policies.
    Let me just end by asking--all of you talked about the need 
to work together better and to create comprehensive solutions 
to invasive species. And it is not new, right? And we have 
heard this many times, and we continue to hear similar 
concerns. Why has there been limited progress in national 
efforts to work together and to take on the bigger problem? And 
what is the one thing that you would recommend to help improve 
that?
    Ms. Hughes. Congressman Horsford, the BLM, after they 
started working with us, they told us themselves that their 
contracting process was their worst enemy. In other words, it 
took them forever to actually just get an RFP out and get money 
on the ground. And once they signed the overall agreement with 
us, that the money could go to the local level, and we could do 
the RFP, we actually are getting those same Federal dollars on 
the ground within a couple of months, where it might take them 
a year to 2 years.
    Mr. Horsford. OK.
    Ms. Hughes. So----
    Mr. Horsford. Contracting? If everybody else could quickly 
answer that, just one recommendation that would help improve 
the process.
    Mr. Ogsbury. Well, one recommendation I might offer is to 
look for other models where this kind of collaboration has been 
successful. And the one that I would cite would be the Western 
Region Cohesive Wild Land Fire Management Strategy, which 
brings together a diverse array of Federal, State, and private 
partners. Everybody is at the table developing common goals and 
strategies and objectives for the prevention and control of 
wild fires.
    Mr. Dye. I wouldn't give up on the National Invasive 
Species Council. There is a framework there with coordination, 
communication, just a continued emphasis among those Federal 
agencies. And for them to focus on partnerships at the ground 
level, like I described in the Potomac Highlands Cooperative, 
it can be very effective.
    Mr. Fearneyhough. Mr. Chairman, with permission, I think 
that making sure--again, we have heard the word ``partnership'' 
a lot today. But I think that we need those partnerships. We 
also need a mechanism to make sure that the people that are in 
different locations have the opportunity to say, ``This is 
where we need to focus our resources today.''
    And as I mentioned earlier, the east coast is different 
than it is in Wyoming and in California. So I think that we 
need to have a very strong local input, wherever that is.
    Dr. Beck. Mr. Chairman and Representative Horsford, I 
think, again, very strong leadership beginning back here in 
Washington, D.C. is very important. But that leadership, the 
voice of leadership, has to be felt through the entire system, 
all the way down to the ground, to assure that we work 
together.
    Mr. Ries. Mr. Chairman and Ranking Member Horsford, two 
parts to your question. One was why haven't we made more 
progress on this. And I think we continue to learn. But as Dr. 
Beck described, this is a huge problem. This is significant all 
across the country. And I think the common theme toward 
solution is one that you have heard around this table over and 
over again, and that is that we need to work together. We need 
to partner up. And we need to cooperate locally to identify 
priorities and work together to deal with them.
    Mr. Bishop. I appreciate all of you being here. I 
appreciate your testimony, as well. There may be other 
questions that Members have that we would submit to you, and 
the record will be held open for 10 days for those responses, 
if possible.
    I think today is one of the first times I know this 
Committee has actually looked on this particular issue. And I 
think there is a couple of things that are very clear from the 
testimony that you have given. One is we are spending a great 
deal of money on an issue but we are not necessarily getting 
the money on the ground to the problem that has to be there, 
and solving that problem.
    The second is we are doing all sorts of coordination 
efforts, but sometimes those are too many and too complex and 
at differing approaches to it. We have a structural problem in 
actually going after this in a reasonable way over several 
different kinds of jurisdiction lines. And I think the positive 
aspect is we have seen how some local entities have been able 
to actually solve this problem and deal with it very 
effectively, if we change the structural issues and we also 
change some of the spending habits that we have. And this is a 
problem that is not going to go away.
    And, as Dr. Beck indicated, this is a problem that is 
growing, even though we are spending more money at it. We are 
not solving it. So we have to start having a basic paradigm 
shift here, that we have to look at this in a different way, 
because it's not working in what we are doing. As much as we 
would like to work together in a wonderful way and coordinate 
our efforts, we are not doing it. We have to do something 
drastically different. And I appreciate your testimonies and 
your input.
    If there is nothing else--I guess it is just us. If there 
is nothing else, right? This Subcommittee will stand adjourned, 
and I appreciate, once again, your willingness to be here.
    [Whereupon, at 11:33 a.m., the Subcommittee was adjourned.]

             [Additonal Material Submitted for the Record]

       Letter Submitted for the Record by The Nature Conservancy
                             4245 N. Fairfax Drive,
                                   Suite 100, Arlington VA,
                                          22203-1606, May 16, 2013.

The Honorable Rob Bishop, Chairman,
The Honorable Raul Grijalva, Ranking Member,
Subcommittee on Public Lands and Environmental Regulation,
U.S. House of Representatives,
Washington, D.C. 20515.
    Dear Representatives Bishop and Grijalva,
    The Nature Conservancy (The Conservancy) appreciates the attention 
that the Subcommittee on Public Lands and Environmental Regulation is 
devoting to the important threat posed by invasive species. We would 
like to take this opportunity to add our thoughts to your 
deliberations. We hope thus to contribute to thoughtful innovations 
aimed at improving the efficacy of programs intended to reduce the 
damage caused by invasive species.
    The Healthy Habitats Coalition (the Coalition) has identified 
serious shortcomings in our Nation's response to the damage caused by 
invasive species and brought Congressional attention to the important 
task of managing invasive species on Federal lands. The Conservancy 
applauds the Coalition for achieving this progress. However, the 
Conservancy feels that the language provided by the Coalition stops 
short of addressing the pathways by which additional invasives enter 
the country. Until these pathways are closed, managing established 
populations will be a never-ending burden due to constant new 
introductions. The Conservancy would like to offer our suggestions on 
the structure of an effective, comprehensive invasive species program.

                          Our Recommendations

    (1) Implement a mechanism for coordinating federal invasive species 
programs and ensuring that priorities and strategies are aligned across 
agencies.
    (2) Grant appropriate agencies authority to manage invasive species 
that currently fall outside any agency's jurisdiction.
    (3) Where agency authority is inadequate to managing invasive 
species or pathways of introduction, enact strengthening amendments; 
e.g., the Lacey Act.
    (4) Provide sufficient resources to agencies to enable them to 
carry out their responsibilities for preventing introduction and spread 
and managing established populations of invasive species.
    (5) Support research and outreach programs essential to improving 
programs' efficacy.
    (6) Adopt metrics for gauging program efficacy that measure success 
in preventing introduction and spread, closing off pathways of species 
movement, and resulting in long-term control or removal of invasive 
species.

                               Background

The Problem
    The Conservancy agrees with the Healthy Habitats Coalition that:
    (1) Invasive species impose huge costs on our resources and our 
economy;
    (2) The Federal Government effort has increased compared to 20 
years ago, but agencies still have too little capacity and authority. 
Nor are efforts sufficiently coordinated;
    (3) There is a need to increase agencies' accountability, improve 
measurements of programs' efficacy--and make changes where programs are 
not effective;
    (4) It is helpful to build support and capacity at the State, 
regional, and community level, and encourage voluntary cooperation of 
affected private entities and communities.

    The problem is not new; the Office of Technology Assessment 20 
years ago observed U.S. Government programs that address invasive 
species are scattered among a myriad of agencies and authorized by 
numerous statutes. It would be beneficial if all these programs applied 
the same principles.
            Coordination
    Currently, the responsibility for coordinating Federal agencies' 
programs and encouraging action by other parties falls to the National 
Invasive Species Council. The Council has lacked sufficient authority 
to ensure coordination across the member agencies. The Conservancy 
supports efforts to re-invigorate programs aimed at coordinating 
invasive species strategies and activities, while we remain open to 
ideas on how best to achieve this goal.
            Preventing Introduction and Spread
    Several Federal agencies have responsibility for prevention 
programs targeting various types of species, based on the agencies' 
legislatively mandated responsibilities:
     USDA Animal and Plant Health Inspection Service (APHIS)--invasive 
plants; plant pests; parasites & diseases of livestock and poultry.
     USDI Fish and Wildlife Service (FWS)--invasive vertebrate animals 
and some invertebrates.
     Coast Guard and Environmental Protection Agency--organisms 
transported in ballast water.
     Centers for Disease Control--human health threats.
     DHS Customs and Border Protection--general authority over all 
incoming people, goods, and vehicles; has formal collaborative 
agreements with some agencies, e.g., APHIS.

    Authority for regulating introduction and spread of some types of 
potentially invasive organisms is unclear. These include:
     Diseases of wildlife that don't attack livestock or poultry, e.g., 
whitenose syndrome of bats; chytrid fungus of amphibians.
     Invertebrates that are not plant pests and that are not currently 
listed under the Lacey Act, e.g. horseshoe crabs.
     Pests that attack only dead plants, e.g., termites.
     Pests that are nuisances to humans but do not spread disease or 
attack agricultural plants; for example, APHIS originally classified 
the brown marmorated stinkbug as a nuisance species and therefore 
declined to attempt to contain its spread.
     Invasive marine animals and plants.
     Hull-fouling organisms.

    None of the existing ``prevention'' programs is succeeding in 
preventing introductions of damaging invasives. APHIS has strong and 
broad authorities under the Plant Protection Act, and has the most 
resources of any agency with invasive species responsibilities. 
Nevertheless, APHIS staffing and funding are still inadequate to 
implement fully programs for which the agency is responsible. The FWS 
Lacey Act program is an example of a program hampered by weak 
legislative authority and completely inadequate resources.
A Comprehensive Approach
    Regarding invasive species program components and priorities, the 
Nature Conservancy continues to emphasize policies and actions intended 
to prevent introductions of additional non-native species to the United 
States or to North America more broadly. We include under this umbrella 
actions that enable early detection of new invaders and rapid response 
to eradicate or contain them. Our experience has led us to focus on 
pathways or vectors of introduction as a more effective approach than 
trying to prevent introductions of particular species. Once a species 
has been detected inside the United States or in North America, 
eradication and control methods need to combine measures addressing 
both pathways of movement (e.g., firewood, boat trailers) and species-
specific attributes (e.g., detection methods; biocontrol agents).
    To create strong and effective invasive species programs, the 
Congress should ensure that agencies tasked with preventing 
introductions or eradicating or containing early-stage invasions have 
adequate funding and the following attributes:

Prevention Programs:
    (a) Statutory authority to regulate both potentially invasive 
organisms and the pathways or vectors by which they are moved. This 
authority should include the power to set conditions for importation, 
inspect incoming articles, detain or destroy non-compliant articles, 
and inspect and quarantine premises that receive imports. It is best if 
the agency is also authorized to regulate interstate movement.

    (b) Sufficient resources to enable timely completion of the 
following tasks:
        (i) Evaluate potential introductions and pathways;
        (ii) Conduct risk assessments and other analyses;
        (iii) Adopt appropriate actions to prevent those introductions 
        or close those pathways;
        (iv) Promulgate regulations and comply with the National 
        Environmental Policy Act;
        (v) Carry out other program responsibilities, e.g., inspection 
        of shipments, interactions with affected businesses and 
        stakeholders to identify practical approaches, enforcement 
        (including investigations, preparation of cases, holding 
        hearings, legal prosecutions, etc.);
        (vi) Conduct outreach and extension programs in support of the 
        program (e.g., to encourage compliance);
        (vii) Carry out research needed to improve risk analysis, 
        prediction, detection, and control measures;

Early Detection and Rapid Response programs:
    (a) Research capacity to develop
        (i) Detection and control tools (e.g., pheromone traps);
        (ii) Understanding of principal pathways and vectors so as to 
        target detection and enforcement efforts where they will 
        provide the greatest return on investment;
    (b) Detection networks deploying appropriate tools and targeting 
appropriate pathways or vectors. This must include engagement by
        (i) Entities engaged in moving articles that can transport the 
        pest of concern (e.g., shippers using crates, pallets, or other 
        packaging made of wood);
        (ii) Concerned public;
    (c) Official reporting and communicating capacity; outreach 
capacity;
    (d) Lead agency with clear authority for responding to incursion 
and a command structure to manage the response; working relationships 
with collaborators (Federal, State, local, non-governmental). Over the 
years, several models for such programs have been suggested, including 
the Interagency Fire program, Centers for Disease Control, and oil 
spill emergency response.

    Most introductions of new species to the United States occur in 
cities and suburbs--where imported goods arrive and are disseminated; 
or at ports, estuaries, and the Great Lakes. Federal land-managing 
agencies (e.g. USDA Forest Service, Bureau of Land Management) do not 
have jurisdiction over either these geographic areas or the pathways of 
introduction. Congressional support for invasive species programs will 
be most effective when it is focused on agencies (e.g. National Oceanic 
and Atmospheric Administration, Coast Guard, APHIS, FWS) with 
jurisdiction over pathways and authority to operate in these 
geographies.
Role of Land Management Agencies
    While the Conservancy believes the highest priority is to prevent 
additional introductions, we agree that it is important to establish 
and fund programs aimed at minimizing damage caused by the thousands of 
invasive species already in the country. Numerous entities implement 
such programs, including a half dozen or more Federal land-managing 
agencies, State agencies, county weed districts, and private property 
owners. Effective invasive species control programs should aim to:
    1. Prevent introduction to lands or waters \1\ under their 
jurisdiction of new potentially invasive species;
---------------------------------------------------------------------------
    \1\ It is unclear to us whether the Healthy Habitats Coalition 
proposal now addresses aquatic organisms and waters under Federal 
jurisdiction. The Conservancy supports a comprehensive approach.
---------------------------------------------------------------------------
    2. Detect presence of and respond rapidly to control new 
potentially invasive species;
    3. Prevent spread of invasive species on lands or waters under 
their jurisdiction;
    4. Prevent spread of invasive species from lands or waters under 
their jurisdiction to others' properties;
    5. Reduce or eradicate invasive species populations while 
encouraging recovery of native species and maintaining or restoring the 
utility of the lands or waters for intended purposes;
    6. Educate people associated with the lands or waters about 
invasive species to gain their cooperation (and possibly enhance their 
invasive species control and stewardship efforts more generally).

    Components of effective invasive species containment programs 
operated by land-managing agencies should include:
    1. Prevention (see relevant sections above; statutory or regulatory 
authority is usually limited to the lands or waters under the agency's 
jurisdiction);
    2. Early detection programs and rapid response powers (see relevant 
sections above; include appropriate staffing and funding);
    3. Staff and funding dedicated to management of established 
invasive species to conceive, plan, and oversee actions; sometimes, to 
carry out those actions;
    4. Research and development (in-house or external) focused on 
understanding the invasion process, developing detection and management 
tools, monitoring, etc. appropriate to the invasive species that 
threaten the lands or waters under the agency's jurisdiction.


    It is to the advantage of resource and land-managing agencies that 
agencies charged with preventing introductions are as effective as 
possible. Therefore it is appropriate that land-managing agencies 
assist or support prevention agencies' efforts. For example, the USDA 
Forest Service has conducted research into Asian longhorned beetle 
biology and provided staff (smoke jumpers) to carry out tree canopy 
searches for the beetle.
Need for Sustained Effort
    Management of any specific invasive species or group of species 
requires a long-term effort. Management of pathways or vectors of 
introduction and spread requires a perpetual program. Long-term 
programs function most efficiently when they enjoy long-term stability 
of funding and are guided by expert staff. Research and outreach to 
stakeholders are vitally important components of effective invasive 
species prevention and control programs. The Conservancy is therefore 
concerned that the Coalition's proposal to restrict funding to these 
activities (set at 5 percent each) will undermine programs' efficacy. 
Funding should be driven by priorities and program effectiveness based 
on performance metrics, rather than by a percentage allocation.
Metrics
    The Conservancy agrees that programs should be held accountable for 
performance. Developing appropriate metrics will be difficult. ``Acres 
treated'' is easy to understand, but is not very meaningful and, in a 
comprehensive program insufficient because:
    1. It does not enable assessment of the most important activity--
preventing species' introduction and spread;
    2. It does not measure activities that target pathways or vectors 
rather than invaded areas;
    3. It does not measure whether the treatment was effective in 
eradicating or reducing the target invasive species.

    The Conservancy proposes some alternative metrics--although we 
recognize difficulties in applying all of them:
     Rate of new invasions; possibly categorized by type of invader or 
geography;
     Acres infested and change over time (e.g., range expansion or 
contraction of targeted species);
     Economic impact of invasive species;
     Number of species intercepted.
Moving Forward
    The Conservancy is interested in innovative suggestions for 
improving invasive species efforts at all levels of government. In this 
paper we describe some of our ideas for a comprehensive invasive 
species program. We think that the Healthy Habitats Coalition has 
started a discussion that should be pursued in the context of 
addressing the whole invasive species problem. Even if everything 
cannot be accomplished immediately, the entire system can be 
envisioned, priorities set, and strategic progress made. There may be 
better uses for the existing resources, but these should be carefully 
evaluated with the goal of improving overall program effectiveness.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
